<html>
<title> - STATE LEADERSHIP AND INNOVATION IN DISABILITY EMPLOYMENT</title>
<body><pre>[Senate Hearing 113-434]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-434
 
        STATE LEADERSHIP AND INNOVATION IN DISABILITY EMPLOYMENT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING STATE LEADERSHIP AND INNOVATION IN DISABILITY EMPLOYMENT

                               __________

                           FEBRUARY 26, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
79-736                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

           Pamela J. Smith, Staff Director and Chief Counsel

                 Lauren McFerran, Deputy Staff Director

               David P. Cleary, Republican Staff Director


                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, FEBURARY 26, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     4
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     6
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    20
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    22
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    23
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    25

                            Witness--Panel I

Markell, Hon. Jack, Governor of Delaware, Dover, DE..............     8
    Prepared statement...........................................    11

                          Witnesses--Panel II

Boone, Jane, Consultant, State Employment Leadership Network, 
  Washington State, Seattle, WA..................................    27
    Prepared statement...........................................    29
O'Brien, Michael, Ed.D., CRC, CVE, Executive Director, Oklahoma 
  Department of Rehabilitation Services, Oklahoma City, OK.......    39
    Prepared statement...........................................    42
Uchida, Donald R., Executive Director, Utah State Office of 
  Rehabilitation, Salt Lake City, UT.............................    48
    Prepared statement...........................................    49

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    .............................................................
    Response to questions of Senator Murray by:
        Hon. Jack Markell........................................    74
        Jane Boone...............................................    75
        Michael O'Brien, Ed.D., CRC, CVE.........................    83
        Donald R. Uchida.........................................    83

                                 (iii)



        STATE LEADERSHIP AND INNOVATION IN DISABILITY EMPLOYMENT

                       TUESDAY, FEBRUARY 26, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SDG-50, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Murray, Murphy, Warren, Baldwin, 
Hatch, and Alexander.

                  Opening Statement of Senator Harkin

    The Chairman. The Committee on Health, Education, Labor, 
and Pensions will please come to order. Today the committee 
will examine leadership and innovation on the part of States in 
the field of disability employment.
    The topic and timing of today's hearing are inspired by the 
leadership of Governor Jack Markell of Delaware, who in his 
role as chair of the National Governors Association has made 
boosting employment outcomes for Americans with disabilities 
his signature initiative. This past weekend at the NGA mid-
winter meeting, Governor Markell and NGA vice-chair, Governor 
Mary Fallin of Oklahoma, led two discussions with the other 
Governors in attendance designed to share best practices and 
highlight State level innovations and public-private 
partnerships that can be replicated across the country.
    During the last Congress, this committee focused 
significant attention on the goal of boosting disability 
employment. We held a series of bipartisan hearings and 
roundtables and issued a chairman's report last July titled 
``Unfinished Business: Making Employment of People with 
Disabilities a National Priority.'' I want to thank Senator 
Enzi and other members of the committee who pitched in on 
advancing this bipartisan priority.
    In that July report, we noted that labor market 
participation rates for working age Americans with disabilities 
had not improved in any significant way since the late 1980s, 
and that the number of individuals with disabilities in the 
workforce had shrunk by about a million workers, from 5.8 
million to 4.8 million, during the recent economic downturn. 
This decrease, on a percentage basis, was five times greater 
than the impact of the recession on workers without 
disabilities.
    I have set the committee's sights on a twin goal to make up 
the ground we have lost since 2008 and to increase the size of 
this workforce to at least 6 million by 2015. I am grateful 
that the U.S. Chamber of Commerce has endorsed that goal. And 
during this new Congress, I look forward to working with 
Senator Alexander, our new Ranking Member, and my fellow 
members on this committee as well as stakeholders in the 
business and disability communities to achieve this goal as we 
seek to grow the economy and expand opportunities for all 
Americans to join the middle class.
    I just might point out we're in 2013. We have until 2014, 
so we have only 2 years to go to reach that 6 million goal.
    As we noted in the July report, States can play a huge role 
in helping boost disability employment outcomes. In fact, it's 
worth pointing out that at a time when the national employment 
rate for 18 to 64-year-olds with disabilities was 32.6 percent, 
according to 2011 numbers from the U.S. Census Bureau, the 
range in employment rates at the State level went from a low of 
24.3 percent in West Virginia to a high of 49.8 percent in 
North Dakota.
    This variation among the States was most recently 
documented by the Institute on Disability at the University of 
New Hampshire. And I will submit a summary of the institute's 
findings into the record so that members of this committee can 
see how their own States compare.
    [The information referred to follows:]


 Table 2.1: EmpLoyment--Civilians With Disabilities Ages 18 to 64 Years PLiving in the Community for the United
                                             States and States: 2011
----------------------------------------------------------------------------------------------------------------
                                                                                              Employed
                             State                                     Total      ------------------------------
                                                                                         Count         Percent
----------------------------------------------------------------------------------------------------------------
U.S............................................................        19,988,156         6,521,860         32.6
AL.............................................................           433,042           114,848         26.5
AK.............................................................            44,003            18,158         41.3
AZ.............................................................           375,002           122,867         32.8
AR.............................................................           268,822            84,720         31.5
CA.............................................................         1,879,561           590,531         31.4
CO.............................................................           281,930           116,804         41.4
CT.............................................................           185,373            70,687         38.1
DE.............................................................            55,773            20,051         36.0
DC.............................................................            36,735            11,025         30.0
FL.............................................................         1,131,661           330,657         29.2
GA.............................................................           663,904           196,757         29.6
HI.............................................................            63,025            21,886         34.7
ID.............................................................           100,818            36,605         36.3
IL.............................................................           659,300           225,864         34.3
IN.............................................................           459,135           156,024         34.0
IA.............................................................           168,942            70,216         41.6
KS.............................................................           181,978            77,113         42.4
KY.............................................................           421,076           107,586         25.6
LA.............................................................           384,372           124,345         32.4
ME.............................................................           108,156            33,985         31.4
MD.............................................................           305,903           113,541         37.1
MA.............................................................           373,361           118,518         31.7
MI.............................................................           749,714           216,619         28.9
MN.............................................................           270,050           115,040         42.6
MS.............................................................           264,876            77,680         29.3
MO.............................................................           449,310           146,338         32.6
MT.............................................................            67,840            29,177         43.0
NE.............................................................            93,933            42,034         44.7
NV.............................................................           166,295            60,374         36.3
NH.............................................................            77,941            28,694         36.8
NJ.............................................................           412,949           145,510         35.2
NM.............................................................           147,060            47,125         32.0
NY.............................................................         1,062,862           332,740         31.3
NC.............................................................           687,820           204,522         29.7
ND.............................................................            33,678            16,788         49.8
OH.............................................................           816,572           265,017         32.5
OK.............................................................           322,232           113,834         35.3
OR.............................................................           279,001            95,248         34.1
PA.............................................................           862,369           279,458         32.4
RI.............................................................            64,693            19,799         30.6
SC.............................................................           351,739            94,592         26.9
SD.............................................................            47,498            22,825         48.1
TN.............................................................           546,248           152,788         28.0
TX.............................................................         1,572,066           580,472         36.9
UT.............................................................           133,893            54,126         40.4
VT.............................................................            41,854            15,169         36.2
VA.............................................................           458,657           153,089         33.4
WA.............................................................           457,528           160,888         35.2
WV.............................................................           198,721            48,218         24.3
WI.............................................................           327,040           126,657         38.7
WY.............................................................            36,302            17,347         47.8
PR.............................................................           405,543            96,904         23.9
----------------------------------------------------------------------------------------------------------------
Source: U.S. Census Bureau, 2011 American Community Survey, American FactFinder, Table B18120; <http://
  factfinder2.census .gov>; (accessed 24 September 2012). Based on a sample and subject to sampling variability.


   Table 2.9: EmpLoyment Gap--Civilians Ages 18 to 64 Years Living in the Community  for the United States and
                                       States, by Disability Status: 2011
----------------------------------------------------------------------------------------------------------------
                                                                   Employment rate (percent)
                            State                             ----------------------------------   Gap (percent
                                                                  Disability     No disability         pts)
----------------------------------------------------------------------------------------------------------------
U.S..........................................................            32.6             72.8             40.2
AL...........................................................            26.5             70.2             43.6
AK...........................................................            41.3             75.3             34.0
AZ...........................................................            32.8             69.9             37.1
AR...........................................................            31.5             72.3             40.8
CA...........................................................            31.4             69.5             38.1
CO...........................................................            41.4             76.3             34.8
CT...........................................................            38.1             76.2             38.1
DE...........................................................            36.0             74.5             38.6
DC...........................................................            30.0             71.5             41.5
FL...........................................................            29.2             70.6             41.4
GA...........................................................            29.6             70.4             40.7
HI...........................................................            34.7             74.4             39.7
ID...........................................................            36.3             73.1             36.8
IL...........................................................            34.3             73.3             39.0
IN...........................................................            34.0             74.0             40.0
IA...........................................................            41.6             80.7             39.1
KS...........................................................            42.4             78.9             36.5
KY...........................................................            25.6             72.0             46.4
LA...........................................................            32.4             72.0             39.7
ME...........................................................            31.4             78.1             46.7
MD...........................................................            37.1             77.3             40.2
MA...........................................................            31.7             76.9             45.2
MI...........................................................            28.9             70.2             41.3
MN...........................................................            42.6             80.2             37.6
MS...........................................................            29.3             68.6             39.2
MO...........................................................            32.6             75.6             43.1
MT...........................................................            43.0             76.5             33.4
NE...........................................................            44.7             81.5             36.7
NV...........................................................            36.3             71.3             35.0
NH...........................................................            36.8             79.5             42.7
NJ...........................................................            35.2             73.9             38.7
NM...........................................................            32.0             69.7             37.7
NY...........................................................            31.3             72.1             40.8
NC...........................................................            29.7             71.8             42.1
ND...........................................................            49.8             83.7             33.9
OH...........................................................            32.5             74.1             41.7
OK...........................................................            35.3             74.8             39.5
OR...........................................................            34.1             71.0             36.9
PA...........................................................            32.4             74.3             41.9
RI...........................................................            30.6             76.3             45.7
SC...........................................................            26.9             70.3             43.4
SD...........................................................            48.1             81.3             33.2
TN...........................................................            28.0             72.8             44.9
TX...........................................................            36.9             73.5             36.6
UT...........................................................            40.4             75.1             34.7
VT...........................................................            36.2             80.0             43.8
VA...........................................................            33.4             76.0             42.6
WA...........................................................            35.2             73.3             38.1
WV...........................................................            24.3             69.2             44.9
WI...........................................................            38.7             78.7             39.9
WY...........................................................            47.8             80.1             32.3
PR...........................................................            23.9             52.7             28.8
----------------------------------------------------------------------------------------------------------------
Source: U.S. Census Bureau, 2011 American Community Survey, American FactFinder, Table B18120; <http://
  factfinder2.census .gov>; (accessed 24 September 2012). Based on a sample and subject to sampling variability.
  The complete document may be found at http://disabilitycompendium.org/.


    The Chairman. Today we'll hear from four States that are 
doing better than the national average on this issue: Delaware, 
Washington, Oklahoma, and Utah. In addition, because Governor 
Markell of Delaware has been engaged since last July in a 
discussion with other Governors, his testimony will give us an 
opportunity to learn about best practices from a number of 
other States that have been a part of his NGA chair's 
initiative.
    As this committee works to improve employment opportunities 
for all Americans, we must remember our citizens with 
disabilities, including our wounded warriors, and ensure that 
they have access to the same opportunity to be a part of the 
American workforce, the same opportunity to pursue the American 
dream, as their friends and their neighbors.
    I now invite my colleague, our new Ranking Member of the 
HELP Committee, Senator Alexander, for an opening statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thank you, Mr. Chairman.
    Governor and distinguished attendees at our hearing today, 
we're glad you all are here. I have three things I'd like to 
say. First, to Chairman Harkin, who has announced that after a 
couple more years he'll be retiring from the Senate--I'd like 
to salute him for his nearly 40 years in Congress addressing 
the challenges of many Americans with disabilities. He helped 
sponsor and pass the Americans with Disabilities Act, the 
Individuals with Disabilities Act, the Assistive Technology 
Act, and the Vocational Rehabilitation Act.
    A lot of his work is a tribute to his late brother. He has 
pioneered in policy. It has been his focus. And when he's 
rocking on his porch in Iowa thinking back over what he has 
accomplished, I'm sure his work for Americans with disabilities 
will be one of the things that we remember most about Tom 
Harkin.
    Second, to the Governor and to Chairman Harkin. I really am 
delighted with the way you're approaching this. Sometimes in 
Washington, we come up with a big idea and say, ``Well, now, 
let's make everybody do it.'' Another way to do it is to create 
an environment in this big complex country where States, 
communities, and the private sector can succeed. And that's the 
approach that you're taking today, Mr. Chairman, and I admire 
it.
    I know something about the National Governors Association. 
I was chairman of it in 1985 and 1986. I had a precocious young 
Governor from Arkansas named Bill Clinton who was the vice 
chairman. And that was the first year that we had selected a 
single subject--that year, it was education--to focus on for 
the entire year, getting all of the Governors involved in some 
way toward that goal.
    I think when the NGA was founded--and I think it was by 
Teddy Roosevelt, who must have been so busy he didn't have time 
to do anything else--they focused on a single subject. I think 
it might have been railroads. But this idea of focusing the 
attention of all the Governors on a single subject is a 
terrific tactic--the way our country works--for expanding the 
goal that Senator Harkin announced earlier, which is how we can 
help more Americans with disabilities find employment.
    Involving the private sector makes a difference. And if 
you'll permit one personal example, I remember the last year I 
was Governor, my Commissioner for Human Resources, whose name 
was Marguerite Sallee, came to me and said, ``I have an idea 
for worksite daycare. Let's just ask employers in Tennessee to 
provide 1,000 worksite daycare sites,'' a lot like what you're 
talking about, Governor. Let's ask employers to do thus and so 
involving disabilities.
    And I was busy and didn't have much time to do it, so I 
said OK. But we did that, and they produced 2,000. In other 
words, they did twice as much as we had asked. Then after we 
got out, we saw the need for the idea of worksite daycare. And 
she and Captain Kangaroo and I and my wife and another founded 
a company, which was called Corporate Child Care, and we helped 
companies provide worksite daycare centers. That has now merged 
with Bright Horizons, and it is the largest such company in the 
world providing worksite daycare--so ideas that we can create 
an environment and that Governors can encourage and spread the 
message and even create private sector opportunities.
    The last thing Mr. Chairman, is just an example of the kind 
of person we might be talking about today. And I think of a 
friend of our family, whose name is Jack. He was born with 
fragile X syndrome. He has an IQ of about 55. His mother 
considers him to be an individual of high functioning skills, 
but he does need help and assistance at times.
    He's had some good help in schools, a Montessori school in 
the Montgomery County Schools, a residential high school in New 
York. He's had different jobs as a bus boy. He worked at a 
grocery store. He finally got connected with a company--I don't 
know if it's profit or nonprofit--called Service Source that 
provides training to individuals with intellectual disabilities 
and matches them to the needs and skills.
    He started at one place, at the Air and Space Museum. That 
didn't work out. Now, he's employed at the Marine Corps 
barracks as a mess attendant. He's been there 10 years and 
thinks it's the right fit. It's a success story. He enjoys 
getting a paycheck and likes to contribute to his living 
expenses. The company provides a way to get him back and forth 
from home to there.
    So in our big, resourceful, enterprising country, we 
perhaps can help create an environment in which you, the 
Governors, and the private sector in our country can reach the 
goal that Senator Harkin has spent his years in Congress hoping 
that our country reaches. I look forward to learning from you 
today.
    The Chairman. That was excellent. And thank you for your 
kind words. I appreciate that very much.
    My good friend, Senator Orrin Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Well, thank you, Mr. Chairman. I remember 
those days when you and I stood on the floor on the Americans 
with Disabilities Act and passed it and how we both broke down 
and cried afterwards after we went outside and saw all the 
wonderful people who were so pleased that that bill was finally 
passed, and I've been proud of your work ever since.
    And, of course, naturally, I'm proud of the distinguished 
Senator from Tennessee. He's been a mentor to me and a great 
human being in my life.
    But in 1981, I established my Utah-based advisory committee 
on disability issues to partner with all Utah stakeholders 
committed to disability policy. The committee has maintained an 
official membership of between 15 to 20 members. In every one 
of the 30 years since, I've been able to get special advice 
from my disability advisory committee, special insights, and, 
of course, input.
    And today, I'm very proud to introduce Mr. Don Uchida to 
the Senate HELP Committee. Don has been serving on my 
disability advisory committee for many years. He is the 
executive director of the Utah State Office of Rehabilitation. 
And because Utah's vocational rehabilitation program has been 
so successful, I felt Don would be an ideal witness for this 
hearing on State leadership and innovation in disability 
employment.
    Don pays regular visits to my offices in Utah and here in 
Washington to dazzle us with how many individuals with 
disabilities are being successfully trained, retrained, and 
sustained in employment. Don is so enthusiastic about the 
program and always comes prepared with data, numbers, pie 
charts, graphics, ET cetera. But nothing speaks of Utah's 
successes more than the personal stories of Utah's disabled 
citizens who are gainfully employed. So I want to give thanks 
to Utah's VR program.
    Now, I don't want to steal any of Don's thunder, because I 
know he'll be sharing why Utah has one of the most productive 
and cost-effective programs in the Nation. But I know a lot of 
that has to do with the strong support of our Governor and our 
State legislature, as well, and partnerships with agencies, 
organizations, and businesses. And, of course, a major part of 
that success can be attributed to Utah's dedicated 
rehabilitation staff under Don Uchida's leadership.
    It means a lot to me to have him here today. And I won't be 
able to stay because of my other problems. But it's really an 
honor to introduce Don Uchida to the committee, and I trust 
that both of you will treat him well. I don't want to get mad. 
I'm just kidding.
    The Chairman. He's in safe hands.
    Senator Hatch. I know he is.
    Let me just say, Don, that these are two of the best people 
in the Senate. And when it comes to Americans with 
disabilities, both of them are very compassionate, decent, and 
honorable leaders, and I, personally, appreciate them.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hatch. And, again, thank 
you for your long service both on this committee and in 
advancing the cause of full integration of people with 
disabilities. We had the benefit of your service here and your 
expertise when we developed the Americans with Disabilities Act 
in the 1980s and passing it in 1990. And you're right that we 
stood shoulder to shoulder on that, and I appreciate it very 
much. It's been a great working relationship ever since.
    We're going to have two panels. For our first panel, we'll 
hear from Governor Jack Markell, whom we've talked about as the 
chair of the National Governors Association. And, as you heard 
Senator Alexander say--and I didn't know this until I met 
Governor Markell--when you become the head of the National 
Governors Association, you get to pick one topic for the entire 
year and get the other Governors to focus on that.
    He dedicated his term to improving employment outcomes for 
individuals with disabilities through his initiative, quote, 
``A Better Bottom Line: Employing People with Disabilities.'' 
The goal of this initiative is to create a blueprint for 
businesses and States that identifies best practices and 
outlines steps to put in place to increase economic opportunity 
for people with disabilities.
    Since being elected in 2008, Governor Markell has worked to 
improve the economy, improve education, and grow jobs in 
Delaware. He was re-elected in 2012 with close to 70 percent of 
the votes cast. How do you do that? I guess you do it by doing 
a good job.
    I have enjoyed working with Governor Markell as part of his 
NGA chair's initiative. I appreciate his participation in the 
great summit we had last summer, a CEO summit that Walgreens 
hosted in Windsor, CT, last June, and also a roundtable that 
Senator Enzi and I hosted last July. His commitment to boosting 
disability employment is broadly shared among his fellow 
Governors, and his initiative, I can tell you, is making a real 
difference.
    We welcome you, Governor Markell, to this committee and we 
look forward to your comments. And, without objection, your 
statement will be made a part of the record. Please take 
whatever time you so desire.

STATEMENT OF THE HONORABLE JACK MARKELL, GOVERNOR OF DELAWARE, 
                           DOVER, DE

    Governor Markell. Thank you, Chairman Harkin, and to you 
and Ranking Member Alexander, Senator Hatch, Senator Warren, 
thank you very much for having me today. It's really an honor 
to testify before you about my initiative as chair of the NGA, 
which, as you mentioned, is called Building a Better Bottom 
Line: Employing People with Disabilities. I'll also talk a 
little bit about some other Governor-led efforts to advance 
employment opportunities for people with disabilities.
    As you mentioned, in July 2012, I became chair of the NGA 
and began this year-long chair's initiative, which is focused 
on the role that both State governments and businesses can play 
in advancing opportunities for individuals with disabilities to 
be gainfully employed. And before I begin, I very much want to 
thank this committee, under your leadership, for the role that 
you've played in advancing employment opportunities for people 
with disabilities from across the country for a long time.
    I also want to thank the Secretary of the Department of 
Health and Social Services, Rita Landgraf, who is here with me, 
and the staff of the National Governors Association, which has 
done a terrific job on this initiative. I also want to thank 
your staff, and especially Andy Imparato for the great help he 
has provided as we've tried to think through some of our 
initiative.
    I chose to focus the chair's initiative on employing people 
with disabilities because I've really seen firsthand the 
difference that it can make in people's lives. And it really 
started for me about 10 years ago. I visited what was then 
MBNA, now Bank of America, which continues to be an important 
employer in Delaware and including an important employer of 
people with disabilities. They have 300 people with 
disabilities employed in our State.
    Ten years ago, I visited a site. Many of the people were 
making promotional materials. I met a guy who was 25 years old. 
He was making tee shirts. He had Down's Syndrome. And he was 
extraordinarily excited to have this opportunity to have this 
job. I asked him what he did before he got the job, and he told 
me that he had sat at home for 6 years watching TV with his 
parents.
    For me, a light bulb really went off in my head about the 
profound improvement in his quality of life and the profound 
improvement in the quality of life for his family, because now 
he had a reason to get up every day. He had a purpose. He was 
going to be part of something that was bigger than himself. He 
was part of a team. He was productive. He even earned a 
paycheck.
    Ever since then, I've been very interested in this issue, 
and I've had the opportunity to work with Secretary Landgraf, 
who has really spent her life as an advocate for people with 
disabilities. And I believe, as chair of the NGA, that this is 
something that we really could move the needle on across the 
country.
    Everybody who wants to work and participate fully in 
society should have the opportunity to do so. And research 
indicates that 67 percent of working age people with 
disabilities would rather be working than be unemployed and 
unproductive--not a surprise. And yet at the same time, the 
United States spends hundreds of billions of dollars a year to 
support people with disabilities who are unemployed. The 
circumstances provide an opportunity for growth and 
improvement, which is why I chose to focus on employing people 
with disabilities this year.
    Our initiative at the National Governors Association is 
really designed to do two things. One is to raise awareness of 
how the untapped talents of people with disabilities can 
contribute to a business' bottom line. And second is really to 
define ways that State government and businesses can partner to 
advance the employment of individuals with disabilities in the 
labor market.
    As you mentioned--and I was grateful for the invitation 
that you gave me last year to visit at Walgreens, where you and 
I and Congressman Pete Sessions heard--Senator Blumenthal was 
there as well--the CEO of Walgreens, Greg Wasson, say to his 
fellow CEOs of some of the biggest companies in the country 
that Walgreens was an employer of people with disabilities not 
because of charity, but because it was the right decision for 
their business. It was right for the shareholders.
    And I think it's really important that that message from 
one CEO to the next--large businesses, mid-size businesses, and 
small businesses--gets spread. So we're working with businesses 
to try to make sure that that message gets shared. Just this 
past weekend--it really just ended yesterday--at the NGA winter 
meeting here in Washington, Governors from different regions 
and different parties shared what their States are doing to 
advance employment opportunities for people with disabilities.
    In our State of Delaware, we are what we call an Employment 
First State, and that was triggered by my signing of 
legislation in July. You'll hear later from Jane Boone of 
Washington State about how Washington, in fact, led the way 
with these Employment First policies. In Delaware, the 
legislation requires State agencies that provide services to 
persons with disabilities to promote as the first option 
employment in an integrated setting and establishing, 
essentially, an oversight commission to continuously review the 
process.
    I've also instructed members of my cabinet to form a 
working group to upgrade State hiring practices and procedures 
with a focus on advancing recruitment, retention, and career 
advancement opportunities. And I expect to have that State plan 
established by early summer.
    At the winter meeting, the Governor of South Dakota, 
Governor Daugaard, shared his State's dedication to developing 
statewide employment practices as well as Employment First 
policies. This is a movement to guide policy with the central 
philosophy that employment is the first priority and is the 
preferred outcome for people with disabilities.
    Employment First policies are not the only things that 
States are doing. In Connecticut, Governor Dan Malloy told us 
about an interactive Web portal called ConnectAbility with a 
mission to bring Connecticut's employers and people with 
disabilities together through an interactive Web portal. It's 
supported by partners across multiple sectors, from businesses 
to advocates to State agencies and a community college.
    In Iowa, Governor Terry Branstad shared information about 
his conversations with you, Senator Harkin, regarding 
initiatives to increase employment of Iowans with disabilities, 
and he highlighted the importance of supporting businesses.
    There was a great cross-section of Governors, people of 
both parties. This is, as you know, the ultimate bipartisan 
issue, and it was great to hear so many Governors share what's 
going on in their States. You'll hear more from some of the 
other panelists today about what their States are doing, and 
I'm proud of the work that my fellow Governors are doing across 
the country.
    I'm also proud of what we're doing in this NGA initiative. 
We've worked hard to engage directly with a broad cross-section 
of shareholders to inform the efforts. Since we started this in 
July, the NGA staff and my staff have taken more than 50 
meetings with subject matter experts in the field of disability 
employment, including some of the businesses that I mentioned 
who employ people with disabilities. We've talked to 
researchers, providers, policymakers, and, very importantly, 
self-advocates. This has been a really important and valuable 
part of the conversation, people who can really speak from 
experience.
    Everyone may speak with a different voice. They may come 
from different parts of the country, and they may have 
different views. But I've learned three key things or lessons 
that consistently come into these conversations. No. 1, 
employers don't care about labels. They care about skills. The 
focus has to be on the ability rather than the disability. And 
people with disabilities need to be part of the mainstream 
workforce right along with people without disabilities.
    No. 2, when businesses hire people with disabilities, they 
benefit not only in their bottom line, as I mentioned a few 
minutes ago with respect to Walgreens, but they also experience 
significant improvements in their own corporate culture. This 
is true for small businesses as well as large national 
companies. It's true for the entire spectrum of industries, 
from manufacturing to entrepreneurship to STEM fields. We heard 
from a Baltimore area window and door company the other day who 
talked about this in a very compelling fashion.
    And, No. 3, the path forward is one of shared 
responsibility. As Ranking Member Alexander mentioned, this is 
not about something that government is doing to business. It's 
really about an opportunity that businesses and government see 
together to improve the bottom line of these businesses and to 
provide more opportunities for people with disabilities.
    Congress has a role to play. So as Governors continue to 
push action and innovation to advance employment opportunities 
for people with disabilities, we believe that Congress can 
help. States need to have the flexibility to be innovative in 
order to support businesses in advancing these employment 
opportunities.
    Governors would really value your leadership in supporting 
what we call flexible federalism, like the Workforce Investment 
Act 15 percent set-aside, in order to continue innovating so we 
can effectively serve people with disabilities and the 
businesses who serve them. For years, States relied on this 15 
percent WIA set-aside to support and to seed innovations that 
allow us to partner with industry, attract new business, 
upgrade the skills of our current workforce, and better serve 
constituents, for example, who rely on America's Job Centers.
    Washington State used the 15 percent set-aside to support a 
business that employs people with disabilities. So we would 
love to see your continuing support of that set-aside.
    We also believe that Congress should prioritize and 
modernize the Workforce Investment Act. It's been well over a 
decade since Congress revised the law. Much has changed in the 
work place, much has changed in business, and much has changed 
as evidenced by this incredibly high-tech modern economy that 
we're all living in. We're learning a lot, and the ability for 
States to innovate in their own unique set of circumstances 
will always yield the best outcomes for individuals and the 
best lessons for other States.
    The success on this effort, we believe, really depends upon 
the shared passion and commitment that we see across so many 
diverse sectors of society. It has been heartening to see 
advocates, researchers, business people, individuals, and 
government officials across political parties and across all 
regions of the country come together to support this initiative 
and advance progress on this topic.
    I really believe that we can make a profound difference in 
the quality of life of so many people across the country with 
disabilities and their families when we work together. So I 
very much appreciate the opportunity to be with you today.
    [The prepared statement of Governor Markell follows:]
            Prepared Statement of the Honorable Jack Markell
                                summary
               welcome and overview of the nga initiative
    Before I begin, I'd like to thank this committee, under the 
leadership of Senator Harkin, for the leadership role you have played 
in advancing employment opportunities for people with disabilities 
across the country.
    Chairman Harkin, Ranking Member Alexander and distinguished members 
of the Senate HELP Committee, on behalf of the National Governors 
Association (NGA), it is an honor to testify before you today about my 
initiative as Chair of NGA, A Better Bottom Line: Employing People with 
Disabilities and other Governor-led State efforts to advance employment 
opportunities for people with disabilities.
    In July 2012, I became Chair of NGA and began a year-long Chair's 
initiative focused on the role that both State government and business 
can play in advancing opportunities for these individuals to be 
gainfully employed in the competitive labor market.
                            why this topic?
    I chose to focus the NGA Chair's Initiative on employing people 
with disabilities because I have seen firsthand the difference it can 
make in people's lives.
     About 10 years ago, I visited a company in Delaware and met a 
young person with a disability working there. It was clear that the 
young man was passionate about his job and glad to be there. When I 
asked the young man what he did before, he said he sat at home with his 
parents. It was that moment when a light bulb went off for me: 
employment for that individual was not only benefiting the company he 
works for; it was significantly improving the quality of life for him 
and his entire family. Ever since, I have been interested in the topic 
of employing people with disabilities.
    Everyone who wants to work and participate fully in society should 
have the opportunity to do so.
    Research indicates that 67 percent of working-age people with 
disabilities would rather be working than be unemployed and 
nonproductive. Yet, the United States spends an estimated $300 billion 
annually to support people with disabilities who are unemployed. The 
circumstances provide an opportunity for growth and improvement, which 
is why I chose to focus on employing people with disabilities this 
year.
                        goals of the initiative
    The NGA initiative is designed to do two primary things:

    (1) raise awareness of how the untapped talents of people with 
disabilities can contribute to a business' bottom line; and
    (2) to define ways both State government and business can partner 
to advance the employment of individuals with disabilities in the 
competitive labor market.
                         what are states doing?
    Last weekend at the NGA Winter Meeting here in Washington, DC, 
Governors from different regions and different parties shared what 
States are doing to advance employment opportunities for people with 
disabilities.
    In Delaware, we are now an Employment First State since my signing 
of this most significant legislation in July. You'll hear later from 
Jane Boone on the panel today about how Washington State led the way 
with Employment First policies. In Delaware, this legislation requires 
State agencies that provide services to persons with disabilities to 
promote, as the first option, employment in an integrated setting and 
established an Employment First Oversight Commission to continuously 
review the progress. In addition, I have instructed members of my 
Cabinet, to form a workgroup to upgrade State hiring practices and 
procedures with a focus on advancing recruitment, retention and career 
advancement opportunities for individuals with disabilities and have 
asked each to lead by example. I expect to have the State plan 
established by early summer.
    At the Winter Meeting, Governor Dennis Daugaard shared South 
Dakota's dedication to developing statewide employment strategies as 
well as employment-first policies. Employment first is a movement to 
guide policy, with a central philosophy that employment is the first 
priority and preferred outcome for people with disabilities.
    It's not just Employment First policies that States are adopting to 
advance employment opportunities. States are partnering across sectors 
and directly with business. For example, Connecticut Governor Dannel 
Malloy told us about an interactive Web portal ``ConnectAbility'' with 
the mission to bring Connecticut's employers and people with 
disabilities together through an interactive Web portal. The project is 
supported by partners crossing multiple sectors--from businesses to 
advocates to State agencies and a community college.
    Iowa Governor Terry Branstad shared information about his 
conversations with Senator Harkin regarding initiatives to increase 
employment among Iowans with disabilities, and highlighted the 
importance of supporting businesses--saying that the State's approach 
is cross-agency, collaborative, and outcomes-based in effort to make it 
easy for business to find talented workers with disabilities to join 
their companies.
    The cross-section of Governors who shared their best practices 
during the NGA Winter Meeting underscores the response from Governors 
has been tremendous across different regions and parties.
    You'll hear more from the other panelists today about what States 
are doing to lead the way.
    I'm proud of the work of my fellow Governors to help make sure 
people with disabilities are part of the competitive workforce and 
fully included in society.
                  the path forward and lessons learned
    I am also proud of the work we're doing with the NGA initiative. We 
have worked hard to engage directly with a broad cross section of 
stakeholders to inform the initiative's efforts.
    Since the initiative began in July, NGA staff and my staff have 
taken more than 50 meetings with subject matter experts in the field of 
disability employment, including the businesses who employ people with 
disabilities, providers, researchers, policymakers, and--importantly--
self-advocates, who speak from experience with disabilities.
    While everyone speaks with a different voice, from different parts 
of the country, and certainly different views: I've learned three key 
things or ``lessons'' that consistently pervade our conversations.

    1. Employers don't care about labels, they care about skills. 
People with disabilities need to be part of the mainstream workforce, 
right alongside people without disabilities.
    2. When businesses hire people with disabilities, they benefit in 
their bottom line and also report improvements in their culture. This 
is true for small businesses as well as large national corporations. 
It's true for the entire spectrum of industries--from manufacturing to 
entrepreneurship to STEM fields.
    3. The path forward is one of shared responsibility--it's a path 
that business, government, and families are going to chart together.
                         what can congress do?
    As Governors continue to push action and innovation to advance 
employment opportunities for people with disabilities, Congress can 
help. States need to have the flexibility to be innovative in order to 
support businesses in advancing employment opportunities for people 
with disabilities.
                    restore the 15 percent set-aside
    Governors will need your leadership to support flexible federalism, 
like the Workforce Investment Act (WIA) 15 percent set-aside, in order 
to continue innovating so we can effectively serve people with 
disabilities and the businesses who hire them.
    For years, States have relied on the 15 percent WIA set-aside to 
support and seed innovations that allow us to partner with industry, 
attract new businesses, upskill our current workforce, and better serve 
our constituents who rely on America's Jobs Centers. 

    State Example: Washington used 15 percent set-aside to support a 
business who employs people with disabilities.

    <bullet> Washington State used the set-aside funds to allow the 
Governor's office to facilitate a partnership across the public and 
private sectors to attract a new manufacturer, Profile Composites, to 
the State. The British Columbia based company--which makes collapsible 
wheelchairs, sport crutches and other assistive products--is committed 
to hiring veterans and individuals with disabilities and is designing 
its training and manufacturing facilities to accommodate all levels of 
physical ability.
    <bullet> A $100,000 investment of WIA set-aside funds will go 
toward workforce recruitment and integrating the company's training 
with established college degree and certificate programs. The company 
is investing $10.4 million to build the facility and establish its 
training programs, creating at least 200 jobs.

    As you can see, the 15 percent set-aside is a valuable tool for 
States. But since 2008, funding for this flexible, innovative fund has 
been reduced by nearly 70 percent. In fiscal year 2010, the cut to 
State set-aside dollars from 15 percent to 5 percent hurt States' 
ability to serve our workers, including workers with disabilities. I 
want to thank Senator Harkin and this committee for your work to 
restore the set-aside. What is really needed from Congress now is a 
restoration of the full 15 percent.
                      prioritize and modernize wia
    Congress must also prioritize and modernize the Workforce 
Investment Act. It's been well over a decade since Congress revised 
this law. Much has changed in the work place, much has changed in 
business, and much has changed as evidenced by today's modern, high-
tech economy. We are also learning much. The ability for States to 
innovate in their own, unique set of circumstances will always yield 
the best outcomes for individuals, and the best lessons for other 
States.
                                closing
    Success depends on the shared passion and commitment that we see 
across so many diverse sectors of society. It has been heartening to 
already see advocates, researchers, businesses, individuals and 
government officials across the political parties and all regions of 
the country come together to support the NGA initiative and advance 
progress on this topic. Together, we can continue to make a difference 
so that persons with disabilities have the same opportunities as 
everyone else.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander and distinguished members 
of the Senate HELP Committee, on behalf of the National Governors 
Association (NGA), it is an honor to testify before you today about my 
initiative as Chair of NGA, A Better Bottom Line: Employing People with 
Disabilities and other Governor-led State efforts to advance employment 
opportunities for people with disabilities.
    Before I begin, I'd like to thank this committee, under the 
leadership of Senator Harkin, for the leadership role you have played 
in advancing employment opportunities for people with disabilities 
across the country.
  the nga chair's initiative, a better bottom line: employing people 
                           with disabilities
    In July 2012, I became Chair of NGA and began a year-long Chair's 
initiative focused on the role that both State government and business 
can play in advancing opportunities for these individuals to be 
gainfully employed in the competitive labor market.
    I chose to focus the NGA Chair's Initiative on employing people 
with disabilities because I have seen firsthand the difference it can 
make in people's lives. About 10 years ago, I visited a company in 
Delaware and met a young person with a disability working there. It was 
clear that the young man was passionate about his job and glad to be 
there. When I asked the young man what he did before, he said he sat at 
home with his parents. It was that moment when a light bulb went off 
for me: employment for that individual was not only benefiting the 
company he works for; it was significantly improving the quality of 
life for him and his entire family. Ever since, I have been interested 
in the topic of employing people with disabilities.
    Everyone who wants to work and participate fully in society should 
have the opportunity to do so. Research indicates that 67 percent of 
working-age people with disabilities would rather be working than be 
unemployed and nonproductive. Yet, the United States spends an 
estimated $300 billion annually to support people with disabilities who 
are unemployed.
    The circumstances provide an opportunity for growth and 
improvement, which is why I chose to focus on employing people with 
disabilities this year.
    The NGA initiative is designed to do two primary things: (1) raise 
awareness of how the untapped talents of people with disabilities can 
contribute to a business' bottom line and (2) to define ways both State 
government and business can partner to advance the employment of 
individuals with disabilities in the competitive labor market.
                            state practices
    Last weekend at the NGA Winter Meeting here in Washington, DC, 
Governors from different regions and different parties shared what 
States are doing to advance employment opportunities for people with 
disabilities.
    In Delaware, we are now an Employment First State since my signing 
of this most significant legislation in July. This legislation requires 
State agencies that provide services to persons with disabilities to 
promote, as the first option, employment in an integrated setting and 
established an Employment First Oversight Commission to continuously 
review the progress. In addition, I have instructed members of my 
Cabinet, to form a workgroup to upgrade State hiring practices and 
procedures with a focus on advancing recruitment, retention and career 
advancement opportunities for individuals with disabilities and have 
asked each to lead by example. I expect to have the State plan 
established by early summer.
    You'll hear later from Jane Boone on the panel today about how 
Washington State led the way with Employment First policies. At the 
Winter Meeting, Governor Dennis Daugaard shared South Dakota's 
dedication to developing statewide employment strategies as well as 
employment-first policies. Employment first is a movement to guide 
policy, with a central philosophy that employment is the first priority 
and preferred outcome for people with disabilities.
    It's not just Employment First policies that States are adopting to 
advance employment opportunities. For example, Connecticut Governor 
Dannel Malloy told us about an interactive Web portal 
``ConnectAbility'' with the mission to bring Connecticut's employers 
and people with disabilities together. The Web site has a wealth of 
information for people with disabilities of all ages and employers of 
all sizes and in all industries who are seeking valuable, qualified 
workers. The project is supported by partners crossing multiple 
sectors--from businesses to advocates to State agencies and a community 
college.
    Iowa Governor Terry Branstad shared information about his 
conversations with Senator Harkin regarding initiatives to increase 
employment among Iowans with disabilities. The State of Iowa's 
initiatives are aimed to complement the efforts of business leaders. 
The State's approach integrates related efforts and resources to 
demonstrate that a cross-agency, collaborative, outcomes-based approach 
is the best strategy for success. Governor Branstad highlighted the 
efforts of private sector companies like Casey's, Hy-Vee, Walgreens, 
and Wellmark that have targeted training and skills-building 
initiatives for individuals with disabilities.
    Virginia Governor Bob McDonnell talked about the Executive order he 
signed last November, which states that it is the policy of the 
Commonwealth to encourage and enable persons with disabilities, 
including wounded soldiers, to engage in employment, with the goal of 
enhancing the employment opportunities for Virginians with 
disabilities.
    In Minnesota, the disability employment efforts are connected to 
the State's economic development plan. The Pathways to Employment is to 
increase competitive employment of people with disabilities and meet 
Minnesota's workforce needs by bringing together people with 
disabilities, employers, businesses, government and providers.
    Kansas Governor Sam Brownback and Kansas' Commission on 
Disabilities host ``Disability Mentoring Day'', where students and job 
seekers with disabilities (mentees) are matched with workplace mentors 
according to expressed career interests. Mentees experience a typical 
day on the job and learn how to prepare to enter the world of work.
    The cross-section of Governors who shared their best practices 
during the NGA Winter Meeting underscores the response from Governors 
has been tremendous across different regions and parties. Since the 
start of the initiative, Governors and business leaders from all over 
the country have expressed interest in the topic and support for the 
initiative. Business leaders from Fortune 500 companies to small 
businesses have come forward to express their support and share their 
experiences.
    As CEOs of States and businesses, we all have an opportunity to 
help ensure that all citizens, including those with disabilities, have 
the chance to engage in productive employment and participate fully in 
community life. To that end, we have to invest in strategies that 
result in benefits for these individuals, and in turn, States and 
businesses.
                       charting the path forward
    Advancing employment opportunities for individuals with 
disabilities is the right thing to do. It's the smart thing for 
government to do. And it makes good business sense. I'm so proud of the 
work of my fellow Governors to help make sure people with disabilities 
are part of the competitive workforce and fully included in society.
    I am also proud of the work we're doing with the NGA initiative. We 
have worked hard to engage directly with a broad cross section of 
stakeholders to inform the initiative's efforts. Since the initiative 
began in July, NGA staff and my staff have taken more than 50 meetings 
with subject matter experts in the field of disability employment, 
including the businesses who employ people with disabilities, 
providers, researchers, policymakers, and--importantly--self-advocates, 
who speak from experience with disabilities. I am so grateful to 
everyone we've talked to for their enthusiastic support and valuable 
insights. In September and October, NGA held two roundtables--one among 
national advocacy organizations and the other with a broader cross 
section of experts--with the goal to learn two things:

    What is working, and what is the path forward?

    While everyone speaks with a different voice, from different parts 
of the country, and certainly different views: I've learned three key 
things or ``lessons'' that consistently pervade our conversations. No. 
1, employers don't care about labels, they care about skills. People 
with disabilities need to be part of the mainstream workforce, right 
alongside people without disabilities. No. 2, when businesses hire 
people with disabilities, they benefit in their bottom line and also 
report improvements in their culture. This is true for small businesses 
as well as large national corporations. It's true for the entire 
spectrum of industries--from manufacturing to entrepreneurship to STEM 
fields. And No. 3, the path forward is one of shared responsibility--
it's a path that business, government, and families are going to chart 
together.
    Over the next several months, we will bring together State 
policymakers and business leaders in two regional summits. The goals of 
the NGA summits are, first and foremost: to share best practices across 
States and identify what's already working. The other key goal is to 
chart the path forward--together. The path forward is one of 
partnership and shared responsibility across sectors and stakeholders.
    In August, NGA will release a blueprint to Governors and businesses 
capturing best practices and outlining options for carrying the 
momentum forward. At the end of the initiative, it is my goal to have a 
clearer picture of how Governors can continue to:

    <bullet> Educate both private sector and public sector employers 
about accommodating people with disabilities in the workplace and the 
benefits of doing so;
    <bullet> Support State governments in joining with business 
partners to develop blueprints to promote the hiring and retention of 
individuals with disabilities in integrated employment in both the 
public and private sectors; and
    <bullet> Promote public-private partnerships to build out those 
blueprints and increase employment of individuals with disabilities.

    Much is being learned through our work; and much more can be 
learned. If our Nation is to be competitive and our economy is to grow, 
the skills and knowledge of all our citizens must be brought to bear. 
I'm so proud that Governors are leading these efforts and working to 
streamline access and training so that employers have a pool of job-
ready individuals to draw upon.
    As Governors continue to push action and innovation to advance 
employment opportunities for people with disabilities, Congress can 
help. States need to have the flexibility to be innovative in order to 
support businesses in advancing employment opportunities for people 
with disabilities. Governors will need your leadership to support 
flexible federalism, like the Workforce Investment Act (WIA) 15 percent 
set-aside, in order to continue innovating so we can effectively serve 
people with disabilities and the businesses who hire them.
    For years, States have relied on the 15 percent WIA set-aside to 
support and seed innovations that allow us to partner with industry, 
attract new businesses, upskill our current workforce, and better serve 
our constituents who rely on America's Jobs Centers. For example, 
Washington State used the set-aside funds to allow the Governor's 
office to facilitate a partnership across the public and private 
sectors to attract a new manufacturer, Profile Composites, to the 
State. The British Columbia-based company--which makes collapsible 
wheelchairs, sport crutches and other assistive products--is committed 
to hiring veterans and individuals with disabilities and is designing 
its training and manufacturing facilities to accommodate all levels of 
physical ability. A $100,000 investment of WIA set-aside funds will go 
toward workforce recruitment and integrating the company's training 
with established college degree and certificate programs. The company 
is investing $10.4 million to build the facility and establish its 
training programs, creating at least 200 jobs.
    As you can see, the 15 percent set-aside is a valuable tool for 
States. But since 2008, funding for this flexible, innovative fund has 
been reduced by nearly 70 percent. In fiscal year 2010, the cut to 
State set-aside dollars from 15 percent to 5 percent hurt States' 
ability to serve our workers, including workers with disabilities. I 
want to thank Senator Harkin and this committee for your work to 
restore the set-aside. What is really needed from Congress now is a 
restoration of the full 15 percent.
    Congress must also prioritize and modernize the Workforce 
Investment Act. It's been well over a decade since Congress revised 
this law. Much has changed in the work place, much has changed in 
business, and much has changed as evidenced by today's modern, high-
tech economy. We are also learning much. The ability for States to 
innovate in their own, unique set of circumstances will always yield 
the best outcomes for individuals, and the best lessons for other 
States.
    Success depends on the shared passion and commitment that we see 
across so many diverse sectors of society. It has been heartening to 
already see advocates, researchers, businesses, individuals and 
government officials across the political parties and all regions of 
the country come together to support the NGA initiative and advance 
progress on this topic. Together, we can continue to make a difference 
so that persons with disabilities have the same opportunities as 
everyone else.

    The Chairman. Governor Markell, thank you for a great 
statement. Thank you for your leadership on this. I know how 
busy you are. Thanks for being here today to lead off our 
discussion.
    I, too, was very impressed by that day in Connecticut last 
summer--CEOs of all these major businesses, and CEO Greg Wasson 
of Walgreens hosted it. It was interesting, I think, that about 
half of the people who worked at that distribution center were 
people with disabilities, and yet it's their most productive 
center that they have. I think that made a great impression on 
a lot of people, including me, and it pointed out that with 
just minor modifications, sometimes people with disabilities 
are more productive than people without disabilities.
    We all have our own stories. I have mine. What kind of got 
me involved in this many, many years ago was my own brother, 
Frank, who was deaf. He was told when he went to deaf school 
that he could be a baker or an apprentice shoe repair person or 
something like that. He didn't want to do any of that. So they 
said, ``OK, you're going to be a baker,'' so he became a baker. 
He never really liked that.
    But one day, just through happenstance, he was hired by Mr. 
Delavan at a manufacturing plant in Des Moines, IA, or West Des 
Moines, IA. It was a hold-over from World War II, and they made 
nozzles for jet engines and had to operate these very intricate 
little machines and drill these very fine little holes. They 
had to be very precise. So he hired my brother to do that.
    But it was a very noisy place, and people were always 
distracted by the noises. Noise didn't bother my brother one 
bit. So once he learned how to run that machine, he was more 
productive than anybody else that had ever run those machines. 
And all that Mr. Delavan had to do was put up a little light to 
signal my brother, Frank, if he needed to stop and converse 
with someone or to have someone talk to him about something, 
because he couldn't hear. So he just had a light set there, and 
if the light turned on red, he stopped what he was doing to see 
what someone wanted him to do.
    Mr. Delavan, based on that, started hiring even more people 
with disabilities, because he found out that they were 
actually, with minor modifications in the work place, more 
productive. I think we saw that up at Windsor, CT, the minor 
little modifications here and there, and people could do the 
job.
    And I take your comments on WIA, the Workforce Investment 
Act--I am chagrined and disappointed that we were not able to 
get it through in the last Congress. I'm committed to work with 
Senator Alexander. We're going to try it again. It was only 
held up by a minor problem, and, hopefully, we can get over 
that hurdle and get the Workforce Investment Act reauthorized 
so we can get back to that 15 percent set-aside that you 
mentioned.
    Last, I want everyone to know that what we're talking about 
here is a new structure where the default position of a young 
person in high school now is not to go into some kind of 
sheltered employment at subminimum wage, but the default is to 
go into competitive employment. That ought to be the first 
thing. That ought to be the first that they go into, and we 
need training for that. We need internships for young people. 
We need better voc rehab people working with these young people 
in schools to get them ready for competitive employment.
    The only question I'd have for you is this, because we're 
talking about private sector employment here. In your 
discussions with your business leaders in Delaware and perhaps 
around the country now as head of NGA, what is it that the 
businesses are telling you that they need that we could do both 
on a State level and from a Federal level that would move this 
forward for them to be able to do more, to hire more people 
with disabilities? What do business people say? What do they 
need us to do?
    Governor Markell. In many cases what they're asking for is 
a more functional system within the States. Instead of, for 
example, vocational rehabilitation agencies going to the 
businesses with a list of individuals, saying, ``Can you please 
place these people?'', let's think about it from their 
perspective. Let's go to the businesses and say, ``Can you 
please help us understand the specific skills that you're 
looking for and let us go find people with those skills?'' The 
fact is those skills could very well be possessed by people who 
have some type of disability, and that disability doesn't 
actually get in the way of them doing a great job using that 
particular skill.
    That's one important learning. Another thing--and it really 
gets back to what you were just talking about with the young 
people in schools and what it is that we're preparing them for. 
And I think you went through a pretty good list. But in 
addition to the policy piece, there's also an issue of changing 
the expectations. Too often, what we have heard is that 
students, young people with disabilities who are in school, are 
prepared for the time that they turn 17.
    Historically, too often, they've been told that when they 
turn 17, it will be time for them to sign up for one benefit or 
another, instead of really inculcating from the time that they 
are young that what they're really being prepared for is a 
lifetime of work, that there are lots of jobs that they can do. 
And I think the point that you were just making with respect to 
making sure that there are internship opportunities and that we 
partner with the business community--I think, as you said--and 
you talked about it in the case of Walgreens and their 
distribution centers.
    Walgreens has distribution centers all over the country, 
and a company that is as sophisticated as they are--they 
measure every possible metric. And what they, in fact, have 
found--whether it's the one in South Carolina or the one in 
Connecticut--is that their distribution centers that have a 
significant number of people with disabilities tend to perform 
better. They've got lower turnover. They have less absenteeism. 
They've got a great work ethic.
    The Chairman. That's right.
    Governor Markell. I think this is a message that we are 
working very hard to make sure it gets out, not just from us to 
the business community, but from the business community to the 
business community, because if a CEO hears about that from a 
fellow CEO, we think that can go a long way.
    The Chairman. I shouldn't ask this, but you just rung my 
bell again when you talked about work ethics. When my brother 
finally got the job that challenged him--I remember I was in 
the military, and I came home one Christmas on leave, and I 
went to his company Christmas party. And he got a gold watch 
because in 10 years, he hadn't missed 1 day of work or been 
late once in 10 years. So it's that kind of work ethic, once 
given the opportunity to do that.
    Thank you again. I'm sorry. I took too long.
    Senator Alexander.
    Senator Alexander. That's one of the advantages of being 
chairman. You've worked hard to get in that position.
    Governor, thank you for being here, and I'm impressed with 
what you're doing and the way you're doing it. Talk a little 
bit about the interaction between Federal vocational 
rehabilitation dollars and the State match, which I understand 
is about 20 percent of Federal dollars. Are there things we 
need to do to make that work more effectively?
    Governor Markell. I mentioned the WIA set-aside, but I 
think there's a bigger point here, which has to do with 
workforce development dollars, generally, the wide array of 
programs and, frankly, the benefit that would accrue if States 
had more flexibility about how to use them. I mean, my sense is 
there are many, many different programs, each with their own 
line items, and, as a result, these programs are often run 
separately.
    If you go back to the example of what I mentioned a moment 
ago, one of the things we've heard from businesses--they're 
saying,

          ``Please, instead of coming to us with a list of 
        people and asking us to place them, instead come to us 
        asking us what positions we have available and what 
        skills we're looking for.''

    And if the moneys are more flexible, we can essentially go 
back--and it's not going to be one visit by the voc rehab 
people and another visit by another group from the Department 
of Labor and another group from the Department of Labor.
    We can say that we understand that businesses in our State 
are looking for skilled people, and we have a list of lots of 
people, some who have disabilities, some who may not have a 
disability. And what we're really trying to do, particularly 
these days when we're working so hard to put people back to 
work--what we're looking to do is say, ``OK. Let's go back to 
all the people that we're serving and find out who has the 
right skills, whether it's people with disabilities, whether 
it's people without disabilities.'' And the more flexibility we 
have, the better off we'll be.
    Senator Alexander. Governor, I mentioned a little earlier 
the young man, Jack, the example I used, who is successfully 
employed and has been for the last 10 years. But he had a 
company that helped place him in first one job and then a 
second job and, finally, in a third job that worked for that 10 
years.
    What has your experience been? Have you found nonprofit or 
for-profit companies useful, or have you found a large number 
of them who are basically in the business of identifying 
Americans with disabilities and matching them with employers? I 
mean, that's something the State does. But is there also room 
there for nonprofit or even for-profit companies who basically 
make a business out of making this match work?
    Governor Markell. Without question, not only is there a 
place, but I think we need them, because, as you know, 
government can't do it all ourselves. And we often find that 
there are valuable partners, whether they're in the for-profit 
world or the not-for-profit world. But what we need to do is 
make sure that everybody's incentives are aligned properly, 
that the system is a functional one.
    We're a lot more likely to be successful if we really have 
a sense of what these skills are that local employers are 
looking for. And then let's make sure, whether they're for-
profit, not-for-profit, or government agencies, that we're all 
focused on serving that need.
    Senator Alexander. Have any of the examples that you've 
learned from other Governors or in your experience focused on 
finding better ways to help students, say, high school students 
with disabilities, transition more easily to the workforce, in 
other words, start earlier with them in finding ways to find 
opportunities for them with the appropriate modifications?
    Governor Markell. I'd say it's three things. First, it is 
starting earlier with them. Second, when we start earlier with 
them, it's changing the culture and changing their expectations 
of what they're going to do with the rest of their lives. And, 
third, it's about providing the opportunities while they're 
still in school to have a sense of what that future might 
actually look like. It's not just about the talk, but, 
actually, it's about working with local employers to give them 
a chance, to get them into the workforce.
    We've got a partnership with our biggest healthcare system 
in Delaware that's doing just that, and it's a great training 
program. It's an opportunity for these young people to learn 
early on what it means to show up in the workplace, the fact 
that they are expected not just to show up but they're expected 
to--you know, how they're supposed to dress, how they're 
supposed to interact with people.
    So much of this comes back to what expectations we have. 
And, obviously, some people are capable of doing more than 
others, whether it's intellectually or whether it's physically. 
But I think part of the responsibility here is for us to help 
them and help their families figure out what their potential 
really is and to do everything we can so that there are 
opportunities to capitalize on that potential.
    Senator Alexander. Thank you, Governor.
    And thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander. I might just 
add that--I shouldn't maybe go into this area, but in trying to 
get rid of No Child Left Behind, we're trying to set up a new 
structure of career- and college-ready, or career- or college-
ready. We never quite decided on that, did we? But the idea 
being that kids in school, including kids with disabilities--
you back down from where they are all the way to grade school 
and say, ``OK. How can we prepare them for college or career?'' 
so that by the time--the expectations are always that they're 
going to either go on to college or they're going to have some 
kind of a career in the private sector.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you very much, Mr. Chairman. It's 
something to be here with you, Senator Harkin, with Senator 
Alexander, and earlier with Senator Hatch, truly giants in this 
field. Your work on the Americans with Disabilities Act is 
historic and truly changed this country. So thank you. And you 
will be missed when you go. But I'm glad you're here for 2 more 
years. We have a lot of work to do.
    Also, this is a very personal hearing for me and very 
important on this work. I taught special needs children as my 
first real paying job, and I loved the work. And, I have to say 
teachers who teach special needs kids work hard, and special 
needs kids work hard. But it was always in the back of my 
mind--where do they get to go from here for all their hard 
work?
    So a hearing that talks about how we open more 
opportunities for our young people who have worked for so many 
years to get themselves into a position where they will be able 
to do meaningful work is really important. So I commend you for 
your work, Governor, and commend you, Mr. Chairman, for holding 
this hearing. I also hope, Governor, that you will indulge me 
if I brag on my Governor from back in Massachusetts.
    Governor Markell. He is the best.
    Senator Warren. He is pretty terrific, isn't he? Governor 
Patrick, in the first 90 days after he became Governor, put in 
executive orders that have resulted in an increase, about a 70 
percent increase, in the employment of people with disabilities 
in the executive branch of government. And I want to talk for 
just a minute, if I can, about two particular parts of what 
Governor Patrick did, just so we get some conversation about 
it.
    One of them is that Governor Patrick insisted on mandatory 
training for all employees in the executive branch so that the 
issues about employing disabled citizens was something that 
everyone talked about. And I just wonder if you could talk 
about that for just a minute.
    Governor Markell. I think it's a great idea. I mean, it 
does not surprise me that Governor Patrick is a leader in this 
field. I mean, he really is extraordinarily effective. So much 
of this, again, has to do with the culture, the expectations, 
and how they will be received. And we had just the other day at 
the NGA hearing the vice president of a company, as I 
mentioned, that makes windows and doors in Baltimore. I think 
it's about a 60-employee company, and they've got quite a few 
people with disabilities.
    It's not something that they really intended to do. They 
thought, window and door places actually can be pretty 
dangerous with all the glass, and they said this really 
couldn't work. But they had a very effective advocate who said 
to give it a shot. And one of the things that they found is 
that this has made them a kinder company.
    When you go to the Walgreens facility in Windsor, CT, that 
Senator Harkin and I went to, there are signs all over the 
place making clear that it's not us and them. It is we. And 
this is a very important learning that the way for this to be 
successful is that we will learn from each other. I think this 
idea of the training for all people makes it a whole lot more 
likely that the people with disabilities will be more 
successful and that, as a result, the organization as a whole 
will be successful.
    Senator Warren. Thank you very much, Governor. Can I ask 
one more question? Governor Patrick also set up a pool of money 
so that it could be used to help pay for reasonable 
accommodations when a little change, just as Senator Harkin was 
talking about, needs to be made. And we understand that 
everyone is under financial pressure. There was a pot of money 
to go to be able to make those changes if they would permit the 
employment of someone who was disabled. Could you comment on 
that, please?
    Governor Markell. Well, it's interesting. One of the things 
that some of the folks talked about at the panel the other 
day--I mean, certainly, accommodations do need to be made. In 
the case of Walgreens, which has about 250 employees at the 
Windsor, CT, facility who have disabilities and another 250 
people without disabilities, there they have two job coaches. 
Now, not every company can afford a job coach. If you're a 10-
person company, you may not be able to afford a job coach.
    But what one of the companies the other day found is that 
the accommodations ended up costing maybe $500 per employee, I 
mean, just not a big deal. They thought it would be a lot. But 
one of the things that they found--they actually became a safer 
company when they brought in more employees with disabilities, 
because they really took a hard look at their processes, and 
they wanted to make sure that the people with disabilities were 
not injured. The improvements that they made actually made it 
safer for everybody else.
    The accommodations can vary considerably from place to 
place. I think it is reasonable to expect that some 
accommodations may have to be made, but it's also likely, if 
you really think about how you're doing your business, that it 
may not be that expensive.
    I also appreciate you bringing up the idea of employment in 
the public sector generally. Our initiative, while largely 
focused on working with businesses, also recognizes that we as 
State governments can be model employers as well, and we have 
to walk the walk. There are lots of opportunities in 
government, whether it's State, Federal, or local, where we can 
provide these employment opportunities. I think it's easier, 
frankly, to go to businesses to encourage them to do the right 
thing when we can say, ``Here are some of the steps that we're 
taking within our own government and it's working for us.''
    Senator Warren. Thank you very much, Governor. Thank you 
for the pivot to what would have been my third question, but I 
would have been out of time. Thank you very much for your work, 
and greetings from Governor Patrick.
    Governor Markell. Thank you. Give him my best.
    The Chairman. Thank you, Senator Warren.
    Now, we'll go to Senator Murphy, Senator Baldwin, and 
Senator Murray.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    I am so glad that you have taken this on as your mission, 
and I'm equally pleased that both you and Senator Harkin were 
able to come to Connecticut and see that amazing facility. 
You've said it better than I could say it, so I won't repeat 
it.
    But it's just good business for Walgreens. They certainly 
are doing it because they believe it's the right thing. But, as 
you mentioned, productivity is up, safety has been enhanced, 
and the accommodations that they have to make are, frankly, 
stunningly minor compared to what most people would think the 
accommodations would need to be. It's just a success story that 
we hope will be repeated. So I'm so glad that you came, and, 
hopefully, more Governors and more Senators will be able to see 
it, because it's something that we should be replicating 
throughout the country.
    Governor, I wanted to talk about one subject that is 
absolutely essential to making sure that these individuals are 
ready to work, and that's housing. I helped write a bill in the 
House of Representatives about 3 years ago that reformed the 
Nation's support of housing laws. And the result of that bill 
will be that we'll build about three times as many supportive 
housing units across the country with Federal dollars.
    And even if we do reach this goal of having more private 
employers picking up disabled workers with these relatively 
small accommodations, it will likely still fall back on the 
public sector to help find appropriate housing. What we know is 
that in supportive housing, that relatively small investment in 
one individual living in the building who can act in some small 
measure as a job coach, to sort out any problems that might 
have happened that day, and to make sure the individual gets to 
places that they need to get for their different therapies and 
medicines--that makes the biggest difference in the world.
    So I wonder if you might talk about how you see the 
interaction of appropriate housing for individuals with 
disabilities play into their employability and how, 
unfortunately, if we continue down the path of taking 
supportive housing units offline as budgets get tighter and 
tighter, it's going to make it a lot harder to actually get a 
lot of these individuals employment ready.
    Governor Markell. Thanks for the question. It's about 
housing. It's about transportation. It's about providing the 
community supports. And I mentioned earlier that Secretary 
Landgraf, who is the secretary of Delaware's Department of 
Health and Social Services, is with us today.
    I've been in office just over 4 years now, and she has been 
spending considerable time since we took office together in 
January 2009 on this very issue of making sure that people with 
disabilities and others have the opportunity to live in the 
least restrictive setting, meaning the community, if that's 
what they want to do. And that obviously means having an 
available, affordable supply of housing stock that is close to 
transportation and close to other services as needed.
    This is a difficult thing to do, because you've got to make 
these investments early enough on. And when you make these 
investments, you need to make sure that people also have the 
community supports, like the community support that you just 
mentioned. So it can be expensive for States at a time when 
States can't afford a lot of expensive things, because before 
we start giving people these offerings in the community, you've 
got to make sure that all of the community supports are 
available.
    We are spending considerable time on this in Delaware. I 
know a lot of States are doing the same thing. And I have to 
say I agree with the premise of your question, that we need to 
make sure--if people are going to be working out in the 
community and, certainly, living there--that we've got an 
adequate and affordable supply of good housing stock.
    Senator Murphy. I don't waste a moment to make a pitch for 
supportive housing because, to me, it's the building block of 
success. If that individual has a safe place to live in the 
community with a modicum of support, then that allows them, 
frankly, to pay back that investment in spades through this 
private employment model that we're talking about here today. 
And I appreciate your efforts on all of this.
    Governor Markell. Thank you.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Murray. I was going to call on 
Senator Murray for purposes of--OK.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Chairman Harkin, and I want to 
add my thanks to you and Ranking Member Alexander for holding 
this very crucial hearing on State leadership in employment of 
people with disabilities.
    Governor, thank you also for being with us this afternoon. 
Your work on behalf of the National Governors Association on 
this important initiative to employ people with disabilities is 
very encouraging, and I'm delighted to get a chance to learn 
more.
    In preparation for this hearing, I spoke to some of the 
folks at the Wisconsin Vocational Rehabilitation Division about 
what's happening in the various States that will be represented 
on the panel that's following yours. And it wasn't a big 
surprise to me to know that the Wisconsin DVR has been in close 
touch with all three States, talking about best practices and 
sharing innovative ideas.
    They consulted with Washington State on motivational 
interviewing, they consulted with Oklahoma on their cold case 
unit, and Wisconsin stole Utah's best practices for improving 
our quality assurance program. All of these across-State 
collaborations have been very important to Wisconsin's ability 
to serve individuals with disabilities and, hopefully, to those 
States they've partnered with over the years.
    Governor, how would we best increase the level of 
collaboration between States and make sure that best practices 
are available and shared? And how can we ensure that these 
types of collaborations are sustainable?
    Governor Markell. Well, thank you for the question. The 
answer to the first part of the question, only slightly tongue 
in cheek, is I would encourage--we think we should encourage 
all the Governors to go to Milwaukee this August when the 
National Governors Association is going to be having its next 
big meeting. I'm sure you appreciate the tourism plug.
    Senator Baldwin. No question.
    Governor Markell. But that's really a big part of this 
effort in the first place, to get Governors talking to each 
other, and I was very encouraged just a couple of days ago when 
we met. We had, actually, two separate meetings on this issue. 
And I should have said to Senator Murphy that Governor Malloy 
was very engaged in the conversation. Governor Walker was there 
the entire time, very focused. We'll be going to Washington 
State in a few months to Governor Inslee.
    We've actually got a couple of institutes coming up. We're 
calling them Governors Institutes. One is going to be in May in 
Pittsburgh, the other in May in Seattle. And the NGA is 
actually making money available to send a few people from each 
State so that we can have a day and a half of dialog about best 
practices. We are certainly hoping that Governors show up. And 
then we'll be following that up, as I mentioned, with the 
meeting in Milwaukee.
    My sense is--and I was speaking earlier to the panelists 
who are coming on next. Senator Alexander was speaking earlier 
about when he was chair of the NGA. That was really when they 
started this idea of having the organization focus on one 
initiative for the year. And they generally tend to be on 
education, healthcare, infrastructure, you know, big important 
issues.
    This is the first time that there's been a focus on people 
with disabilities. And my guess is it's probably going to be 
the last time in quite a while. It's a relatively niche issue 
and, I think, a really important issue. But it's one that 
hasn't gotten so much attention. And a big reason that I chose 
this initiative is because I believed that it was tangible 
enough that it's something that we can move the needle on if we 
got businesses and States working together.
    One of the things that we're especially focused on is the 
involvement of the business community. For example, Greg Wasson 
from Walgreens came back the other day, and he spoke to all the 
Nation's Governors. He and I were speaking about some of the 
other companies around the country and CEOs with whom he has 
relationships and the idea of him talking to some of these 
other executives.
    I'm sure I could name companies in each of your States. I 
mean, you think about Amazon, which has a massive distribution 
center network, and imagine the power if they did things--and, 
by the way, Amazon has a big facility in Delaware about which 
we're thrilled--two of them that we're thrilled about. But 
imagine the opportunity if CEOs listen to each other and 
understand this is not just about charity. This is about doing 
the right thing for their shareholders. It's great for the 
community.
    We're hoping that Governors, their staffs, and businesses 
working together can figure out best practices and make a 
commitment to moving forward. So I appreciate the question. 
And, really, one of the main reasons I chose this initiative 
was to answer that very question, which is let's get the issue 
on the table. I mean, Senator Harkin, obviously, has done an 
incredible job throughout his career at a Federal level of 
making this a really important issue. We believed that it was 
time to make sure that States were really following in the lead 
that he and his colleagues have set out on over these years.
    Senator Baldwin. Thank you.
    Governor Markell. You're welcome.

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, I'll just thank Governor 
Markell for all of his work on this issue and this is an 
incredibly important hearing. I know he's been sitting here a 
long time, and you have another panel, and I want to make sure 
I have an opportunity to introduce a member of the next panel.
    But, Governor, thank you very much for your focus on this.
    Governor Markell. Thank you.
    The Chairman. Again, Governor Markell, thank you, thank 
you, thank you for your great dynamic leadership on this. I 
know that all who are here and watching on C-SPAN can get a 
sense of your deep commitment to this. And you are moving the 
needle, believe me. I'm picking it up around the country.
    I know about the weekend you just had here. Hopefully, 
we're going to have another session with Pete Sessions in 
Texas. We're thinking about having something, I think, in 
Delaware, if I'm not mistaken, in May.
    Governor Markell. Right.
    The Chairman. So things are moving, and I think with the 
examples that a lot of our private companies have given--we 
talked a lot about Greg Wasson and Walgreens, but others have 
stepped in there, too. With the examples that they're showing 
and the fact that we have the U.S. Chamber of Commerce onboard 
with their stamp of approval on this, I think we can really 
make some differences.
    And you're right that we can only do so much at the Federal 
level. The States--that's where you can really make this really 
happen. And with some of the changes we need to make in voc 
rehab, in WIA reauthorization, and a couple of other things, I 
believe we're at this point where we're going to see more and 
more businesses understand that hiring people with disabilities 
is not, as you said, a charity. It's best for their business.
    Thank you very much, Governor Markell.
    Governor Markell. Thanks for having me.
    The Chairman. Now we'll call our second panel, Jane Boone, 
Mike O'Brien, Don Uchida. For the purpose of an introduction, I 
will first recognize Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, and I am 
very pleased to introduce one of our next panelists. As 
everyone here knows, Washington State has one of the most 
successful efforts to make sure that individuals with 
disabilities have full access to competitive integrated 
employment opportunities. It's a commitment that I have 
strongly supported, and I want to thank the chairman for his 
continued and passionate leadership on this issue.
    Jane Boone, who is here with us, lives in Seattle and 
currently serves as a consultant with the State Employment 
Leadership Network. Until this past January, she administered 
the Jobs by 21 Employment Partnership Project for the 
Washington State Division of Developmental Disabilities. In 
that position, she worked at the local, State, and national 
levels to put in place the collaborative practices, policies, 
and funding strategies needed for the State and the Nation's 
workforce of persons with intellectual disabilities to get jobs 
and earn good wages.
    She administered an innovative funding strategy for pilot 
sites in Washington State so youth with intellectual 
disabilities could start work in a good job prior to school 
exit. Before moving to the State level, Jane spent 27 years 
working in Thurston and Mason Counties, and during her time 
there, both counties' employment agencies closed their 
sheltered workshops and changed their business models to offer 
the support needed for working age adults with disabilities to 
work and earn real wages with community employers.
    Jane, welcome to today's hearing. It's great to have you 
here. And thank you for all your hard work over many years on 
this issue. I want you to know we all appreciate very much 
everything you've done to keep Washington and the United States 
out in front of providing quality employment opportunities for 
people with disabilities. It's great to have you here.
    Mr. Chairman, thank you for having her as one of your 
witnesses.
    The Chairman. Thank you, Senator Murray.
    We'll start with Ms. Boone, and then we'll go to Mr. 
O'Brien, and then to Mr. Uchida. If you could sum up within 5 
to 7 minutes--I read all your testimonies last night. They're 
just great, every one of them. And, without objection, they 
will all be made a part of the record in their entirety. So if 
you'd just sum it up, then we can get into an exchange. 
Welcome. Thanks.

     STATEMENT OF JANE BOONE, CONSULTANT, STATE EMPLOYMENT 
       LEADERSHIP NETWORK, WASHINGTON STATE, SEATTLE, WA

    Ms. Boone. Thank you so much.
    And thank you, Senator Murray, both for the lovely 
introduction and for your service not only to our great State, 
but to this country and internationally. It's much appreciated.
    Senator Harkin, it is a privilege to be in the same room 
with you. Your leadership, Senator Alexander's leadership, and 
the leadership that is coming from our new members--it's just 
an exciting time to be in the United States and talking about 
this particular issue. I was asked to speak today about 
Washington's leadership and what we've accomplished, and I will 
speak to the accomplishments that we've achieved within the 
context of the workforce of people with intellectual and 
developmental disabilities.
    Some consider those disabilities to be the most complex 
because they may be also accompanied by a physical disability. 
A person can be blind, they can be deaf, they can have any 
variety of additional physical disabilities. But an 
intellectual disability is the disability that's in common 
amongst all the workforce that I'll be speaking about today.
    The foundation of the success in Washington State is pretty 
simple. We value people. We value every single person that is 
in our workforce in our State. We want those people to 
experience lives of value, to have respect, to have status, to 
increase in competence, to be healthy, safe, to have power, and 
to have choices. And like any of us in the room, they may not 
be able to do every job, but they can do several jobs.
    All of us need some sort of support, some sort of 
encouragement, some sort of accommodation, and it isn't any 
different for a person with an intellectual disability. Beyond 
that, when we line up our policies, our funding, our 
accountability, and our message to say everyone is employable, 
everyone, we accomplish it.
    When we started in 1980, our employment rate of people 
working in jobs in the community, something that's called 
integrated individual employment, was at zero. We didn't even 
let people be in sheltered employment in 1980. We had day 
activity centers.
    By 2004, when we enacted our working age adult policy that 
said that the support we would provide to people to achieve 
lives of value where they could gain in status and respect and 
in competence and have more choices and be more integral in 
their community, we were at 53 percent. As last measured by the 
Institute of Community Inclusion, the wonderful institute in 
Boston, MA, we were at 89 percent. Being able to clearly say to 
our State that people would be expected and supported to 
achieve a living wage was absolutely paramount in our success.
    Currently, there are over 3,000 people with intellectual 
and developmental disabilities working in individual jobs for 
employers large and small, rural communities, urban areas, 
metropolitan communities, the private sector, the public 
sector, across Washington State. I wish they could all be here 
today. I wish all their employers could be here. I wish their 
families, their special ed teachers, their neighbors--I wish 
they were all here.
    But they can't be. They're at home. They're working. I'm 
here. So I'll share just two brief stories. Like most people 
working for Microsoft, Dan Thompson was the best at what he 
did. He could sort mail more quickly and more accurately than 
anyone else. And like most people who work at Microsoft, he 
liked having a connection with Bill Gates. Within 10 minutes of 
meeting him, you'd probably know he worked for Bill. He sorted 
his mail.
    What was different about Dan was not that he was born with 
Down's Syndrome or an accompanying fragile medical condition. 
It was that Dan was born into the Thompson family. His parents, 
Margaret-Lee and Lorin Thompson--when they met Dan, when he was 
born, his doctor said, ``Fragile heart condition--probably not 
going to make it very far.'' They didn't know they had a 
Thompson.
    When Dan graduated from high school, he had a job at 
Microsoft. And for the next 14\1/2\ years, he worked there. The 
fact that Dan was really good at his job was an absolute 
requirement for working at Microsoft. It wasn't required that 
he be such a likeable guy. It wasn't required that everybody 
enjoyed going to the mail room to check in and hang with Dan 
for a while.
    The day after Dan died, the Microsoft flag on the Redmond 
campus flew at half staff. And both Governor Gary Locke and, at 
the time, Dino Rossi, his gubernatorial challenging candidate 
for the Governor's position, sat side by side at his memorial 
service.
    Ron's story is different. The complexity of Ron's 
disability was such that he was unable to speak. Having no 
other way to communicate, in his frustration he inflicted grave 
harm to himself. Over his time, his injuries resulted in 
causing his own deafness and his own blindness. He was 
institutionalized with around the clock two on one staffing 
just to prevent him from inflicting further harm on himself.
    When he moved to King County, Ron's employment agency found 
a job for Ron at a grocery store. And with a job coach, he 
learned to clean freezer cases and do other tasks at the 
grocery store. He learned he could count on himself and he 
could count on others. To get up in the morning, he had his 
hand on a vibrating alarm that told him it was time to get up 
and make his way to the bus stop. His self-injuring behavior 
stopped. He took home his paycheck. He interacted in the 
community. He didn't hurt himself anymore. He had co-workers to 
interact with. He learned other ways to communicate. He did 
that at his job.
    We have learned person by person, job by job that everyone 
is employable. Right now in Washington State, people are 
averaging 17 hours of work per week, and even though our 
minimum wage is right up there nationally, that means that 
they're only earning about $7,000 a year. That's not enough. 
Some people are working 40 hours a week, and in the public 
sector, they're making closer to median wage. That's what we 
want for everyone. We want everyone earning median wage.
    Self-advocates with disabilities are clear. They want good 
jobs, and they have a strong presence in our State legislature. 
Our employers in our communities know firsthand the importance 
of including everyone in the workforce.
    Shifting briefly to the national picture and speaking just 
to the intellectual disability community, nationally, between 
80 and 90 percent of people with intellectual disabilities are 
unemployed. Federally, we pay for people to be unemployed, 
either in a non-work day activity center or a segregated 
setting. That's not the case in Washington State. It's flipped 
the other way. Of the 7,500 people who are relying on the 
division for support, only 500 are left in sheltered workshops 
in the State of Washington, and that came simply from believing 
that everyone is employable and that we needed to line up our 
supports, our funding, our contracting, and our expectations to 
achieve that.
    So I would ask you that you insist upon cross-agency 
collaboration with other committees beyond your own--yours is 
critical--with education, because if we can assure America's 
youth with the most complex disabilities are expected and 
supported to get good jobs, we will have this problem solved in 
the next two generations.
    Thank you very much.
    [The prepared statement of Ms. Boone follows:]
                    Prepared Statement of Jane Boone
                                summary
    The success of Washington State in developing a workforce inclusive 
of those with intellectual and developmental disabilities is attributed 
primarily to the value that we as a State place on including each 
person as a valuable, contributing member of their community. 
Washington State understands that in America, earning a living wage is 
key to achieving health and safety, overcoming loneliness, gaining in 
competence and respect, making contributions to the community, having 
status, and exercising real power and real choice. The ability to earn 
a decent living in a rewarding job with the proper support is not 
something seen as privilege, but rather a right--an integral part of 
how we think about our workforce.
    However, achieving relatively high integrated employment among 
individuals with intellectual and developmental disabilities did not 
happen overnight. Sustained improvement in our State's disability 
employment rate was achieved through leadership, careful planning, 
accountability, and close stakeholder involvement.
    A key factor to Washington State's success has been the 
longstanding commitment to the principles and benefits of inclusion, 
leading first to approval of inclusive education laws in 1971. 
``Employment First''--which articulates our philosophy that services 
and supports should be designed and delivered in a manner that leads to 
and supports competitive, integrated employment as the expected 
outcome--was approved by the State legislature in 2012. Employment 
First in Washington is not just a policy, but a fully supported and 
integrated practice in the State. Key to the success of Employment 
First has been the data collection and accountability component.
    The degree of stakeholder involvement has also been crucial to the 
success of Employment First. Self-advocates, along with their families, 
were among the strong initial supporters of Employment First. The daily 
presence of people with significant disabilities in workplaces across 
the State have helped to make commonplace the fact that people once 
considered unemployable are willing and able to fill important jobs in 
our communities. Employers have come to embrace this model and 
understand its benefits.
    However, there is more to be done. While the percentages of adults 
with intellectual and developmental disabilities working in 
competitive, integrated employment in Washington positions us as a 
national leader, the next step is reaching typical employment rates, 
improving hours worked per week, wages, and benefits for these 
individuals. Although we are doing what we can Washington, collective 
accountability between State and Federal agencies and programs is 
essential to leveraging funding and programming opportunities that 
could serve those who are ready to work. This is especially important 
as a new generation of individuals with disabilities prepares to enter 
the workforce.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, distinguished committee 
members and dedicated staff, thank you for the opportunity to testify. 
My name is Jane Boone and I live in Seattle, WA. I currently serve as a 
consultant to the State Employment Leadership Network (also known as 
the SELN), a growing consortium of 27 States across the country from 
Hawaii to Massachusetts. The SELN is collaboratively staffed by the 
Institute of Community Inclusion and the National Association of 
Directors of Developmental Disabilities Services. The purpose of the 
SELN is to improve employment for each State and our country's 
workforce with intellectual and developmental disabilities. For the 
first 27 years of my career I worked as a grants administrator at the 
local government level in Thurston and Mason counties, one a 
metropolitan and the other a rural county in Washington. Then, for 5 
years until January 2013, I managed Washington State's Jobs by 21 
Employment Partnership.
    My career has one clear focus--developing and implementing the 
policies and practices needed for youth and adults with intellectual 
and developmental disabilities to get good jobs with good employers at 
typical ages, have the opportunity to advance in their careers, and 
earn a decent--better than decent--living. Having the opportunity to 
briefly summarize the key elements in place in Washington State over 
the past 40 years that have led to the inclusion of youth and working 
age adults with intellectual and developmental disabilities in 
Washington State's workforce is, truly, a privilege.
    The core foundation of Washington's success is simple. We value 
people with intellectual and developmental disabilities being in our 
lives and living as equally participating members in our communities. 
That is the heart of it. Given that, we know it is the responsibility 
of publicly funded support to promote the opportunity for all citizens 
to be integral members of our communities, living with status and 
respect, increasing in competence, expanding meaningful friendships and 
relationships, having access to an array of good choices, and being 
healthy and safe. These basic values make Washington's focus on 
employment obvious. The most simple and cost-
effective way to achieve all of the basic elements essential to a 
decent life--for any of us--is to support everyone, perhaps most 
especially people with intellectual and developmental disabilities, to 
get and keep a good job and advance in their careers.
    Contrary to previously held beliefs in the United States, beliefs 
that resulted in segregating people with even very mild disabilities 
into sheltered workshops and adult ``habilitation'' centers, Washington 
has learned over and over again, job by job, person by person, employer 
by employer, that everyone is employable. Over 3,000 people with 
significant and sometimes very complex disabilities are now working in 
integrated, competitive jobs with employers large and small. These are 
people who were segregated and not working 30 years ago in our State. 
With purposeful intent in policy and in funding, collaboration amongst 
government agencies, and the support of employment service agencies, 
families, friends, schools and networking, those jobs happened one 
employer and one person at a time. It didn't happen overnight. With 
over half of Washington's workforce relying on supports from the 
Division of Developmental Disabilities employed in individual 
integrated jobs, we now know that the entire workforce of youth and 
adults with intellectual and developmental disabilities are employable. 
Every young person, every middle-age person, every older person, can 
work in an integrated job in the community, no matter how complex or 
unusual the disability. We have learned that exactly like for you and 
me, with the right job match, the right jobs supports and a willing 
employer, everyone is capable of working and contributing to our 
economy and our communities. None of us can work for every employer, 
but each one of us can work and have a job when our talents and skills 
match the needs and supports available at our job. None of us gets 
through a workday without some level of support from our co-workers, 
our supervisors, some level of accommodation, no matter how great or 
small, and technology. For the workforce of people with very complex 
disabilities, that support will likely include expertise from a job 
developer to get the job, and a job coach or employment specialist on 
the job. That is not always needed, and when it is, it's not usually 
much of a difference, it may include more in the way of on the job 
supports, job restructuring or more thinking about arranging the 
accommodations any of us need to get our jobs done to our employer's 
and our own satisfaction.
    While valuing the inclusion of all people is at the heart of 
Washington's success, being clear and accountable to a goal is critical 
to successful achievement of any pursuit.
                           washington's goal
    Youth and adults with intellectual and developmental disabilities 
in Washington State will:

    <bullet> Have the support and expectation needed to earn a living 
wage;
    <bullet> Actively use existing talents and gain new abilities in 
every sector of the State's workforce; and
    <bullet> Contribute as equals in the labor force and economic 
vitality of the State.
            washington eight essentials to goal achievement
    (1) Stakeholder Leadership--clear communication of vision, values 
and goal in policy and practice.
    (2) Accountability and Performance Measurement of data on progress 
toward employment goals.
    (3) Funding and Contracting methods investing in integrated 
employment.
    (4) Training and Technical Assistance to support and expand the 
expertise of employment agencies.
    (5) Common Accountabilities and Working Agreements amongst partners 
including local government, schools, Vocational Rehabilitation, 
employers and families.
    (6) Stakeholder and Advocacy involvement and guidance in policy and 
practice.
    (7) Private and public sector employment--government and business 
leadership in hiring.
    (8) Innovation and continuous quality improvement at the local and 
State level, including investment in new and increasingly effective 
business models.

    National Picture: Washington has relied on maximizing every element 
essential leading to our success for over 30 years, and our data shows 
the improvement in our employment outcomes and progress toward our goal 
of full inclusion in the workforce. Nationally, despite many employers 
hiring people with intellectual and developmental disabilities, despite 
the need for people to get and keep good jobs, despite our country's 
urgent need for a capable workforce, it is not yet a commonly held 
belief that it is possible for everyone to work, and the data reflects 
the lack of expectation, the lack of assumption that everyone is 
employable. At the national level, currently, 80 percent to 90 percent 
of people with intellectual disabilities remain segregated in publicly 
funded sheltered workshops or segregated non-work day activity centers. 
The National Core Indicator study demonstrates that of those who are 
unemployed, the majority want a job, yet only 28 percent have an 
individual service plan that includes the goal of a getting a job. 
(Human Services Research Institute (2012). Working in the community: 
The status and outcomes of people with intellectual and developmental 
disabilities in integrated employment. NCI Data Brief, October 2012. 
Cambridge, MA: Human Services Research Institute.)
    How can this be, how can such a large segment of America's 
workforce who wants to work remain segregated and unemployed without 
the expectation or assistance to get a good job and earn good wages? 
Some of Washington State's self-advocates grew up knowing they would be 
expected to work, others feel lucky to have a job and see it as a 
privilege, especially amongst the older workforce. Typically, we think 
of privilege as being defined as an unusual benefit, perhaps a rare 
advantage or special honor. In America, a country founded on the rights 
of all citizens to pursue life, liberty and happiness, a nation with an 
economy based on the principles and benefits of capitalism, few of us 
would consider working or earning a living to provide for our families 
and ourselves as a rare privilege or a special honor. It is just what 
we do--we get up and go to work for a living. Few Americans consider 
paying taxes as a privilege; it is simply a measure of ordinary 
contribution in civic participation.
    However, the only reason I am here testifying before you today is 
that, according to data compiled annually by researchers at the 
Institute for Community Inclusion (ICI), and data published by the 
National Core Indicators project, at best 20 percent, and perhaps 
measured more accurately, 10 percent, of our workforce with 
intellectual and developmental disabilities are working in individual 
integrated jobs in a competitive environment. Said a different way, as 
mentioned, we are talking about an 80 percent to 90 percent 
unemployment rate for a significant portion of our country's workforce. 
Not being expected to work and earn a living is distinctly not a 
privilege. America's working age adults with intellectual or 
developmental disabilities are overwhelmingly excluded from what the 
rest of our Nation takes for granted--the right, opportunity, support 
and expectation to find employment and ``make a living.'' Not 
surprisingly, for the most part, they are living in poverty. Poverty is 
not by definition an accompanying condition to disability, but 
unfortunately, that is the case in the United States. Now that we know 
how to do better, we have to do better. The privilege of my presence 
here is due to what is viewed as a ``notable accomplishment''--the 
relatively high number of adults with intellectual and developmental 
disabilities in Washington State working in jobs for employers in their 
communities and earning minimum wage or better.
    Washington's success: With collaboration between the private and 
public sector, innovation, commitment from employment support agencies, 
and a persistent expectation and investment in employment, the 
integrated employment rate of adults relying on day and employment 
support from the Washington State Division of Developmental 
Disabilities has risen from just around 0 percent in 1980, to 53 
percent in 2004 and, as last measured by ICI, to 89 percent in 2011. 
That may sound impressive, but we are the very first to admit that we 
have a long way to go until the day every person of working age is 
employed and earning decent wages. Eighty-nine percent is the total 
percentage of individuals receiving funded employment supports who are 
working in an individual job, or at a small group employment site. In 
that 89 percent figure are people who are working, but some are between 
jobs, or receiving support to land their first job, or advance in their 
career. The good news is that Washington has pretty much figured out 
how people with intellectual and developmental disabilities with 
relatively low employment support needs can enter the workforce and be 
successful on the job, but we are still learning how to work with 
employers so that 100 percent of the workforce can be working. The 
biggest disappointment is in the average hours worked per week and the 
wages earned. With only 17 hours per week as the average hours worked 
per week, and the hourly wages averaging just right around minimum 
wage, average annual earnings are roughly $7,000 and that is very 
different from our goal of median wage earnings and full-time work.
    National Initiatives: For over 5 years, Washington has actively 
participated in what is now a 27 State consortium--the State Employment 
Leadership Network. In 2012, we also received a Federal grant from the 
Office of Disability and Employment Policy at the U.S. Department of 
Labor to mentor three States in Employment First practices--Iowa, 
Tennessee and Oregon. In the summer of 2012, Iowa's team, led by David 
Mitchell, the Iowa vocational rehabilitation director, asked Washington 
to answer a series of questions that would help explain how Washington 
State has been able to achieve the relatively high level of people in 
integrated employment settings. That outline is summarized here:

    What are some factors essential to Washington's success that might 
guide us?
    Washington is fully engaged in implementing an Employment First 
practice, it is not just a policy or a statute. Washington's service 
system is aligned toward people with intellectual and developmental 
disabilities getting what they need to earn a living wage, reach their 
individual career goals and contribute to our State's economy through 
participation in the labor force. Fundamental elements of Washington's 
Employment First practice include:

    <bullet> The premise and expectation that almost all of us need to 
work to earn a living--and with a good job match and effective support, 
all of us can work.
    <bullet> It is essential to invest in an employment agency 
infrastructure competent to assess the community job market, match and 
train job-seeker skills and abilities to employer needs.
    <bullet> Effective employment support needs are unique to the 
individual and can be expected to fluctuate over time and vary in 
intensity along with job demands.
    <bullet> Publicly funded employment services, allowable 
expenditures, service definitions and billable activities are directed 
to the State's intended outcome that people earn a living wage in an 
integrated job in the community.
    <bullet> Reimbursement and funding allocation methodologies provide 
the varying levels of support needed for individuals to get and keep 
good jobs, and continue to advance in careers.
    <bullet> Employment services are integral to the HCBS waiver plan 
and Washington provides Medicaid coverage under the Healthcare for 
Workers with Disabilities (HWD) program. The availability of Healthcare 
for Workers with disabilities helps remove the disincentive of losing 
medical insurance as workers earn higher wages over time. Washington 
relies on Benefits Planners to assist individuals to use all available 
Federal resources in the pursuit of gainful employment.
    <bullet> Individual employment outcome data is collected monthly, 
is integral to the billing process and includes data on individual 
wages earned, hours worked, type of employment, hours of support 
received, job setting, cost of support and funding source.
    <bullet> Transparency and accountability to employment outcomes is 
paramount to achieving the goal: Statewide employment outcome reports 
based on the above data elements with report query capacity at the 
employment service type, age, level of support need, provider, county, 
regional and statewide level are available to anyone with Internet 
access at this Web site: http://www.statedata.info
/washington-ddd/.
    <bullet> Employment earnings data is available from the State's 
unemployment insurance department each quarter via an interagency 
agreement. The reports, trends and patterns reflected in that data is 
integral to our measurement of progress in employment outcomes.
    <bullet> Washington State Division of Developmental Disabilities 
relies on collaborative inter-agency partnerships with Counties, the 
Division of Vocational Rehabilitation, Self-Advocate Organizations, 
Family Organizations, the Developmental Disabilities Council, 
Disability Rights and Advocacy Organizations, the Workforce Investment 
Board, the State Department of Education (Office of Superintendent of 
Public Instruction), University Centers for Excellence, the State 
Legislature and the Governor's office. Counties and employment 
providers have much deeper connections at the local level with schools, 
employers, families, Rotary and Kiwanis, transportation providers, and 
other community agencies and service providers integral to the 
employment success of local citizens with intellectual and 
developmental disabilities.
    <bullet> Employment provider evaluation and monitoring is conducted 
regularly, and includes the essential elements defining measures 
counties must regularly review in evaluating service providers.
    <bullet> Technical assistance and training is available through the 
Washington Initiative for Supported Employment and other contractors 
for county and contracted employment providers to gain in competency 
and create new business models and ways of achieving valued outcomes. 
Individualized Technical Assistance is also available to job seekers 
who are experiencing difficulty in achieving their employment goals.
    <bullet> County contracts define and reinforce the expectation of 
integrated employment outcomes for individuals.
    <bullet> High School Transition to Work is encouraged at the local 
level, and counties may elect to use State contract funds to foster 
collaborative relationships with communities and schools so youth exit 
school with good jobs. The DDD County Program Agreement cites as an 
allowable category,

          ``Partnership Project: Collaborative partnerships with school 
        districts, employment providers, DVR, families, employers and 
        other community collaborators needed to provide the employment 
        supports and services young adults with developmental 
        disabilities require to become employed during the school year 
        they turn 21.''

    The Partnership Project 2009 evaluation report provides more 
information on the State's innovative, effective and above all, 
collaborative efforts in school transition to work.

    Washington has been working toward supporting individuals with 
intellectual and developmental disabilities to earn living wage jobs in 
integrated community settings for over 30 years, and the principles and 
practices of Employment First exist throughout the service system. 
Additional factors include:

    State Legislative Role: Until the 2011 legislative session with the 
passage of Employment First legislation (SB 6384), the legislative 
policy framework for delivering employment services has been through 
budget appropriation language, which has consistently provided funding 
for employment and day services. In 2004, the division, working with 
stakeholders, drafted the Working Age Adult Policy and gave counties 
until 2006 to implement. The policy made employment the only option for 
working age people unless an exception was granted. In 2009, there was 
a significant stakeholder discussion about access to lifelong learning 
opportunities--more than just employment. Part of the discussions was 
disagreement about whether or not all working age people could or 
should work. The legislature did not address the policy issues and the 
budget continued to make employment funding available.
    In the 2012 legislative session the legislature considered the 
issue again and in effect passed Employment First legislation by 
ensuring working age people have the right to participate in Community 
Access if efforts at employment are unsuccessful after 9 months.
    There is some disagreement in the legislature about Employment 
First. The State Senate has been almost unanimous in its support of 
employment. The State House has had significant supporters of 
Employment First and significant supporters of a non-employment agenda. 
In 2012, Employment First became State policy by legislative direction.
    Grassroots efforts: Washington has been working on developing 
stakeholder commitment to the value of employment for people with 
disabilities; the community inclusion options it brings, the status 
people gain by being employed, expanding system capacity and expertise 
for and experienced much success. Self-advocates with disabilities are 
clear that they want employment first and are a consistent presence in 
the legislature. Employment agencies (including agencies that run 
sheltered workshops) have been consistently supportive of Employment 
First and were the leaders in changing their business models. Families 
are passionate advocates for employment and there are families that are 
passionate about employment first being wrong for their family member.

    To emphasize the clarity on the type of employment opportunities 
the State has expected the county to deliver for the past 20 years, 
below is an excerpted section of the 1992 County Guidelines on 
Employment Services:

    The following are some of the outcomes counties would want to see 
people experiencing from employment services:

    <bullet> Employment in businesses that:

      <bullet> Offer status in the community.
      <bullet> Are typical businesses in the community.
      <bullet> Offer opportunities for an increase in natural supports.
      <bullet> Offer benefits, including vacation, health insurance, 
retirement, etc.
      <bullet> Offer the opportunity for wages that support economic 
self-sufficiency.

    <bullet> Jobs that contain elements of upward mobility, including:

      <bullet> Opportunity for advancement.
      <bullet> Increased wages.
      <bullet> Opportunities for new employment.

    <bullet> Choices for individuals in:

      <bullet> The work they do.
      <bullet> Who provides the support.
      <bullet> Location of the job.
      <bullet> Hours worked.

      <bullet> Opportunities for relationships and support from co-
workers who are not labeled disabled.

    <bullet> Supports that provide culturally competent services to 
individuals and their families, and demonstrate a value for diversity 
and

      <bullet> Opportunities for everyone that wants a job to have a 
job.

    Real change relies on believing that it can happen and must happen 
and the determination to see it through. At what point in time did 
people in Washington accept (realize, buy in, understand) that 
individuals with significant and intellectual disabilities can work in 
good jobs, contribute to the general labor force and earn a living 
wage?
    Not surprisingly, some of the strongest initial opponents have 
become the strongest advocates, especially among family members, but 
also among legislators, county coordinators, employers, boards of 
directors, sheltered workshop CEO's and school districts who have 
realigned their services and curriculums toward the realization of 
integrated community employment for the State's labor force with the 
most significant intellectual and developmental disabilities. For every 
would be opponent, there is likely a different story behind why they 
became a strong advocate, but almost to a person have in common knowing 
or employing one or more students or adults with a significant 
disability who may have once been in a segregated setting--and who are 
now working successfully in a job in the community. Large, medium and 
small employers hire individuals statewide, in rural, urban and 
metropolitan areas. Minimum wage in Washington is just over $9 an hour, 
but many employees make more, and some have excellent job benefits.
    Employment in community jobs is becoming more and more what is 
typical for people with significant disabilities in Washington and less 
and less the exception. It has taken a few generations to get to this 
point, and it may take at least one more to realize employment rates 
and earnings for the labor force with intellectual and developmental 
disabilities at levels typical for the general population.
    Historically, on a national level, before Marc Gold introduced 
systematic instruction techniques in the late 1960s, there were few 
people, (outside of family members working in family businesses or who 
had a very strong work ethic and had helped their sons and daughters 
get a job) who believed people with a significant intellectual 
disability could work. Tom Bellamy, at the University of Oregon in the 
1970s and 1980s, with the development of the Specialized Training 
Program, continued to build on the premise of systematic instruction, 
making it clear that the capability of individuals could be greatly 
enhanced by the competency of their employment specialists. National 
leaders came early and often to Washington State, and directly 
contribute to Washington's success, most notably including David Mank, 
John Butterworth and Rich Luecking, John and Connie Lyle O'Brien and 
Washington State's 45-year fearless leader and force of nature, Linda 
Rolfe. Michael Callahan and his colleagues at Employment for All 
advanced the concepts of systematic instruction further through their 
tireless work in customized employment, placing an increased emphasis 
on the importance of coupling systematic instruction with job placement 
that meets both the employer's needs and the job seeker's unique 
interests, abilities and non-negotiable job requirements.
    Informally, the expectation that everyone can work, and the message 
that thousands of Washingtonians with significant disabilities are 
working, is reinforced every day by employers who continue to hire, and 
employees who continue to work, be promoted, and advance in their 
careers. It is further reinforced in the State's school districts that 
have entered into collaborative agreements with counties, DVR and 
community employment providers to assist students age 18-21 to get jobs 
and graduate with positive post-school outcomes competitively employed. 
The Washington Initiative for Supported Employment provides 
reinforcement by maintaining an ever-growing collection of employment 
success stories hosted at the YouTube Web site: http://www.youtube.com/
user/WiSeMovies.
    At the most basic level, the expectation of employment in community 
jobs is likely reinforced best by the presence and participation of 
citizens with significant disabilities on the bus on their way to work, 
in the office interacting with customers, on job sites with co-workers, 
at family gatherings, parties and in casual conversation when a person 
with a significant disability answers the question ``What do you do?'' 
by talking about her or his job.
    Washington employment providers have banded together under the 
Community Employment Alliance to support each other to be ever more 
successful in the mission of supporting all individuals in Washington 
to work in good jobs. The Washington Initiative for Supported 
Employment uses social media to get the word out, and continues to 
produce and collect video and spoken testimonials and publishes them on 
their Web site.
    What difference has the policy toward employment made in 
Washington? Since Washington has been working toward integrated 
employment since the early 1980s by the time the Working Age Adult 
policy was adopted in 2006, Washington Division of Developmental 
Disabilities did not have a large investment in Day Habilitation 
centers or a large number of segregated employment service providers. 
Many of the former sheltered workshop agencies have been at the 
forefront of the positive changes, and most have either transformed 
their business model entirely to one of assisting individuals to work 
in supported employment, or have a smaller population of people 
receiving prevocational services as they continue to work toward 
integrated employment.
    To illustrate the impact the policy has had over time, between July 
2007 and July 2011, there was a 33 percent decline in the numbers of 
people in segregated PreVocational Service settings and a 28 percent 
increase in numbers of people receiving support in Individual 
Employment Services:

    <bullet> July 2007, 809 clients in PreVocational and 3,044 in 
Individual Employment Services
    <bullet> July 2011, 541 clients in PreVocational and 4,170 in 
Individual Employment Services

    Washington DDD relies on a strong partnership with the Division of 
Vocational Rehabilitation and invests in staff competencies. Community 
Rehabilitation Providers (employment supports and service agencies) 
serving more than 20 clients are required to have CARF accreditation 
and meet their staff competency criteria. Agencies keep track of 
employee training in personnel records, Counties track agency provider 
compliance with training requirements through their monitoring 
activities.
    Why is data collection and accountability critical? Simply put, you 
get what you measure.
    The data is used to demonstrate:

    <bullet> employed people use fewer resources to maintain 
employment;
    <bullet> employed people like their jobs; show up and are good 
employees;
    <bullet> employed people can earn good wages;
    <bullet> it costs more to find jobs for people of high employment 
support need than it does for people of low and medium employment 
support need;
    <bullet> there are lots of jobs people with developmental 
disabilities can do;
    <bullet> there are lots of employers that like the work ethic 
demonstrated by workers with disabilities;
    <bullet> successful job finding involves knowing the person, 
knowing the job market, assessing work flow in businesses and being 
able to connect the right person with the right job; and
    <bullet> more jobs are available when employment agencies focus on 
employer interests such as good employees that improve employer's 
bottom line and do not regard employment as the employer's civic duty.

    We are not there yet, but Washington is making progress. We have 
learned by paying close attention to the data we collect, data that 
merges our publicly funded service billings (primarily CMS Medicaid-
funded services), with employment outcome reporting, that dramatic 
results can occur when values line up with leadership, and the message 
is a clear investment in employment.
    On June 7, 2012, Governor Christine Gregoire signed the State's 
``Employment for All'' legislation, which received national 
recognition. Many advocates, families, employers, employment agencies, 
county and State government stakeholders were at the signing ceremony 
to celebrate. But June 7, 2012, was also a celebration of over 40 years 
of working toward that day. Washington was the first State in the 
Nation with parents lobbying successfully to pass HB 90 in 1971, 
Washington's Education for All bill. It was not until 1975 that a 
similar bill was passed at the Federal level. It is likely no 
coincidence that our integrated employment rates are now the highest in 
the Nation for people with intellectual and developmental disabilities. 
Many of these same parents, who expected their sons and daughters to go 
to school with their sisters and brothers, also expected them to work, 
have a career, pay taxes, and earn a living. These families know they 
are capable of contributing to their communities. Washington has 
sustained the commitment to integration and inclusion begun by parents 
in the 1960s because integrated and inclusive employment for adults 
with intellectual and developmental disabilities--just as it is for 
anyone--proves to be the best way to achieve the greatest level of 
personal development and economic self-sufficiency.
    What is happening nationally with the Federal investment? We know 
that the most effective way out of poverty is not by relying on 
welfare. Being reliant on a government check is risky business and the 
pay is lousy at the individual level, but collectively, as a Nation, it 
is very expensive and costly. The average social security check issued 
to a person with a disability puts their earnings far below the Federal 
poverty level, yet Medicaid funding has reached crisis proportions. Not 
one of us wants Federal funding to result in people living in poverty, 
be unemployed, or earn less than minimum wage, but this is what the 
majority of our country's Medicaid investment is in a day and 
employment supports is buying for our workforce of people with 
intellectual and developmental disabilities. Researchers ICI began in 
1988 to annually collect national investment and outcome data at the 
individual State level.

          The ICI data continues to demonstrate, year after year, that 
        our country pays more for people with intellectual disabilities 
        to remain segregated in sheltered workshops, or not work at 
        all, than it invests in the supports needed for them to join 
        America's workforce, earn a living wage, be a tax-paying 
        citizen, and gain in competence, friendships, status and 
        relationships.

    States are doing what they can to improve employment opportunities 
and outcomes. In addition to the initiative at the National Governors 
Association, several States are working toward or adopting what is 
known as ``Employment First'' policies and States have access to the 
U.S. Department of Labor's Office of Disability Employment Policy's 
leadership. More than half the States in our Nation currently belong to 
a consortium referred to earlier as the State Employment Leadership 
Network (SELN). The SELN is staffed by ICI at UMass/Boston and the 
National Association of Directors of Developmental Disabilities 
Services. The mission of the State Employment Leadership Network is to 
improve employment outcomes through a series of well thought out 
strategies, technical assistance, webinar training, data briefs and 
onsite training and support. But State leadership is not enough, 
Federal policies need to clearly direct funding and construct 
legislation supporting the expectation and opportunity of typical 
living wage employment for all Americans with intellectual 
disabilities. We have a long way to go to get there, but we are a 
country with a history of figuring out how to do better and how to 
innovate. We are a country capable of changing business models to 
achieve effective practices.
    Perhaps most importantly, we are a country capable of including and 
valuing Americans we once shunned. In 1975, Congress passed the 
legislation allowing every child the right to a public education, 
Public Law 94-142, now authorized as IDEA, the Individuals with 
Disabilities Education Act. If almost 40 years ago, Congress could pass 
legislation allowing every child the right to go to school along with 
their sisters and brothers, isn't it time they now be employed along 
with their sisters and brothers, community members and neighbors? Data 
shows us this is not the case for the majority of students exiting 
school, but this is where we need to start--with youth getting typical 
jobs at typical ages. We need to include students with intellectual 
disabilities in our country's excellent career and technical education 
classes in high school, not just in special education. Even with a 
strong emphasis on effective transition principles in IDEA, and with 
data collected on post-school outcomes, the national data ICI collects 
demonstrates that in most States, the overwhelming majority of adults 
with intellectual disabilities are in segregated sheltered workshops or 
day habilitation centers. Washington State's Jobs by 21 Partnership 
Project demonstrated that with effective collaboration between 
counties, schools, supported employment agencies, Vocational 
Rehabilitation and employers during the critical ages of 18 and 21, 
youth can exit school with jobs. The data also demonstrated that the 
most likely indicator of a young adult's ability to have a job after 
school was his or her job status at the time of school exit. Students 
need to be working and have a resume to remain working and advance in 
their careers and wage earning potential after exiting school.
    What can the Federal Government do to provide leadership? The 
Federal statutes and Federal money are not currently aligned in a way 
that we are collaboratively accountable to employment outcomes for 
youth or adults with intellectual and developmental disabilities. There 
is no place to identify what we expect of the different systems, 
Employment and Training Administration, Vocational Rehabilitation, 
Education and Medicaid, where we are collectively accountable to the 
same set of goals and reasonable outcomes of employment. We are not 
working together, we are not leveraging funding and opportunities and 
we are not holding ourselves accountable to the outcome of employment. 
We need to invest in employment, develop cross agency accountability, 
judge agencies similarly and make employment the most attractive 
support States can offer this workforce. To embark on the generation 
that will change the landscape of employment for generations to come, 
we need statutory change that effectively support students with the 
most significant disabilities who are the most difficult to support so 
that every Federal agency is held accountable to youth earning a good 
job and a good wage. If our country aligns its Federal resources and 
accountability to insure that youth with the most significant and 
complex disabilities will be expected and supported to work at a real 
job and earn real wages, we will have this problem solved in two 
generations.
    To close, I have chosen to share just two brief stories that 
illustrate better than any statistic why Federal investments need to be 
redirected to support integrated, living wage employment, and why 
funding for people to be segregated, day in and day out in habilitation 
centers, and not working, is not acceptable.
    From the over 3,000 compelling stories about people working in 
individual, integrated employment in Washington State today, I cite 
these two, one each from the public and private sectors. The first 
story is from the ``early days''. Along with developing jobs in the 
private sector, in large and small businesses, Washington began 
developing jobs in the public sector jobs in the 1980s. One of the 
first public sector jobs specifically carved out was in Olympia, WA, an 
Office Trainee job, a job primarily requiring numerical and 
alphabetical filing. Several people with developmental disabilities 
applied for the job, and Bruce got it. On Friday, Bruce left his job at 
the segregated sheltered workshop, where he had worked for many years 
microfilming State records for archives. Like others at the workshop, 
Bruce was paid there based on productivity, and he legally earned a 
subminimum wage. His monthly earnings in the late 1980s averaged 
approximately $150 a month. On the following Monday, when he began work 
for his new employer, his starting salary earned him a little over 
$1,400 a month, with full holiday, sick, dental, vacation and 
retirement benefits. Bruce was the same guy in both jobs, with the same 
reliable work habits, same cheerful can-do attitude, the same basic 
skills. He needed some support to learn his way around the new job, and 
along with everyone else, his job duties with the State shifted over 
time, but from the first day on the job he didn't need any help 
engaging in elevator banter with his coworkers about the Seattle 
Mariners or the Seahawks. Asked if he wanted to go back to his old job 
at the sheltered workshop, he said ``No way. I like my paycheck. I have 
new friends here. Besides what would they do without me? The filing 
would pile up.''
    Second story: I live in Seattle where Microsoft is a major 
employer, with about 40,000+ employees in the Puget Sound region and 
97,000+ worldwide. Standing on the corner with a morning cup of coffee, 
waiting for the Microsoft Connector transit shuttle to the Redmond 
Microsoft campus, says pretty clearly that you are rolling with the in-
crowd. You work for Microsoft. If Dan Thompson were alive today, and 
speaking before you, you would learn within the first 10 minutes that 
he worked for Microsoft. Dan Thompson's mother, Margaret-Lee Thompson 
said, ``If you can find something people do well, you can connect them 
with a good job.'' Dan was good at putting things in the right place 
and he liked to read. Microsoft's mailroom was a good fit, and he was 
the most accurate and fastest sorter. ``I like my job,'' Dan said, ``I 
work for Bill.''
    Dan Thompson was like many people working for Microsoft, they are 
the best at what they do, and they appreciate having a connection with 
Bill Gates. What was different about Dan is not that he was born with 
Down syndrome or an accompanying medical condition; it was Dan's 
family's expectation that he be included and contribute at home, at 
church, and at school. If Dan's family had expected less, or if he 
lived in another State, Dan may have spent the rest of his days 
segregated from the community, playing BINGO, or maybe watching 
television in a habilitation center. But Dan was a Thompson family 
member, and Dan never set foot in a sheltered workshop. Dan went to 
work at Microsoft, where he was as included and valued at work as he 
was at home. The day after Dan died, the Microsoft campus flag was 
lowered to half-mast. If they were here today, Dan's parents, Margaret-
Lee and Lorin Thompson, might add that what Dan loved best was having 
enough money saved from his earnings to give gifts, to contribute to 
the happiness of his family. His parents would definitely tell you that 
Dan having a good paying job with a great employer was not only the 
best thing for Dan, but for Dan's family. It went pretty well for 
Microsoft, too, he worked there for 14\1/2\ well-paid years.
    As I close, I must say that even as I speak to our successes, the 
fact that Washington's data, statistics and stories, are viewed as 
amongst the best in the Nation, simply serves to underscore the most 
painful aspect of my testimony. More people with intellectual 
disabilities in Washington State may be working and for the most part 
earning better wages than elsewhere in the country, but the average 
annual earnings are still significantly below the Federal poverty 
level. Most people are not yet working full-time, they are not yet 
earning median wage. Too many are unemployed and most are 
underemployed. If Washington State's employment rates and earning for 
this capable sector of America's workforce is the best in the country, 
we have reason to be ashamed, but we can struggle with shame only 
briefly. People relying on us for support need us to act immediately, 
to take every opportunity before us, in legislation and in policy, in 
funding directives and in leadership, to expect better, to do better, 
to hold ourselves and each other accountable, and to do it now. I trust 
that as I testify before you today, you will do what you can to align 
the support, policies and legislation needed for everyone of working 
age to participate in America's workforce, to earn median wage, to pay 
taxes. I trust you will put into motion the leadership needed for us to 
become a country where the question asked of every person of working 
age is not, ``Do you have the rare privilege of working?'' it is 
simply, ``Will you tell me about your job so I can get to know you a 
little better?''

    For more information you may contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afe5cec1caedc0c0c1caefccc0c2cccedcdb81c1cadb">[email&#160;protected]</a>, or the 
Washington State Division of Developmental Disabilities at http://
www.dshs.wa.gov/ddd/.

    Washington's Jobs by 21 Partnership Project--effective school to 
work practices:

    (1) AIDD journal article: Jobs by 21 Partnership Project Report: 
Impact of Cross Systems Collaboration on Employment Outcomes of Young 
Adults with Developmental Disabilities (Winsor, Butterworth, Boone, 
August 2011) is in the attached PDF.
    (2) 2008 Jobs by 21 Partnership Project Evaluation Report by the 
Institute for Community Inclusion (ICI)--click on hyperlink to read.
    (3) 2009 Jobs by 21 Partnership Project Evaluation Report by ICI: 
click on hyperlink to read.

    For the national picture, the best reference is the invaluable 
``State Data: The National Report on Employment Services and 
Outcomes''. That gives an annualized State-by-State picture of Federal, 
State and local funding investment and employment outcomes for adults 
with disabilities. The book is arranged in alphabetical order by State, 
and as such, Washington's data is near the end. While States pay 
attention to, track and report on data slightly differently, the 
national context is very helpful.
    For Washington specific data, the best place to produce reports on 
the State's outcomes is via the interactive Web site: Washington DDD 
Employment Supports Information System. Washington's data and billing 
system are integrated into one reporting system, and this ICI developed 
Web site serves as the outcomes reporting mechanism available to anyone 
with Internet access. Once the query variables are entered, the report 
shows either by trend or summary the number of Washington State 
Division of Developmental Disabilities clients employed statewide, by 
region, by county, and by employment provider, by level of employment 
support need, residence, and type of support received.

    ICI publication: Innovations in Employment Supports: Washington 
State's Division of Developmental Disabilities

    Research to Practice 33a

    As evidence of the positive outcomes associated with integrated 
employment develops it is important to identify policy and practices at 
the State level that expand access to employment opportunity. This 
brief presents findings from Institute for Community Inclusion (ICI) 
case study research focused on State agencies that support individuals 
with developmental disabilities.

    ICI Publication: High-Performing States in Integrated Employment

    Research to Practice 32

    Despite recent improvements, community employment outcomes vary 
widely across States. This report highlights successful practices of 
States that were identified as ``high performers'' in integrated 
employment for people served by State MR/DD agencies.

    (1) Butterworth, ET al., University of Massachusetts/Boston 
Institute of Community Inclusion. 2011 State Data, the National Report 
on Employment Services and Outcomes.
    (2) Winsor, Butterworth, Boone, Jobs by 21 Partnership Project: 
Impact of Cross-System Collaboration on Employment Outcomes of Young 
Adults With Developmental Disabilities, AIDD.
    (3) Washington State Comprehensive Employment Report, 2010: 
Washington Initiative for Supported Employment. (attached to testimony)
    (4) Human Services Research Institute (2012). Working in the 
community: The status and outcomes of people with intellectual and 
developmental disabilities in integrated employment. NCI Data Brief, 
October 2012. Cambridge, MA: Human Services Research Institute. 
(attached to testimony)

    The Chairman. Thank you, Ms. Boone, for a very profound 
statement.
    Next I'll introduce Dr. Michael O'Brien, currently the 
executive director for the Oklahoma Department of 
Rehabilitation Services. He has more than 35 years of 
experience in vocational rehabilitation. He is on the adjunct 
faculty at Langston University. He received his doctorate of 
education from Oklahoma State University in occupational and 
adult education and his master's of education from Chadron 
State College in career and vocational guidance.
    He is a published author and has more than 130 
international, national, regional, and State presentations and 
publications to his credit. A four-time Institute for 
Rehabilitation Issues national scholar, he served as the chair 
of the 30th IRI. Also, my notes tell me that prior to this, he 
was associate professor of rehabilitation and special education 
in New Mexico at New Mexico Highlands University, and prior to 
that was a professor with the Department of Rehabilitation 
Medicine at the University of Washington School of Medicine.
    Welcome, Mr. O'Brien, and please proceed.

   STATEMENT OF MICHAEL O'BRIEN, Ed.D., CRC, CVE, EXECUTIVE 
   DIRECTOR, OKLAHOMA DEPARTMENT OF REHABILITATION SERVICES, 
                       OKLAHOMA CITY, OK

    Mr. O'Brien. Thank you. Good afternoon, Chairman Harkin, 
Ranking Member Alexander, and members of the committee. I 
really appreciate the opportunity to talk about this subject. 
As you said, I've spent 35 years. It's been my passion and my 
career to be a part of this.
    I am the director of the Oklahoma Department of 
Rehabilitation Services. But I also have previously been the 
director of the Washington Division of Vocational 
Rehabilitation Services, and I've served in two other States. I 
come to this with information from multiple settings. Also, 
today, what I'm going to try to do is give you two examples 
that encapsulate many of the things that I talked about in my 
written testimony rather than just specifically rely on that.
    To assure innovation for people with disabilities and to 
assure employment and opportunities for people with 
disabilities, I think that I need to focus on two concepts 
today. The first is high expectations, and the second is a 
dedicated presence. I'd like to share an example with you of a 
young man who works for me, and with his permission, he has 
allowed me to share this story.
    His name is Jason Price, and he works for me. He was born 
with cerebral palsy and currently is a power wheelchair user, 
and he requires some attendant care. He was born in Dover, OK, 
which is in the northwest part of the State and has roughly 250 
people to account for its population. His family is in the oil 
field business. From the beginning, his family had high 
expectations that he would both work and live independently.
    He attended a school where his teacher and his family 
expected him not only to attend, but to graduate. His family 
and his school expected that he would go to college. So he 
learned to expect that himself from the very beginning. He 
applied for vocational rehabilitation services, and his 
counselor had high expectations that he would graduate from 
college and that he would go to work.
    Jason did go to work. He became a public information 
officer at the Department of Rehabilitation Services, working 
for us. As any employer would, we made the appropriate 
accommodations, bought the right software, and positioned him 
to be able to do his job. But we had high expectations that he 
would do a good job.
    His family had expectations that Jason would live 
independently. He is. He's a father. He's a husband. He's a van 
owner, a homeowner, a professional, and, in his favorite 
phrase, a taxpayer. Jason had additional expectations of 
himself. He wanted to make a difference. So he returned to 
graduate school, earned a master's degree in rehabilitation 
counseling, became a certified rehabilitation counselor, became 
a social security expert, became a manager and a supervisor for 
us, and he now supervises some of the model programs that are 
noted in my written testimony.
    He supervises the Ticket unit, the Benefit Planners unit, 
and the Cold Case unit. And last year, through his assistance 
with his team, they were able to generate almost $2 million in 
social security reimbursement because of the number of people 
that they were able to convince to choose work over benefits, 
and social security reimbursed our agency for those people 
going back to work.
    Jason is a rehabilitation leader and a change agent. Yes, 
he needed accommodations. Yes, he will tell you he needed 
vocational rehabilitation services. But he will tell you it was 
the high expectations from the first moment that was his 
greatest asset in making choices to work. He did receive social 
security benefits, but he chose to leave them.
    His family expected highly of him. His school expected him 
to be successful. Vocational rehabilitation supported his 
efforts and expected him to be successful, and he expected it. 
He went from being a social security recipient to a taxpayer to 
an individual whose primary job now is to help other people 
leave the disability roles.
    Too often, high expectations don't exist for people with 
disabilities, students or adults. Families are afraid of losing 
benefits, and so they might let students participate in the 
services, but when it comes time to choose work, they choose 
not to. Businesses and schools are not always confident that 
the person with a disability can work. Someone has to create 
that message, that high expectation. When these things are in 
place, it's easy for the person to choose benefits and not 
working than it is to choose working over those services.
    I think if we could affect just one thing from today's 
testimony, it would be to introduce high expectations at the 
earliest possible point in our school systems. That might be 
the most innovative thing that we could create, high 
expectations from the beginning.
    The second concept that I want to talk about that 
incorporates some of the other ideas we've looked at is what I 
call dedicated presence. Innovation occurs because someone is 
focused on the issue and trying to create success. Each 
presenter here today has brought forward innovative practices 
because they and the people around them focused on 
opportunities for people with disabilities that would be unique 
and that would advance what we're looking forward to.
    Governor Markell has brought national attention to 
employment for people with disabilities by making it the focus 
of the NGA. In my own State, Governor Fallin has allowed us to 
be innovative and works with us so that we could make this same 
focus. In each case, there's been a dedicated presence to these 
issues and a knowledge to offer change.
    As a VR director, my most frequent experience, regardless 
of whether I'm at a workforce board, whether I'm in the 
schools, whether I'm meeting with business and other agencies 
across the State, is that when I walk in the room, I'm 
typically the only one who is focused on inclusion of people 
with disabilities at that meeting. I am that dedicated 
presence.
    At the counselor level, they tell me that that's true 
locally as well. It's not my opinion that workforce, business, 
schools, and other agencies are unwilling or uninterested. It's 
just that disability is not continuously on their radar. 
They're more than happy to be inclusive. They're more than 
happy to provide accommodations. And they're certainly willing 
to hire people with disabilities.
    I think that the issue of employment for people with 
disabilities cannot be handled generically. There has to be a 
dedicated presence. I discussed in my written testimony the 
Career Pathways model. In it, we were allowed to include people 
with disabilities as part of the State Career Pathways, but it 
was because we were at the table. I'm a voting member at the 
State table, and at the local table, we were able to be 
present. That dedicated presence brings forward the issue of 
disabilities.
    To ensure employment at the highest levels for people with 
disabilities, I believe there have to be dedicated resources 
exclusively for people with disabilities, dedicated presence to 
provide focus, and dedicated partnerships. Obviously, as the 
director of a State agency, I believe that this can best be 
accomplished by people with disabilities in partnership with 
innovative people in public agencies.
    I appreciate the time to present today, and I thank you for 
this opportunity.
    [The prepared statement of Mr. O'Brien follows:]
         Prepared Statement of Michael O'Brien, Ed.D., CRC, CVE
                                summary
    As the director of the Oklahoma Department of Rehabilitation 
Services, I have had the opportunity to have multiple experiences 
related to promising practices in public vocational rehabilitation. 
This testimony provides a description of innovative practices that have 
been implemented in Oklahoma. Although many of these originated in 
Oklahoma, some have been borrowed from other successful enterprises and 
initiated in Oklahoma. Innovations in four particular areas will be 
shared: transition services for students with disabilities, helping 
people navigate disability benefits and choose work, working with 
business and interagency and public-private partnerships.
    Oklahoma has a positive environment that allows business and 
government agencies to work together. This environment is enhanced by 
the Department of Rehabilitation Services (DRS) being a full voting 
member of the Governor's Workforce Board and by DRS being represented 
on all local workforce boards. Employment opportunities for people with 
disabilities are enhanced by the encouragement of Governor Fallin for 
the partnerships to be successful. This is exemplified in the increased 
number of people DRS has been able to help to go to work over the past 
4 years.
    Several specific projects are discussed. DRS studied its own 
placement history and compared it to current business and industry 
trends and has begun a new process of assuring that client goals can be 
aligned with where the real opportunities for work exist. Partnership 
with the Governor's Workforce Board on the statewide Career Pathways 
Initiative is presented. Transition age youth projects are highlighted 
by four examples: paid work experiences, TechNow (helping students get 
into technology-related jobs), a transition program for juvenile 
offenders, and Project Search (partnership with business, schools and 
DRS). Two programs related to Social Security issues are presented. 
They include the Benefit Planner program and the Ticket program. Other 
innovative projects include the National Employment Network, The 
American Indian Vocational Rehabilitation partnerships and a new type 
of unit called the Cold Case Unit is presented.
    Several recommendations are presented at the conclusion. A proposal 
for transition services is provided. Also discussed is the current 
system focus on people continuing benefits rather than choosing work. A 
specific recommendation for enhanced partnership between Social 
Security and public rehabilitation is presented. Possible rule changes 
related to the Rehabilitation Services Administration and utilization 
of reallotment dollars for supported employment or innovation is 
discussed. It is recommended that there needs to be continued dedicated 
funds specifically for people with disabilities to be served by 
qualified practitioners. Finally, a recommendation to enhance career 
planning for students with disabilities in future legislation is 
provided.
                                 ______
                                 
    Good morning Chairman Harkin, Ranking Member Alexander, and members 
of the committee. My name is Mike O'Brien and I am the State director 
of the Oklahoma Department of Rehabilitation Services. I am extremely 
grateful to the committee for having the opportunity to share with you 
today some innovative practices we have implemented in Oklahoma that I 
believe could be of benefit to other States. Some of these practices we 
created and others we borrowed from other partners because they were 
effective. I would like to share innovations in four areas in 
particular: transition services to students with disabilities, helping 
people navigate disability benefits and choose work, working with 
business, and inter-agency and public-private partnerships.
    I have been a rehabilitation practitioner for more than 35 years. 
My professional experience has included work as a rehabilitation 
counselor in the public and private sector, vocational evaluator, 
university professor of rehabilitation counseling and special education 
and director of two State vocational rehabilitation agencies 
(Washington and Oklahoma). I hold an earned doctorate in occupational 
and adult education and am nationally certified as a rehabilitation 
counselor and vocational evaluation specialist. Currently, I am 
president-elect of the Council of State Administrators of Vocational 
Rehabilitation. I have been fortunate to see vocational rehabilitation 
from many sides and am confident people with disabilities will be 
served well through the on-going and future efforts in the public 
program.
    I was very excited to return home to Oklahoma in December 2008 as 
the director of the Department of Rehabilitation Services. I had 
previously worked in the agency and with many of the State partners. I 
believed there was an opportunity to move the organization forward 
because of the potential for interagency cooperation and business 
partnerships that existed in Oklahoma. However, we were facing our 
worst performance year as an agency; we were mired in long waiting 
lists and needed to change how we did business. In Oklahoma we are an 
independent department and do not report to a parent agency. This gives 
us greater flexibility for innovation and rapid change. This makes us 
peers with all other agencies and creates the capacity for full 
partnership on equal ground. Since returning I have had the strong 
support of Governor Fallin, the Governor's Workforce Board (as a voting 
member), and many agency partners. Governor Fallin has encouraged the 
agencies to partner on issues for people with disabilities. During that 
first year we only achieved a little over 1,600 successful closures 
(successful placement in a job for at least 90 days); however, since 
that time we have had 2 of our best 3 years ever and last year achieved 
over 3,000 closures. We have been able to achieve success with a 
discrete population and limited resources (in Oklahoma, there are about 
580,000 people with disabilities and we can serve 15,000-17,000 at any 
given time). Below are several innovative projects that have helped 
increase employment of VR consumers with disabilities in Oklahoma. I 
have also identified several concerns and hopes I have for the future.
                   working with business and industry
    It has become more and more evident that perhaps the most critical 
partner to successful innovations serving people with disabilities is 
the business community. Employers must be seen as a full partner that 
not only hires the consumers we serve, but helps the agencies clearly 
understand local business needs. We recently did a small study looking 
at what kind of jobs our consumers were getting. We worked with the 
State workforce board to make sure we had a clear understanding of what 
industries were the growth sector industries and where future jobs 
would likely be. We discovered a disconnect between some of the jobs we 
were preparing people for and where the opportunities for these jobs 
actually existed. Many of our clients were being placed in service 
industries, customer service, food service, cashiers and clerical 
positions. When we looked at the Oklahoma labor market, the current and 
future job openings were in medical fields, the energy industry, 
technology and manufacturing. These jobs pay better, but employers have 
specific training needs for people to move into these jobs. By 
reviewing this information we have now made some changes in our 
practices. We have local business advisory boards being established. We 
have also looked at our career planning activities and initiated 
training that we think will help the local counselor align career 
planning with local job opportunities.
                      serving transition-age youth
    Transition is particularly important. Research reported by the 
National Collaborative on Workforce and Disability for Youth \1\ 
suggests that if students have positive experiences early on and are 
provided with work-based experiences (paid or unpaid) while still in 
school they are likely to experience reduced dropout rates, increased 
school attendance and more likely to go to college or to work, compared 
to their peers. Work-based learning experiences are particularly 
important for students with disabilities. Students participating in 
these experiences are more likely to be competitively employed than 
their peers and earn higher wages. If they are able to achieve better 
wages they will be less likely to use Social Security Disability 
Insurance (SSDI) and Supplemental Security Income (SSI).
---------------------------------------------------------------------------
    \1\ Engaging Youth In Work Experiences: An Innovative Strategies 
Practice Brief located at http://www.ncwd-youth.info/innovative-
strategies/practice-briefs/engaging-youth-in-work-experiences.
---------------------------------------------------------------------------
    We believe that having a statewide coordinator of transition 
services helps our agency improve employment and post-secondary 
outcomes for students with disabilities. There are four transition 
programs in Oklahoma that I would like to highlight. In Federal fiscal 
year 2007, Oklahoma had 1,080 paid work experiences for transition-age 
youth. By 2011, with the support of ARRA funds, this number had risen 
to 1,861 paid work experiences. Even during 2012, after ARRA funds went 
away and the agency had extensive waiting lists, there were 1,244 paid 
placements. These occurred because our statewide coordinator had 
managed to create contracts with local school districts across the 
State that resulted in high school students with disabilities obtaining 
paid employment (typically 10 hours per week at $7.25 per hour during 
the school years with additional employment opportunities in the 
summer). These jobs occur in a variety of settings including 
partnerships with local businesses. Students are paid through 
agreements with local schools, career technical centers or through 
temporary employment agencies.
    Another successful program focusing on this population is TechNow. 
TechNow is an innovative program that begins working with students 
during 9th or 10th grade. This program is a partnership between 
vocational rehabilitation, career technology centers and local school 
districts. It is an effort to help transition students think about jobs 
in technology-related fields and in business. Students are taught 
marketing, sales and other skills. They learn to operate current 
business software to develop these skills. As part of this program 
students create banners, brochures, cereal boxes, cars and other 
projects. They then market the products in a statewide competition. 
Local businesses sponsor the competition and work with the students. 
Although TechNow has operated since 1999, our agency has only been a 
partner for 4 years.
    Three years ago we established a pilot project where we became a 
primary partner in the project. Our main reason for increasing VR's 
involvement in this program was based on the project's graduation rates 
exceeding 94 percent since the inception of the program. In a State-by-
State report from the Department of Education (2012), graduation rates 
for students with disabilities vary from a low of 23 percent to a high 
of 83 percent (with more than half below 60 percent) for students with 
disabilities.
    High school graduation is particularly important when considering 
the labor market future of students with disabilities. According to a 
report from the group Advocacy in Action, high school dropouts earn 
less than high school graduates across their lifetime, perhaps as much 
as $270,000 (Goodman, Hazelkorn, Bucholz, Duffy & Kitta, 2011). 
Graduation rates at TechNow are very promising for students with 
disabilities. By piloting this project and becoming involved at an 
earlier age with these students we believe we can connect them to work-
based experiences while still in school and increase their likelihood 
of post-secondary training and/or employment. We also believe we can 
match them to better career opportunities in technology-related 
businesses. Over 400 students have been through this program. 
Additionally, many students earn scholarships to local career 
technology centers and area colleges.
    A multiagency partnership was initiated about 18 months ago between 
Oklahoma Department of Rehabilitation, the Office of Juvenile Affairs, 
a local career technical center, the Oklahoma Commission for Children 
and Youth, and local one-stop employment center. This project works 
with juvenile offenders who have disabilities and who are in a secure 
facility. VR counselors are able to take applications for this 
population while they are still in the facility, initiate an 
individualized plan for employment, provide career counseling, assist 
with payment of on the job training (OJT) while still in the facility, 
and then followup with the students after they are released to their 
home communities. It is a relatively new program, but all the partners 
have brought resources to the table. About 50 students have 
participated in this project thus far. A recent client in the program 
exemplifies its importance. He was exiting the program and wanted to 
have a career as a welder but could not get accepted to the training 
program. He also had housing issues. With the efforts of his 
rehabilitation counselor he was able to find local housing and get 
admitted to school. He is currently in training and doing well. If he 
had not had assistance from VR, he would not have been admitted to 
training or obtained his current housing. Early results have shown less 
recidivism for these youth; however, it is too early to make long-term 
projections since this is a population doubly at risk due to disability 
and legal problems. We believe it has great promise because of the 
multiple partners working together to wrap services around these 
individuals.
    Project Search is a national program that many agencies across the 
country are working with to find successful employment for students 
upon graduation. In Oklahoma we have managed to have success both in 
urban and rural communities. Project Search exclusively focuses on 
students with intellectual disabilities and on helping these students 
become competitively employed. It is a program where students work as 
interns in a business. Project Search is considered a formal class and 
students will spend a large share of the school year working in the 
business. Although it originated in hospital settings, we have expanded 
it to other businesses, most recently to Chesapeake Corporation, a 
major energy provider. Job coaches work with the students to develop 
skills and good work habits. When a student completes the internship 
they begin the job search process. Perhaps the most exciting part of 
this work is that students are exposed to good jobs and career 
opportunities. Employment rates vary by facility but most have between 
60 percent and 90 percent success. Often the company where the student 
interned offers a job to the successful student.
 addressing the fear of losing benefits and helping people choose work
    A significant barrier to work for people with disabilities (both 
adults and students) is the perception about loss of benefits, 
particularly medical coverage. It has been our experience that many 
people want to work and will choose work if they understand what will 
happen with their benefits and can plan effectively. The Social 
Security Administration (SSA) had a program for several years where 
there were ``Benefit Planners'' who worked with beneficiaries to 
understand implications of going to work. It has since been 
discontinued. Although it was generally helpful, we discovered many 
benefit planners helped people to choose work but to earn only enough 
money so they could retain benefits. This essentially did not position 
people to get good jobs where they could leave the SSDI/SSI roles. In 
Oklahoma, we created a benefit planner program; however we made two 
critical changes from the SSA program. First we try to refer every 
consumer who receives SSDI/SSI to a benefit planner who will focus on 
choosing work. The consumer can make a real choice about work rather 
than earning an amount below the level where they would lose benefits. 
If the jobs offered consumers are quality jobs, they can choose work. 
The second change we made was to ensure that the benefit planners had 
expertise in other areas, not just social security. Our benefit 
planners are knowledgeable about social services, veteran's services, 
housing benefits, etc. When we started this program we had a little 
over 50 people leave the social security roles, however this past year 
almost 160 left the roles and we continue to see growth in the program. 
We are certain it is a model that can be successfully replicated.
    As part of our focus on Social Security we have also created a 
``Ticket-to-Work'' team. Ticket-to-Work is a program that can be used 
by SSDI/SSI recipients to attempt to go to work and leave the roles. 
Individuals can work with the State vocational rehabilitation agencies 
or they can work with private providers called employment networks 
(ENs). Employers, One-stop centers, community rehabilitation providers 
and a host of others can become ENs. The application process can be 
overwhelming and we had a very restricted number of ENs in Oklahoma. 
Our Ticket unit was created to partner with businesses, One-stop 
centers and others to make it easier for them to become Employment 
Networks for Social Security's Ticket to Work efforts. We help the 
business prepare the applications, provide training, work with the 
potential ENs on the services they need to be able to provide the 
individual after VR services are completed, so that they can remain 
stable on the job. The VR case is closed after 90 days of successful 
employment, but the person does not leave the SSDI/SSI roles until they 
have had at least 9 months of gainful employment. By partnering with 
ENs they can follow the individual for a much longer period of time and 
assist with long-term job stability. As an example, we have been able 
to partner with HERTZ Corporation as an EN. We would like to work with 
Social Security to partner with other employers in Oklahoma to become 
ENs. We continue to help develop other potential ENs. With the longer 
term followup, we believe it will ultimately help beneficiaries leave 
SSDI/SSI roles.
                  leveraging interagency partnerships
    In Oklahoma, the rehabilitation agency is fortunate, because as the 
agency director I am a full voting member of the Governor's Workforce 
Committee. This means that I am at the table with all of the agencies 
and businesses when programs are developed and decisions are made. We 
also have representation on every local Workforce Board and every Youth 
Council. This is not the case in all States. There are States where the 
vocational rehabilitation agency is represented on the State Workforce 
Board through their parent agency. We have been able to use board 
partnerships to increase opportunities for people with disabilities to 
access employment across the State.
    A good example of this partnership is reflected in the statewide 
Career Pathways initiative and in the specific pilot of Career Pathways 
in Duncan, OK. This model is a collaboration between workforce partners 
(through the Workforce Investment Act), local schools and local 
businesses. At a statewide level we are affecting policy and helping to 
develop the model. In this model schools begin a career development 
process in 6th grade that continues for students through high school. 
The process includes career guidance, work experiences, career 
exploration and businesses coming to the school to work with students 
and the faculty. Exposure to local jobs is provided. The local One-stop 
Center is a resource and repository of local jobs. Vocational 
rehabilitation is also at the table. Although this program is for all 
job seekers, VR is a key player. I am able to be a part of every policy 
decision and offer my expertise about disability and related concerns. 
At the local level, the VR counselor serves on the board but is also a 
key resource to students and adults with disabilities as they move 
through their career pathway process. Knowing where the jobs are and 
what employers expect helps vocational rehabilitation and the schools 
better prepare job seekers to make career decisions.
    A national business model known at The NET (National Employment 
Team) was started by The Council of State Administrators of Vocational 
Rehabilitation. The NET is a one-company approach to serving a variety 
of businesses through the national network of the 80 publicly funded 
vocational rehabilitation (VR) programs. The NET offers business 
customers, in the private and public sectors, a designated single point 
of contact to connect qualified applicants, resources and support 
services in their local area, multi-State or national marketplace. The 
NET provides employment supports in all 50 States, the District of 
Columbia and the territories. Employers across the country have had 
very positive experiences filling jobs with qualified candidates for 
employment from the pool of workers available through The NET. At a 
national level, examples include, the Internal Revenue Service (IRS) 
that has hired 111 people in 31 States and 556 VR consumers hired with 
Lowe's across the country in fiscal year 2012. On a much smaller scale 
Oklahoma has had recent hires through The NET with JLodge, Convergys, 
Pearl Interactive, and Tinker Air Force Base. The Oklahoma VR Agency 
has also initiated a project with Walgreens as a result of The NET.
    Oklahoma VR has additional partnerships with whom we have worked 
well. There are 25 States that have American Indian Vocational 
Rehabilitation (AIVR) agencies. There are 9 tribal programs in Oklahoma 
and over 80 across the country. We are able to cost share consumer 
services and other resources to help tribal members with disabilities 
go to work. To date we have co-served more than 700 clients with AIVR 
programs in Oklahoma. VR started a new program 2 years ago with three 
of the tribal programs. We contract for job placement services, both 
for tribal members and non-tribal members. Contracting for services 
that apply to non-tribal members is unique to Oklahoma. Many of the 
tribes are amongst the largest employers in the State. By working 
together we have been able to open an entire new area of employment 
opportunities. By sharing resources and expertise we are able to expand 
the capacity of both programs. We are also able to increase services to 
an underserved group of people and create long-term partnerships.
                    managing cases more effectively
    One of the challenges of managing large caseloads and working under 
an Order of Selection (OOS) (putting clients on a waiting list when 
there are not enough fiscal or staff resources to serve everyone), is 
that some applicants for VR services get lost along the way or simply 
drop off the wait list. The Rehabilitation Services Administration has 
cited Oklahoma's ``Cold Case Unit'' as a model to solve this problem. 
We created a unit in VR whose sole purpose is to find and contact these 
consumers and to get them re-established in services or close their 
cases so that the resources can be assigned to others. The project has 
been so successful it is now being replicated in at least 5 other 
States. It has helped us to resolve over 1,000 cases. Of these, more 
than 600 people have been able to restart the rehabilitation process 
again in earnest. One of the counselors in this unit actually helped 
save a life. He arrived at the client's home and saw her small child 
playing in front of the house and asked to check on her mother. He 
discovered they were out of food and that the mother had been bedridden 
for several days. The counselor was able to help her get her medical 
needs attended to and to get assistance from social services. After her 
immediate needs were met, the VR counselor was also able to get her 
involved in training and working toward her employment goal.
    There are other innovative programs that are being developed all 
over the country. We are working with other States on a number of 
projects . . . reaching across State lines to jointly solve problems. I 
am certain that partnerships of all kinds will be what drive innovation 
for agencies serving people with disabilities. If you look at all of 
our projects, in every single case, partnership created the success. We 
will need to reach out more to business and industry, across sister 
State agencies, schools, and across State lines if we are to continue 
to have success in helping people with disabilities find work.
                    recommendations--moving forward
    As I look to the future of serving people with disabilities, I am 
convinced that the public vocational rehabilitation program is the best 
entity to assure good jobs, career opportunities and bright futures. To 
achieve Chairman Harkin's goal of increasing the size of the disability 
labor force by more than 20 percent by 2015, I believe there are some 
critical actions that need to happen.

    <bullet> Transition and early intervention are critical to the 
long-term success of students with disabilities. However, this cannot 
happen at the expense of serving adults who acquire disabilities. We 
have dedicated a number of new efforts to transition age youth (many 
with the help of ARRA funds, which have now had to be reduced without 
those funds). If we are to continue to be successful, there will need 
to be dedicated resources to serve transition students, and schools 
will need to actually fulfill their obligations to transition students. 
Additionally because each State is so different in the types of 
partnerships with schools, businesses and other agencies, I do not 
believe there can be a single national model. States will need to 
aggressively develop a model that meets their needs based on State 
resources and partnerships.
    <bullet> Our country spends far too much money on maintaining 
people with disabilities outside the workforce and a very small amount 
on encouraging people with disabilities to work. If you combine the 
annual costs of SSDI, SSI, Medicaid and Medicare, we spend roughly $400 
billion on safety net supports and about $4 billion helping people with 
disabilities build their skills and go to work. We need an early 
intervention system with social security that positions people to be 
referred to vocational rehabilitation at the on-set of disability and 
that encourages work rather than long-term receipt of income supports. 
This means that current Social Security Work programs such as Ticket-
to-Work need better alignment and cooperation with the public 
vocational rehabilitation program. We continue to be the most 
successful program in putting people with disabilities to work. Why not 
increase our participation? Once people become entrenched in the 
system, it becomes difficult for them to choose work. It is a much 
longer discussion, but disincentives have got to be resolved, 
particularly issues with Medicare and Medicaid, so that people can 
choose work.
    <bullet> Every year States return money to the Rehabilitation 
Services Administration. It is not because the money is not needed; it 
is because many States cannot meet their Federal match requirements. 
The money is redistributed through a re-allotment process for States 
that can match the dollars. The problem is that the rules make it 
difficult for all the funds to be used and this past year money was 
returned to the treasury. This is money that could have been used to 
help people with disabilities go to work. There are two considerations 
that have merit in resolving this problem. The first is to amend the 
Rehabilitation Act to allow unmatched Federal funds to go to supported 
employment which does not require a State match. Recent data collected 
by the Council of State Administrators of Vocational Rehabilitation 
(CSAVR), with just 35 State VR agencies reporting to date, revealed 
expenditures of more than $80 million of title 1 VR funds on supported 
employment. If unmatched Federal funding, following a reallotment 
process, could be targeted to supported employment, more title 1 funds 
would be available to serve greater numbers of transition youth. A 
second alternative for consideration would be to allow unmatched 
Federal funds to be available for various innovation efforts. Projects 
could be attempted that have the potential to change how VR provides 
services in dynamic ways.
    <bullet> When ARRA funds were available, the Oklahoma agency was 
able to serve all individuals who applied for services for the first 
time in years. There were no waiting lists for services; rather, 
services were increased, and dramatically greater numbers of VR 
consumers went to work. The advantage of ARRA funds was that there was 
no match requirement. For Oklahoma it was $7,000,000 that changed VR's 
whole business. The availability of some funding that does not require 
State match could make dramatic difference in increasing the number of 
VR consumers with disabilities who go to work.
    <bullet> I also believe it is essential that there remain dedicated 
funding for services for people with disabilities and qualified 
vocational rehabilitation staff to provide these services. I remain 
fearful that if vocational rehabilitation is seen as just a jobs 
program it will have a long-term negative impact on people with 
disabilities. We are not just a jobs program; we are a group of 
uniquely qualified and dedicated people who make a difference in the 
lives of people with disabilities seeking employment.
    <bullet> I believe there must be a renewed focus on career 
counseling and planning activities at all levels. I think there has to 
be an expanded focus in IDEA legislation. Effective career planning is 
a game changer for any job seeker, but is even more important for a 
person with a disability to get the right job match. Effective career 
counseling in the schools and resources to provide it is essential; 
however, it has to be considered as a critical need and may require 
this committee's leadership to have this need included in future 
legislation.

    Thank you for the opportunity to provide this testimony and I look 
forward to any questions or comments you might have regarding its 
content.

    The Chairman. Thank you, Mr. O'Brien.
    Now we will turn to Mr. Don Uchida, who was also introduced 
earlier by Senator Hatch. I might just add that he was 
appointed the executive director of the Utah State Office of 
Rehabilitation in April 2006. He has a bachelor's degree in 
psychology from Weber State College and a master's degree in 
special education from Utah State University. He has worked in 
vocational rehabilitation for over 44 years--he beat your 
record, Mr. O'Brien--as a rehabilitation counselor, supervisor, 
district director, field service coordinator, division 
director, and his present position as executive director of 
Utah's State Office of Rehabilitation.
    Mr. Uchida, welcome and please proceed.

 STATEMENT OF DONALD R. UCHIDA, EXECUTIVE DIRECTOR, UTAH STATE 
          OFFICE OF REHABILITATION, SALT LAKE CITY, UT

    Mr. Uchida. Good afternoon, Chairman Harkin, Ranking Member 
Alexander, members of the committee. And I want to give a 
special thank you to Senator Hatch. My name is Don Uchida. I'm 
the executive director of the Utah State Office of 
Rehabilitation.
    I appreciate the opportunity to speak to the committee 
about some innovative programs we have in Utah that we feel can 
be replicated with similar success in other States. There are 
three critical factors that will facilitate implementing these 
ideas and achieve increased numbers of people with disabilities 
going to work.
    The first factor is to have empowered, dedicated staff. 
Almost all of these ideas came from our staff. The second 
factor is having strategic partnerships with agencies, 
organizations, and businesses that have a common vision of 
employment for people with disabilities. The third factor is 
having a supportive Governor and a State legislature.
    Vocational rehabilitation, or VR, is a revenue generating 
program. We run the program like a business. Utah's VR program 
is one of the most productive and cost-effective programs in 
the Nation.
    Now, the partnerships. The first one I'd like to talk about 
is with our workforce agency. It's called Choose to Work Utah. 
This is where we co-fund 22 job development, job placement 
specialists that are strategically placed statewide, and they 
exclusively serve people with disabilities. There is no 
overlap. There is no duplication of effort.
    The second partnership I'd like to mention is with the 
Developmental Disabilities Agency. This partnership was created 
because we had two problems. No. 1, they had a growing wait 
list for their Medicaid waiver services. And our problem was we 
needed long-term funding for supported employment. The 
legislature passed a bill that provided long-term State funding 
for supported employment. So we took the people off the DD 
waiting list, and we moved them into supported employment, and 
we got them working.
    A third example is the Utah Defendant Offender Workforce 
Development Task force, or UDOWD. This is a partnership that we 
have with the correctional system in the State of Utah. And the 
goal is to take offenders with disabilities, get them employed, 
and maintain their employment so they can become productive 
members of society.
    A fourth partnership is with our workforce agency and our 
health department. It's called Utah's Work Inventive Planning 
Service, or UWIPS. Regardless of where the funding comes from 
or what the funding source is, what agency it comes from, we 
control all of the benefits planning staff. That way, we have a 
coordinated, statewide, strategically placed staff that give a 
consistent message. And that message is ``These are the work 
incentives and the safety nets that are available if you decide 
to work at a level that will reduce or eliminate your 
benefits.'' This has led to a high number of people on SSI and 
people on SSDI in the State of Utah to go to work.
    Our fifth partnership is with the Greater Salt Lake City 
Chamber of Commerce, and the program is called Disability 
Friendly Business. This is where our staff works with business 
owners where they try to get the businesses to be more 
accessible and accommodating to people with disabilities.
    When they finish the training, they sign an agreement with 
the Chamber of Commerce, they pay a small fee, and then they 
get these Disability Friendly stickers that they can put on 
their doors, just like you put your membership to the Chamber 
or the Rotary Club or ``we take Visa and American Express'' or 
whatever. And the idea behind this was if the businesses get 
more people with disabilities coming in as customers and better 
their bottom line, they may be more inclined to hire somebody 
with a disability.
    And, finally, gubernatorial and legislative support. In 
2007, our Governor signed an executive order designating the 
intent of the Utah State Government to be the model employer 
for people with disabilities. In 2010, our legislature created 
the Alternative State Application Process, or ASAP. This 
program is based on the Federal Government's Schedule A 
program.
    In conclusion, vocational rehabilitation is a successful 
program that creates productive citizens with disabilities in 
the workforce. We've found partnerships to be key in Utah. They 
lead to cost-effective relationships that sustain current and 
future employment options for people with disabilities.
    Again, thank you for the opportunity to share these ideas, 
and I'd be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Uchida follows:]
                 Prepared Statement of Donald R. Uchida
                                summary
    There are three critical factors that will facilitate the 
implementation of innovative ideas that will increase the numbers of 
people with disabilities achieving employment outcomes. They are: 
dedicated, empowered staff; strategic partnerships with agencies, 
organizations and businesses that have a common vision of employment 
for people with disabilities; and having a supportive Governor and 
Legislature.
    Vocational Rehabilitation (VR) is a revenue generating program. We 
run it like a business. Utah's VR Program is one of the most productive 
and cost-effective programs in the country. A University of Utah study 
in 2010 showed that for every dollar the State invested in Utah's VR 
Program there was a $5.64 return.
    Partnership with our Workforce Agency. It is called Choose to Work 
Utah (CTW). We co-fund 22 employment specialists who develop and place 
people with disabilities into jobs. Their work is coordinated so there 
is no duplication of effort. In fiscal year 2012, CTW placed 617 people 
with disabilities into employment.
    Partnership with Developmental Disabilities Agency. This was 
created to address two problems: they had a growing wait list for 
Medicaid Waiver Services and we needed long-term funding for supported 
employment. The Legislature passed a long-term funding bill for 
supported employment. We took people off the back end of the waiting 
list and put them into supported employment so they began working and 
not just sitting and waiting collecting SSI payments. Since we received 
funding in fiscal year 2012, 84 people with significant disabilities 
are working in supported employment.
    Partnership with Utah Defendant Offender Workforce Development Task 
force (UDOWD). This was between the correctional system and VR, with 
the goal of assisting offenders with disabilities to obtain and retain 
employment and to become productive members of society. In fiscal year 
2012, 544 offenders with disabilities were placed into employment.
    Partnership with Workforce and Health Department. Utah Work 
Incentive Planning Service (UWIPS). We control all the work incentive 
planning staff. Statewide coordinated coverage with a consistent 
message of ``these are the incentives and safety nets available to you 
if you decide to work at a level that will reduce or eliminate your 
Social Security benefits''. In fiscal year 2012, 671 people on SSI/SSDI 
achieved an employment outcome.
    Partnership with Business. We are members of a national employment 
network called the NET, but one partnership that is unique to Utah is 
with the Greater Salt Lake City Chamber of Commerce. It is called 
Disability Friendly Business. Staff work with business owners to help 
make their businesses more accessible to people with disabilities. When 
they complete the training and sign the agreement, they get a 
certificate and ``Disability Friendly Business'' stickers they can 
display like Chamber memberships, Rotary, VISA, Master Card, etc. The 
idea behind this is that if more people with disabilities frequent 
their business, they may be more inclined to hire people with 
disabilities. Estimate due to self report: 44 hired by Disability 
Friendly Businesses.
    Finally, support from our Governor and Legislature. In 2007 our 
Governor signed an Executive order ``Designating the Intent of Utah 
State Government to be the Model Employer for People with 
Disabilities''. In 2010, our legislature created the ``Alternative 
State Application Process'' (ASAP). This program is modeled after the 
Federal Schedule A Program where an otherwise qualified person with a 
disability can bypass the usual competitive application process and can 
get hired through a trial work period. Although much of the State has 
been on a hiring freeze or even cut backs, Division of Human Resource 
Management reported eight hires through ASAP.
    Vocational Rehabilitation is a successful program that creates 
productive citizens with disabilities in the workforce. We found that 
partnerships are key to success in Utah. They lead to cost-effective 
relationships that sustain current and future employment options for 
people with disabilities.
    Thank you for the opportunity to share these ideas.
                                 ______
                                 
    Good morning Chairman Harkin, Ranking Member Alexander, and members 
of the committee, with a special ``Thank You'' to Senator Hatch. My 
name is Don Uchida. I am the executive director of the Utah State 
Office of Rehabilitation (USOR). I started working for the agency in 
1968 as a vocational rehabilitation counselor. Later, I was promoted to 
supervisor, then district director, field services director, division 
director and in 2006, I was appointed to my current position as 
executive director of the agency. I am also the parent of an adult 
child with multiple disabilities. I truly appreciate the opportunity to 
speak to the committee about some innovative ideas we are implementing 
in Utah that we feel may be replicated with similar success in other 
States.
    The primary purpose of USOR and other rehabilitation agencies 
throughout the country is to get jobs for people with disabilities. The 
2012 Annual Compendium of Disability Statistics indicates that Utah has 
the smallest difference or gap between the percentages of people with 
disabilities working full time, year round as compared to people 
without disabilities working full-time year round. (Attachment 1) This 
would indicate that what we are doing appears to be working and working 
well.
    We have identified three critical factors that we feel will 
increase the numbers of individuals with disabilities obtaining 
employment.
    The first factor is having dedicated professional, empowered staff. 
The second factor is having strategic partnerships with agencies, 
organizations and businesses that have a common vision of employment 
for people with disabilities. The third factor is having a supportive 
Governor and State Legislature willing to work within rules and 
guidelines provided by Federal agencies.
    Vocational Rehabilitation (VR) can be a revenue generating program. 
In Utah, we effectively use Federal and State dollars to train, re-
train and sustain people in employment who then become productive 
taxpayers. Over time, our investment consistently provides a return. In 
2010, the University of Utah conducted a study and determined that 
every State dollar invested in Utah's vocational rehabilitation program 
had a return of $5.64. (Attachment 2) We run the program like a 
business. Utah's VR Program is one of the most productive and cost-
effective programs in the Nation with the second lowest cost per 
successful rehabilitation in Federal Region VIII. (Attachment 3) 
Nationally, we are the eighth most productive combined agency with the 
eighth lowest cost per successful rehabilitation.(Attachment 4)
    Utah's VR program is unique within the Federal-State VR 
partnership. Utah's VR accomplishments are especially noteworthy given 
the diverse population of citizens with disabilities living in Utah and 
complex geography of the State. We serve a growing refugee and 
immigrant population from all over the world in our larger cities. We 
are fortunate in that many of our staff served as missionaries to 
foreign countries for the Mormon Church and are fluent in a wide 
variety of languages. Utah covers 84,900 square miles of land and our 
population is estimated at 2,817,222. About 80 percent of the people 
live in a narrow strip of land, that is 100 miles long and 15 miles 
wide, called the Wasatch Front. The remaining 20 percent are scattered 
throughout the State in small rural communities. This requires us to 
have many one and two counselor offices that cover vast areas of land 
to serve this population.
    These unique features of Utah allow for innovative VR programs to 
be tried and tested. I am pleased to share with you some of our success 
in improving the lives of people with disabilities through meaningful 
employment.
    The three factors I mentioned previously are effectively 
demonstrated by five Utah VR programs:
    Partnership with the Department of Workforce Services (DWS). Choose 
to Work Utah (CTW) is a project originally created to address a lack of 
job placement resources for people with disabilities in a five county 
area in rural southwest Utah. With the passage of the Workforce 
Investment Act (WIA) in 1998, it was agreed upon to expand the project 
statewide. CTW is a partnership between USOR and DWS where employment 
specialists are co-funded by both agencies. These 22 specialists 
provide job development and job placement exclusively for individuals 
with disabilities and are strategically placed throughout the State. 
These specialists include two who work specifically with individuals 
who are blind and one who is fluent in American Sign Language (ASL). 
Their work is coordinated by a leadership team from both agencies so 
there is no duplication of effort or services and resulted in 617 
successful job placements in fiscal year 2012. (Attachment 5)
    Partnership with Developmental Disabilities Agency. Support Work 
Independence is a partnership between USOR and the Division of Services 
for People with Disabilities (DSPD), Utah's Developmental Disabilities 
Agency. Utah's legislature identified and addressed two problems: 
First, there was an inability to place individuals with the most 
significant disabilities into supported employment because there was 
not a reasonable expectation of long-term funding being available. 
Second, there were a growing number of people on the waiting list for 
costly Medicaid services. DSPD's waiting list is based on the same 
principle as the Order of Selection is to the VR System--those with the 
most significant disabilities or need are served first. The idea behind 
this partnership is to address the DSPD waiting list from the back or 
low priority side and it also gave USOR a source of long-term funding 
for consumers in supported employment. Those individuals would no 
longer just sit, wait and collect SSI or more expensive Medicaid 
services; they went to work, reduced their cash benefits, increased 
their income and paid taxes. In fiscal year 2012, DSPD had 156 
individuals participating with 84 of them employed. Additionally, USOR 
successfully closed 59 individuals in supported employment and 
transferred them to DSPD for the long-term funding. (Attachment 6)
    Partnership with Utah Defendant Offender Workforce Development 
(UDOWD) Task force. The UDOWD Task force established in the fall of 
2009 as a partnership between Federal, State, and local law 
enforcement, USOR, non-profit and religious organizations. UDOWD's 
primary goal is to assist offenders in the legal system to obtain 
employment and to become productive members of society. We want to end 
the cycle of re-offenders. We assigned VR counselors in several offices 
to work with individuals with disabilities who are offenders. These VR 
counselors are trained by the National Institute of Corrections (NIC) 
and are certified as Offender Workforce Development Specialists (ODWS). 
Services provided to eligible offenders by USOR include treatment, 
training, placement, and other services designed to remove barriers to 
successful employment. The employment rate for offenders who complete 
the UDOWD program is between 65 percent to 70 percent, which is well 
above the national and local recidivism rate for return offenders. The 
annual cost for incarceration is about $28,000. Substantial savings to 
the taxpayer are realized. (Attachment 7)
    In fiscal year 2011, 252 offenders with disabilities were 
successfully employed. In fiscal year 2012, there were 544 offenders 
with disabilities who successfully found and maintained employment. 
(Attachment 8)
    Partnership with DWS and the Health Dept. Work Ability Project. 
USOR's Work Incentive Planning Service (UWIPS) helps people receiving 
Social Security disability benefits (SSI or SSDI) understand how 
employment impacts their Social Security and other benefits (including 
Medicaid, Medicare, food stamps, housing). The primary goal, however, 
is to inform recipients and beneficiaries about the work incentives and 
safety nets available to them if they decide to work. If you cannot 
convince the individual that it is in their best interest to try 
working at a level that will get them off of benefits, increase their 
disposable income, and improve their quality of life, nothing else you 
do for them in the VR program is going to make that big of a 
difference. In Utah, Benefits Specialists, Work Incentive Planners, 
Community Work Incentive Coordinators (CWIC)--whatever name or acronym 
you call them--are all under USOR supervision. Funding from DWS and the 
Health Department comes to USOR via interdepartmental transfers. 
Funding from Social Security ended in 2012 but we felt this is such a 
critical service that we continue to fund it with Cost Reimbursement 
program income. USOR is successful in helping SSI/SSDI recipients 
obtain gainful employment and reduce or eliminate use of Social 
Security.(Attachments 9, 10, and 11) In fiscal year 2012, 671 
recipients and beneficiaries of SSI and SSDI were successfully placed 
into employment.
    Partnerships with Business: National Employment Team (the NET), and 
Greater Salt Lake City Chamber Disability Friendly Business. We are 
members of the Council of State Administrators for Vocational 
Rehabilitation (CSAVR) National Employment Team or The NET. The NET has 
helped us with national business contacts and contacts with Federal 
Agencies. In fiscal year 2012 we had the following successful 
placements: Lowe's-8, Marriott-3, the BLM-2, U.S. Forest Service-3 and 
the IRS-7.
    Disability Friendly Business is a partnership with the Greater Salt 
Lake City Chamber of Commerce. (Attachment 12) Staff works with 
business owners to help make their businesses more accessible to people 
with disabilities. Businesses go through a self-assessment, get 
training on accessibility and accommodations as well as tips on 
communicating with individuals with disabilities. Upon completion of 
the training, the business signs an agreement with the chamber, pays a 
small fee and receives a ``Disability Friendly Business'' endorsement 
sticker. If more people with disabilities frequent their business, they 
may be more inclined to hire someone with a disability.
    Although it is difficult to track the exact number of individuals 
with disabilities that were hired exclusively through Disability 
Friendly Business partnerships, we estimate at least 44 individuals 
with disabilities were hired in fiscal year 2012 based on self report 
from consumers, chamber and counselor feedback.
                 gubernatorial and legislative support
    <bullet> In October 2007, Utah's Governor signed an executive order 
``Designating the Intent of Utah State Government to be the Model 
Employer for People with Disabilities.''
    <bullet> In 2010, the legislature created the ``Alternative State 
Application Process'' (ASAP) so an otherwise qualified individual with 
a disability could bypass the regular competitive State employment 
application process by going through a ``Trial Work Period''. If 
successful, the worker would then enter into the standard probationary 
work period and become a typical State employee. This is based on the 
Federal Government's Schedule A process. Although the program did not 
get fully operational until 2011, and with many State agencies still 
facing budget cuts and hiring freezes, the Division of Human Resource 
Management (DHRM) reported that there have been 8 individuals with 
disabilities hired through ASAP.

    In conclusion: Having a job and working is essential in improving 
the quality of life and increasing the level of independence for people 
with disabilities. I will use my daughter as an example. She has 
Autism, Epilepsy and Crohn's Disease and despite the fact that her 
medical conditions limit her to part-time employment, she loves her 
job, is eager to go to work and sees herself as a productive 
contributing member of society. We feel the ideas and innovations we 
implemented here will help others like my daughter obtain and sustain 
meaningful employment now and in the future.
     Attachment 1--2012 Annual Compendium of Disability Statistics

 Table 2.13: Employment: Full-Time, Year-Round (FTYR) Gap--Civilians Ages 18 to 64 Years Living in the Community
                          for the United States and States, by Disability Status: 2011
----------------------------------------------------------------------------------------------------------------
                                                                Gap (Between no disability and disability)
                                                        --------------------------------------------------------
                         State                             Disability (In   No disability (In      Gap change
                                                              percent)           percent)        (percent pts)
----------------------------------------------------------------------------------------------------------------
U.S....................................................              18.8               49.1               30.4
AL.....................................................              16.5               49.2               32.7
AK.....................................................              24.7               49.7               25.0
AZ.....................................................              18.6               47.0               28.4
AR.....................................................              19.1               50.6               31.5
CA.....................................................              17.0               44.6               27.6
CO.....................................................              24.2               50.9               26.7
CT.....................................................              19.9               50.4               30.5
DE.....................................................              19.9               50.4               30.5
DC.....................................................              17.7               55.0               37.4
FL.....................................................              17.0               47.8               30.8
GA.....................................................              17.1               55.0               37.4
HI.....................................................              23.8               52.9               29.0
ID.....................................................              21.2               45.8               24.6
IL.....................................................              18.4               49.2               30.8
IN.....................................................              20.1               49.2               29.2
IA.....................................................              21.6               55.6               34.0
KS.....................................................              25.9               54.9               28.9
KY.....................................................              14.9               48.6               33.7
LA.....................................................              19.7               49.4               29.6
ME.....................................................              17.7               50.9                3.2
MD.....................................................              22.5               54.9               32.4
MA.....................................................              15.8               50.5               34.7
MI.....................................................              15.2               44.0               28.8
MN.....................................................              21.4               52.6               31.2
MS.....................................................              16.2               47.6               31.4
MO.....................................................              18.8               51.5               32.7
MT.....................................................              21.4               48.8               27.4
NE.....................................................              26.5               57.0               30.6
NV.....................................................              23.7               47.7               24.0
NH.....................................................              21.1               54.1               33.0
NJ.....................................................              19.9               51.1               31.2
NM.....................................................              18.7               47.1               28.4
NY.....................................................              18.0               49.6               31.5
NC.....................................................              18.1               49.1               31.0
ND.....................................................              32.2               57.4               25.3
OH.....................................................              17.6               49.8               32.2
OK.....................................................              21.7               52.6               30.9
OR.....................................................              17.4               43.6               26.2
PA.....................................................              17.8               50.4               32.6
RI.....................................................              17.7               50.1               32.5
SC.....................................................              15.7               48.2               32.5
SD.....................................................              29.5               58.6               29.1
TN.....................................................              17.0               50.0               33.0
TX.....................................................              23.1               51.7               28.6
UT.....................................................              23.7               46.9               23.2
VT.....................................................              17.6               52.5               35.0
VA.....................................................              20.8               54.7               33.9
WA.....................................................              19.4               47.9               28.5
WV.....................................................              15.4               48.7               33.3
WI.....................................................              20.6               51.6               31.0
WY.....................................................              31.9               56.3               24.4
PR.....................................................              14.8               35.0               20.2
----------------------------------------------------------------------------------------------------------------
Table 2.13: In 2011, the FTYR employment rate for individuals with disabilities ages 18 to 64 years living in
  the community was 18.8 percent, while the FTYR--employment rate for individuals without disabilities ages 18
  to 64 years living in the community was 49.1 percent--a gap of 30.4 percentage points. The FTYR employment gap
  was greatest in the District of Columbia (37.4 percentage points) and smallest in Utah (23.2 percentage
  points).
Source: U.S. Census Bureau, 2011 American Community Survey, American FactFinder, Table C23023; <http://
  factfinder2.census.gov>; (accessed 27 September 2012). Based on a sample and subject to sampling variability.
  See http://disabilitycompendium.org/compendium-statistics for complete report.

              Attachment 2--Utah Economic Impact Study \1\
---------------------------------------------------------------------------
    \1\ Authored by Sarah Wilhelm and Jennifer Robinson, The Center for 
Public Policy & Administration, 260 So. Central Campus Dr., Room 214, 
Salt Lake City, UT 84112, (801) 581-6781.
---------------------------------------------------------------------------

Background

    The purpose of this study was to find out what are the tangible 
benefits of the vocational rehabilitation program in the form of 
benefits to individual participants and to the State of Utah. The study 
included 6030 vocational rehabilitation consumers that were closed from 
services in FY 2005. The control group were 2058 individuals that were 
eligible but for whatever reason chose not to participate before 
closure and 3972 were the program group that did receive services. 
Earnings information for the study was taken from unemployment 
insurance data matched to cases for quarterly earnings for 3 years 
before application and 3 years after closure.

Results

    <bullet> The impact on earnings for those who did receive services 
compared to those that did not was $3,534 for the first year after 
services, $3,347 in the second year and $2,976 in the third year.
    <bullet> The average annual increase in earnings for these 6030 
consumers is $3,360.
    <bullet> Those who received services are 16% likely to be employed 
than those that were closed before services were provided.
    <bullet> The reduction in public benefits for these consumers 
results in $32,231,036 in savings.
    <bullet> Federal dollars and impact factored separately are not 
included in the return on investment figure below.
    <bullet> Return on Investment: For each State dollar spent, $5.64 
is returned to State in terms of increased taxes and decrease benefits 
from public programs.
    To access full report click on: http://www.usor.utah.gov/
publications/usor-economic-impact-study/.

                                              Attachment 3--Ten State Comparison Study Fiscal Year 2011-12
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                     S. Dakota
                                                                          Idaho                         North             S. Dakota   (Blind/
                                                     UTAH    Colorado  (General)   Montana   Nevada    Dakota    Oregon   (General)   Visually   Wyoming
                                                                                                                                     Impaired)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal Year 2011:
  Number of Clients Placed in Jobs...............     3,587     2,348      2,083       776       947        76     1,793        719        115       676
  Average Number Placed in Jobs per Counselor....        28        17         29        19        21        18        14         19         18        23
  Cost per Client Rehabilitated..................   $10,559   $17,108     $7,432   $15,154   $19,659   $13,348   $21,784    $14,127    $22,258   $13,196
  Average Caseload Size..........................       232       144        130       197       139       165       123        157        102       189
Fiscal Year 2012:
  Number of Clients Placed in Jobs...............     3,427     2,496      1,814       830       852       708     2,032        823        120       678
  Average Number Placed in Jobs per Counselor....        27        20         25        20        19        17        17         21         17        23
  Cost per Client Rehabilitated..................   $10,760   $16,245     $8,966   $16,239   $14,596   $14,519   $19,368    $10,039    $19,419   $13,650
  Average Caseload Size..........................       230       157        182       194       130       139       124        147        181       190
--------------------------------------------------------------------------------------------------------------------------------------------------------

 Attachment 4--ARSA Performance of Combined Agencies Fiscal Year 2011 
                                Table 4.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Attachment 5--Choose to Work Brochure
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Attachment 6--2013 Supported Employment Handout
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Attachment 7--UDOWD Flyer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Attachment 8--UDOWD Task Force Update
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Attachment 9--Utah Work Incentive Planning Services
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Attachment 10--2012 Ticket Data.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Attachment 11--2009-12 SSA VR Cost Reimbursement
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           Attachment 12--Disability Friendly Business Flyer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you, Mr. Uchida.
    Thank you all very much. I hope I mentioned at the 
beginning that all testimony will be made a part of the record 
in their entirety. We'll start a round of 5-minute questions.
    You all kind of focus on high expectations and starting 
early, forming partnerships, Mr. Uchida. But talk to me again 
about providing services to youth when they're still in school. 
How do we get them on this pathway?
    Governor Markell, when I asked him about businesses and 
what they want, said that they wanted voc rehab to change a 
little bit. Rather than taking a list to employers and saying, 
``Here's the list. Can you hire someone?'', have voc rehab go 
to the employer and say, ``What are you looking for? What do 
you need?'', and taking that and going and finding people with 
disabilities who have those skills.
    I want you to address that but also to address this idea of 
getting at kids early on, both with high expectations but with 
what I call internships, where they can experiment and find out 
where their aptitudes and interests might lie in high school.
    Last, you mentioned, Mr. O'Brien, this TechNow. You didn't 
mention it in your statement, but I read about it. And that has 
me intrigued, because there's a lot of emphasis these days on 
STEM, science, technology, engineering, and math. But we tend 
to forget that this can be adaptable easily to people with 
disabilities. There's a lot of jobs in this high tech which are 
very adaptable, which people with disabilities can feed right 
into because of its accessibility.
    So my question for all of you is, how early can we start 
and where should the emphasis be? Second, do we need to change 
voc rehab's emphasis and get them focused earlier on? And, 
third, what about this whole idea of emphasizing more 
technology in terms of future jobs for people with 
disabilities.
    Mr. O'Brien, I'll start with you.
    Mr. O'Brien. Well, I will go ahead and start, and I 
appreciate the question. The challenge is, of course, in 
Oklahoma, we have about 600,000 people with disabilities and 
about 100,000 of those are students with IEPs. So whatever I 
talk about here, it's in the context of I've got to figure out 
how to serve both adults who have acquired disabilities and at 
the same time ensure our students are being served. That is a 
challenge.
    But in Oklahoma, we've really focused on that over recent 
years in several ways. One is we think that actual work 
experience and, preferably, paid work experience for a student 
while they're in high school during particularly the last 2 
years before they're going to exit school--in some cases, 
that's while they're a junior and senior, and, in some cases, 
because they might be in school until they're 22, that's when 
they're 19 or 20--but having an actual work experience in 
school.
    And what we know from that is, if you have a work 
experience in school, you're more likely to graduate and you're 
more likely to choose work when you exit. So that early 
experience is important. But we also think a paid experience, 
getting actual cash somewhere along the way, makes a 
difference. So in Oklahoma, we focused on increasing paid work 
experiences while the students are in school with contracts 
with schools and local employers, ET cetera. We think that's 
one.
    The early intervention--we've been experimenting with that 
in the TechNow Project, because it actually starts in the 9th 
and 10th grade. And what we discovered is, we expose the 
students both to technology and business practice. They learn 
to operate Corel software, Word software, and different kinds 
of things like they would in any business. And they learn 
marketing strategies and they build things and work with a 
computer.
    What we're finding is if they participate in that early, by 
the time they graduate, they're thinking about employment. 
They're wanting to find employment. They've actually met 
employers because of the competitions they're going to. But the 
most important thing is that more than 94 percent of them 
graduate if they've participated in that. And for a group of 
students with disabilities, these graduation rates are a real 
issue across the country.
    There is a challenge in starting early, because if you 
start at 14, most transition cases are already 4 to 6 years. So 
now you're talking about a case that might take 8 or more 
years, which means that you've got dedicated resources that 
can't go somewhere else. So you have to decide how you're going 
to respond to that and how you will work that to make sure that 
you can serve across the board.
    Oklahoma has also started this Career Pathways where, as a 
state, we're trying to focus on all students, not just students 
with disabilities, with career planning beginning in the sixth 
grade, not because you're a student with a disability, but 
because every student should know who the local employers are. 
Every student should do career planning interest inventories. 
Every student should go to job sites. If they do that from the 
sixth grade forward--and it's inclusive of all students with 
disabilities, not disability specific--then we can start at 
sixth grade and advance that so that when they leave high 
school, they know what exists in their community and they can 
choose work or training.
    The Chairman. That's why I'm hopeful that if we move off of 
No Child Left Behind and go to career- and college-ready, then 
that is an integration process right there. No Child Left 
Behind is almost a segregation kind of a process. We're looking 
at more integration, so, hopefully, we'll move in that 
direction.
    Ms. Boone.
    Ms. Boone. Thank you for the opportunity to speak to 
effective transition, because it is my passion. I had on my 
county advisory board a special education teacher from the 
local school district. And it was breaking her heart to meet 
her students after they graduated at 21 and ask them what they 
were doing. When they said, ``I haven't seen anybody that I saw 
at school. I'm at home. My sister had to quit her job and stay 
home to be with me,'' she had enough.
    She got on the county advisory board that governs the funds 
that paid for the segregated workshops, and she said,

          ``No one should be sitting at home. My students 
        deserve better, and I need to be on this advisory board 
        and influence what happens after they turn 21 and are 
        in the community and leave school.''

    So she put together, along with the county funding that 
becomes a Medicaid support after they graduate--she started 
with a VR counselor that she knew, the county coordinator that 
she knew, her own students, and she got a site at the community 
college and said,

          ``My students at 18 are going to start going to 
        school at the community college so they're in a typical 
        place at a typical time. And we're going to focus 
        everything we do on them getting a job, and we're going 
        to pool our resources to do this. But we're going to 
        have a common intent, and we're going to meet every 
        month cross-agency to talk about what it takes for all 
        of us to align our supports so that no child, no adult, 
        no one has an experience that's not typical that their 
        brother or sister would have.''

    So they're walking the neighbor's dog at age 14. And we're 
talking about expectations. It doesn't cost money to ask a 
little kid what he or she wants to be when they grow up. And 
that is the kind of expectation that permeates Washington 
State. It's not if you're going to work. It's what job would 
you like to do.
    In my written testimony, there is a link to an AIDD Journal 
article about the Jobs by 21 Partnership Project, where we 
studied three different cohorts. And those were students who 
had been able to participate in that kind of collaborative, 
intentional--you know, get a job prior to school exit; a cohort 
of students who didn't participate in one but were in a 
community that had one, a community that had higher 
expectations; and communities that didn't have anything like 
that in place. And what we found, of course, was that people 
were earning higher wages, working more frequently, and that 
the best indicator of their adult career was whether or not 
they were exiting school with a job.
    The career and tech ed piece of this is the piece that we 
have not addressed yet. We've gotten really good at special 
education. We have not gotten very good at integrating special 
education for students who want to access career and technical 
education. We have not integrated or embedded the expectation 
that all youth with an IEP will have access to career and 
technical education.
    We've modeled special ed after general ed. We need to start 
thinking about modeling special ed after career and tech ed and 
be thinking about what's going to happen after they turn 21 and 
spend the next 40 or 50 years living in their communities.
    The Chairman. Very good.
    Mr. Uchida, do you have anything to add to this?
    Mr. Uchida. Thank you, Mr. Chairman. We don't have a 
problem in Utah with the school age end of it. We have formal 
agreements with every single school district. We have a 
vocational rehabilitation counselor assigned to every single 
high school. Our problem--and one of them was the second 
partnership that I talked about.
    We would be working with these kids through school, but as 
they aged out, it was the same problem that Mike was talking 
about. They didn't have anywhere to go. We didn't have the 
long-term funding for supported employment, and we were going 
to be wasting all that effort that we had while they were in 
school because the collaboration was between the rehab agency 
and the school system. Most of those special ed kids come out 
and depend upon the Medicaid waiver money.
    That's why we went to the legislature. The legislature 
responded, and they provided the long-term funding for 
supported employment. So there was a seamless transition of the 
kids coming out of the school system, going to the vocational 
rehabilitation program on the short-term supported employment, 
and then there was long-term funding for them that's been 
provided by the State.
    I'd like to interject the fact that my daughter was one of 
those who kind of benefited from the State-run, long-term 
program. Before the Medicaid waiver money went away, she was 
working in retail, and she needed a job coach. But what 
happened was when that funding went away, we had to look for 
another job that didn't require a job coach and she could have 
natural supports within the second job that she got. So, these 
kinds of things happen, and that was one of the motivating 
factors to get that State-funded long-term funding for 
supported employment.
    The Chairman. I'm going to yield to Senator Warren. But 
before I do, I'll just add that there are certain mindsets that 
we have to break away from. And the mindset that someone with a 
disability gets trained or educated and they get in a job and 
they have it for 40 years--that's not the way society works. 
People have a job for a few years. They go to another job. They 
go to another job. They go to another job.
    We have to have a system whereby people with disabilities 
who may lose a job--jobs move, plants close--where they can get 
back in the system and be retrained just like anybody else for 
some other occupation. I hope we kind of keep that in mind in 
terms of long-term supports.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    I just want to say, Ms. Boone and Dr. O'Brien and Mr. 
Uchida, thank you very much for the work you do. It's just 
terrific. It's inspiring. And, like the chairman, I read your 
testimony which is terrific.
    I wondered if I could change the conversation or just move 
it in a little bit different direction. I've been thinking a 
lot about the vets who are returning from Iraq and Afghanistan 
and who have sustained injuries that make it difficult for them 
to find employment. And, really more by happenstance than 
anything else, this morning, I was meeting with a group of 
veterans and activists. We had the vet coordinator from 
Framingham State University. I had the vice commander of the 
Disabled American Veterans and the director of the Boston 
Firefighters Military Veterans Legion and several others.
    The first part of the conversation that they brought up was 
the frustration they feel with the Veterans Administration. 
They talk about delays, lack of engagement, that they feel like 
they're not getting the kind of support--that vets are not 
getting the kind of support they deserve.
    I wonder if you could speak just a little bit to the 
challenges facing our veterans, to your perception of how the 
Veterans Administration is meeting those needs, and about other 
options and how you create alignments in programs with the 
Veterans Administration.
    Mr. Uchida, you look ready to go.
    Mr. Uchida. Thank you, Senator. We have a formal 
cooperative agreement with our local VA. In fact, we have a 
very, very close working relationship, because that entire 
vocational rehabilitation unit is our former employees who left 
our State agency to go work for the Federal Government for 
higher wages. So they know our system, and they have a very, 
very close working relationship.
    We are aware of some of those problems and the 
shortcomings. So we have a cooperative agreement where most of 
the medical high-end expensive kinds of therapeutic 
modalities--they're taken care of by the VA. Those other things 
that they're waiting for that we can justify, we pay for with 
our vocational rehabilitation services money because of the 
cooperative agreement that we have with them.
    So, yes, that is a problem. The TBIs that come with a lot 
of those create some barriers to work with. But we are getting 
some of our staff trained to deal with that particular 
population. We've sent some of our people to work with directly 
and to get training through the VA to understand their system a 
little bit better, so we can navigate through all those 
problems that you discussed a little bit easier.
    Senator Warren. Dr. O'Brien.
    Mr. O'Brien. I come at this issue from both a personal and 
a professional perspective. I have a brother who is a retired 
first sergeant from the Army who was medically retired and who 
had to use the VA's rehabilitation system in order to earn his 
degree. And he is now the manager of a major manufacturing 
plant. But he went through that system.
    I have a nephew who returned from Afghanistan as a Purple 
Heart winner who has had to utilize both types of vocational 
rehabilitation and who will graduate from college, we believe, 
this summer. So we've seen it in that system. And I have a son 
who is a soldier in Germany right now. So I pay quite a bit of 
attention to the veterans' piece.
    In Oklahoma, what we found is that the Veterans 
Administration rehabilitation counselors typically have very 
large case loads. But they also have more money to serve people 
than we do. So we've begun a process of trying to meet 
regularly with their counselors. My counselors and their 
counselors meet at different times across the State. And we've 
found that we can provide counseling and case management and 
personal connection perhaps in a more convenient way than they 
can, because their case loads are bigger than our case loads, 
but that they can provide the resources.
    The other thing that we've tried to do is I regularly 
attend their State meeting and visit with their counselors, and 
their supervisor attends our meetings to be a part of that. 
We've not perfected the system, but what we've found is when 
we're at the table together as often as we can get to the table 
together, we can find ways to pick up in the places where there 
are problems. Yes, it's still slow, but more people are being 
served, and more people are getting opportunity, and they're 
able to use both systems when we partner together like we're 
trying to do in Oklahoma.
    Senator Warren. Thank you.
    Mr. Chairman, I'm out of time, I realize. Would it be all 
right if Ms. Boone responded as well?
    The Chairman. Sure.
    Senator Warren. Thank you.
    Ms. Boone. Fortunately, for the interest of time, there is 
not a person within the Division of Developmental Disabilities 
who has served in the military. So this is not a matter that 
I'm familiar with.
    Senator Warren. Well, that saved us some time. But thank 
you very much. I appreciate the responses. And I very much, 
though, want to underline what I think I was hearing, and that 
is you're working hard, but it is a problem that is nowhere 
near a solution yet, that our vets are waiting a long, long 
time, and you're trying to piece things together to try to make 
it work for them. Would that be a correct summary?
    Mr. O'Brien. I think that there's a lot of people trying 
very hard. But you're right. It's not as efficient as it needs 
to be yet. But there are dedicated people focused on it.
    Senator Warren. Fair enough. Thank you.
    The Chairman. I might just add, Senator Warren, that one of 
the things that I've been working on with some others is to get 
the Department of Defense to do more hiring of wounded warriors 
who have disabilities and to get them trained and to--both on 
the civilian side but also on the military side, to stay in the 
military.
    The military has this thing that you have to be deployable. 
Well, maybe. Maybe not. There's a lot of jobs in the military 
that uniformed military personnel could do that could be done 
by people with disabilities. They may not be deployable to some 
other country, but they can sure do the job here. So I ask you 
to join with us and let's work on that, because we're trying to 
get the DOD to change its mindset a little bit here.
    Senator Warren. I'm in, Mr. Chairman.
    The Chairman. All right. Thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman. I want to, again, 
appreciate our three witnesses on this panel. And you might 
have heard me address the Governor earlier that my State of 
Wisconsin's DVR has collaborated with each of your States very 
successfully, and I appreciate that.
    One of the problems of running in and out between two 
committee hearings is I've missed some of the questions. So let 
me just ask a couple of very specific things that perhaps won't 
even use all of my time.
    Ms. Boone, after moving to Employment First, can you 
identify which policies adopted in the process of that, had the 
greatest impact on increasing your integrated individual 
employment rates?
    Ms. Boone. I can. Washington is a State that actually came 
to its employment policy late. We had the values in place in 
the early 1970s when Washington State's parents were the first 
parents in the Nation to insist that their sons and daughters 
go to school with their sisters and brothers. And in 1971, they 
put in place an Education for All Act that later became Public 
Law 94-142.
    Because of that insistence in the early 1970s--it took a 
few years before that was passed. So these are parents from the 
late 1960s who said, ``My kids are all going to go to the same 
neighborhood school.'' Having that expectation of inclusion in 
place built toward the 1980s when we began to have more 
inclusive employment.
    By the time the Working Age Adult policy was written and 
issued in 2004, we already had embedded in practice our 
investments and our innovations and our business models, what 
it would take for someone to come in the door and say, ``I want 
a job,'' and for us to have a job developer who could go to an 
employer and say,

          ``I can see that you've got some work here that needs 
        to be done, and I can match that job demand with a 
        candidate I have that can match it,''

much as Governor Markell spoke to earlier.
    It's about what does labor demand, and who do we have that 
we can match with that effectively. What the policy did was put 
in writing, which can be very powerful, a set of very clear 
expectations about just what it meant. What did it mean to earn 
a living wage? What did that mean? What was integrated 
employment? What kinds of supports could people expect to get 
when they came to the Division of Developmental Disabilities 
and asked for something to do during the day?
    There was much debate about that in the House and the 
Senate. There were people who thought it was a really lousy 
idea, and there were people who thought it was a terrific idea. 
Governor Gregoire in 2012 signed that policy into State 
legislation. There was so much debate over it being at the 
policy level that our State legislature, through long debates, 
decided it needed to be in legislation, and that was signed on 
June 7, 2012.
    Senator Baldwin. Thank you.
    The Chairman. I'm told you have a plane to catch, Ms. 
Boone. But before you leave, I also wanted to ask you about 
this Employment First, moving from the segregated model to an 
integrated model. Let's be honest about it. Sometimes the 
hardest people to convince are skeptical parents. And I'm just 
wondering, how did you deal with that?
    Ms. Boone. Senator Harkin, I've been thinking about that 
question, and I've been wondering if I could persuade you not 
to retire.
    [Laughter.]
    The Chairman. Moving right along.
    Ms. Boone. The best way to convince a skeptical parent is 
to listen. It's not to start talking. It's not to start 
convincing. It's to listen, and we listen. We listen to 
parents, and we respect that they're concerned. They should be. 
They're that person's parent. That parent wants to make sure 
that they're safe, they're protected, that they don't come to 
any harm. They want them in the safest place possible.
    It's about supporting the parent to experience the risk it 
takes to send their kid out the door, and that's something 
common to every parent. You need support. We have parents 
talking to parents. It's not about somebody from the government 
or an employer or even a school teacher, although sometimes 
school teachers can be effective. It's the parent-to-parent 
conversations that are the most effective.
    When we have our high school celebrations of the kids who 
got jobs before they left school, the standing room only crowds 
were parent panels of students who had graduated a couple of 
years ahead talking to parents who had kids who were going to 
graduate in the next couple of years. They wanted to know what 
it was like, how did it work out, what happened, what does it 
look like. It's really about leading by example and having 
parents and youth mentoring parents and youth and them telling 
each other the story, as well as employers telling each other 
the story.
    The Chairman. I understand. Obviously, parents are very 
concerned about what's going to happen to their child with a 
disability, what happens after they're gone. I understand that, 
and it's a tough issue. But I think you're absolutely right. 
You have to listen to parents and get other parents who have 
been through this to talk to them and to convince them.
    Did that happen when you got Employment First passed 
through the legislature? Did you have much of a reaction from 
that?
    Ms. Boone. I really do wish Margaret-Lee Thompson could 
have been here today, because she was in many of the hearings 
where Employment First was passed, as was Joanne O'Neill and 
many other parents. Sometimes our strongest advocates--not 
Margaret-Lee or Joanne, but other parents or family members, 
sisters and brothers--were, at first, our strongest opponents. 
And those ferocious opponents who supported their brother or 
sister to take the risk of getting a job and saw what happened 
became the strongest advocates.
    So there's a lot of passion and power, as you've noticed 
over the years, around these issues. And it's something that in 
Washington State, because the greater percentage of people are 
working, it doesn't take as much convincing when you go to the 
grocery store and somebody with a significant disability is 
working there, or you go to Starbucks, or you go to the bus 
station and the person who tells you how to get to your route 
is a person with an obvious disability. They're just part of 
the workforce.
    And I think in generations to come, because of Public Law 
94-142 and IDEA, people will be included naturally.
    The Chairman. Because they've grown up together. They've 
associated together. They've been in school together. Yes, 
exactly.
    Ms. Boone. They will get jobs. They will network. They will 
know each other.
    The Chairman. Exactly.
    Anything else, Mr. O'Brien or Mr. Uchida, you think you'd 
like to add anything that we haven't asked or that you'd like 
to make a point on before we close down?
    Mr. O'Brien. Just real quickly, one of the things that I 
also think is important is that parents have to have 
information. Actually, for any person with a disability who is 
receiving benefits to make a choice about work and leaving 
benefits, they have to have enough information to make that 
choice.
    I think that the use of effective benefit planners that 
we've had as part of social security and that Don and I both 
have in our States because we started our own benefit planning 
units after the social security benefit planners were ended--
you have to have someone who's an expert to help you weave 
through the system. And I think that anything we do has to 
incorporate someone who can answer those questions, and it's 
not always going to be the rehabilitation counselor. They have 
to know so many things.
    The social security system is--all of the benefit systems 
are complicated. And having an expert who can effect that so 
that people can make a real decision, an informed decision, 
about what their path could be if they chose work, I think is 
an important thing to consider as we move forward.
    The Chairman. Mr. Uchida.
    Mr. Uchida. Thank you, Mr. Chairman. That very subject was 
one of our partnerships. It was the UWIPS. It's the work 
incentive planning unit that we have that Mike talked about 
earlier. And one of the problems we had that created the second 
partnership, getting the State funding, were these kids coming 
out of school--transitioning kids when they aged out of the 
system. They needed some place to go, and they needed that 
long-term funding for supported employment.
    So we targeted many of the parents of those children. Now, 
legally, when they're 18 years old, unless they have legal 
guardianship, we don't need to talk to the parents. But in most 
instances, they do. And one of the things that we found is that 
if they can see--even though the social security system is so 
complicated, when they get through with our work incentive 
staff, they have something in writing that says if your kid 
goes to work and earns this much money, then this is going to 
happen to this benefit.
    But if they still need health insurance, they can have the 
Medicaid buy-in program. This is the sliding scale. This is how 
much it's going to cost. And everything is in writing in that 
plan. So we found that it gives the parents a little more 
assurance to have something in writing that they can go back 
to.
    And we found that more and more of these kids on SSI, 
especially--the parents can see in writing that it's to their 
benefit financially, not losing any of the safety nets, that 
they can go through the vocational rehabilitation program, go 
to work in an integrated setting, work above SGA, and it's 
still to their benefit because it's in writing and it shows 
them.
    The Chairman. Thank you. Do any of my colleagues have any 
further followup questions?
    Again, I want to thank all of the witnesses for their 
testimony and for your leadership on this critical issue of 
boosting disability employment. And we certainly appreciate the 
time and the effort you've taken to come here today. I also 
want to again publicly thank Governor Markell and his 
colleagues at the National Governors Association for helping to 
elevate this issue and identify the best practices for State 
leaders and for the country.
    I am convinced that America is at a tipping point on this 
issue, and that increased engagement from the Governors coupled 
with Federal leadership, private sector leadership, and strong 
engagement from the disability community can really make a 
difference in the next few years. So I look forward to working 
with Senator Alexander and the wonderful members of this 
committee.
    We have a great committee. We have really dedicated people 
on this committee, and we're going to do everything that we can 
to push this agenda and to work with States and the private 
sector to get through this transition from segregated, covered 
employment to fully integrated competitive employment for 
people with disabilities.
    You three have been sort of the vanguard of this, and we 
learn from your expertise and what you've done. And we hope 
that we can continue to ask for your input and your advice and 
consultation as we move ahead on this.
    With that, thank you very much. We'll leave the record open 
for 10 days to allow additional statements or supplements to be 
submitted, and this hearing is now adjourned.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

Response to Questions of Senator Murray by the Honorable Jack Markell, 
     Jane Boone, Michael O'Brien, Ed.D, CRC, CVE, and Donald Uchida
                       the honorable jack markell
    Question 1. Last year the Social Security Administration did not 
issue new grants for the Protection and Advocacy for Beneficiaries of 
Social Security and Work Incentives Planning Assistance programs. As 
you know, these programs provide valuable advocacy, information, and 
training for people with disabilities receiving Social Security 
benefits to help the beneficiary return to work, thus reducing 
dependence on Social Security and encourage independence. These 
programs helped thousands of people with disabilities return to work 
each year, which benefits Federal, State, and local budgets. Do you 
think the Federal Government should be funding these programs to help 
people with disabilities return to work?
    Answer 1. The WIPA program is an effective investment of tax 
dollars. Research and evaluation of the program has shown that it 
clearly reduces reliance on public benefit programs and turns people 
with disabilities into taxpayers. The cost of the WIPA program is 
approximately $375 per individual served. The cost of the program is 
more than offset by extensive long-term savings in Social Security 
funds.
    Data from a few States like Vermont demonstrate that participants 
receiving benefits counseling versus the WIPA and PABSS programs 
provide a vital service that assists individuals with disabilities to 
go to work, and achieve self-sufficiency and financial independence.
    If the WIPA and PABSS programs are eliminated, over a decade of 
infrastructure development will disappear and people with disabilities 
will have no alternative for this type of service a control group (not 
receiving benefits counseling) received higher wages a year later.

    Question 2. Are there any examples in your State of the positive 
impact of the Protection and Advocacy for Beneficiaries of Social 
Security and Work Incentives Planning Assistance programs? Please 
provide one or two examples and describe the benefits of the grant.
    Answer 2. In Delaware the WIPA program assisted the 25 percent of 
DVR clients on SSI/SSDI to see the benefits of a paycheck over a 
benefit and make the choice to pursue employment. Many SSI/SSDI 
beneficiaries would not make that choice but for their consultation 
with a WIPA benefits counselor. The DVR success rate with SSA 
beneficiaries improved with the inclusion of benefits counseling into 
their service plans. Benefits recipients required the assistance of 
WIPA benefits Counselors at multiple stages in their journey to self-
sufficiency through employment. Once they were actually receiving 
paychecks; when they were required to report wages to SSA; when their 
trial work period expired; and when they reached SGA; all of these 
milestones sent SSA recipients back to their trusted WIPA benefits 
counselor to navigate the system. Without a WIPA benefits counselor to 
guide them, most SSA recipients will stay away from the uncertainty of 
employment and the risk of losing benefits. For those who are working 
part time, without WIPA there is no one to guide them to full-time 
employment and the risks of rising above SGA. At a time when we are 
seeking solutions to sustain the SSA trust fund for individuals with 
disabilities, the WIPA program is a key component of the solution--
helping people with disabilities to choose independence through 
employment.

    Question 3. Thank you for focusing on the important issue of 
employment as Chair of the National Governors Association. As you know, 
employment is the first option for Washingtonians with disabilities. 
Washington State's policies have helped thousands with disabilities 
stay on the job and contribute to our State economy. This employment 
first approach has made Washington a model for the Nation and I'm very 
proud of the work done. During the year you have been Chair of the NGA, 
you have highlighted several of the executive actions that Governors 
can take to increase employment of persons with disabilities. As you 
have worked on this issue, are there specific things the Federal 
Government could do to increase employment outcomes for individuals 
with disabilities?
    Answer 3. As Governors continue to push action and innovation to 
advance employment opportunities for people with disabilities, Congress 
can help. States, business, and people with disabilities will need your 
leadership to support flexible federalism, like the Workforce 
Investment Act (WIA) 15 percent set-aside. Since 2008, funding for this 
flexible, innovative fund has been reduced by nearly 70 percent. In 
fiscal year 2010, the cut to State set-aside dollars from 15 percent to 
5 percent hurt States' ability to serve our workers, including workers 
with disabilities. I know that this committee recognized the effect and 
tried to address through language allowing flexibility to 10 percent in 
fiscal year 2013. What is really needed to benefit all Governors is a 
restoration of the full 15 percent.
    For years, States relying on the 15 percent WIA set-aside to 
support and seed innovations that allow us to partner with industry, 
attract new businesses, upskill our current workforce, and better serve 
our constituents who rely on America's Jobs Centers. For example, 
Washington State used the set-aside funds to allow the Governor's 
office to facilitate a partnership across the public and private 
sectors to attract a new manufacturer, Profile Composites, to the 
State. The British Columbia-based company--which makes collapsible 
wheelchairs, sport crutches and other assistive products--is committed 
to hiring veterans and individuals with disabilities and is designing 
its training and manufacturing facilities to accommodate all levels of 
physical ability. A $100,000 investment of WIA set-aside funds will go 
toward workforce recruitment and integrating the company's training 
with established college degree and certificate programs. The company 
is investing $10.4 million to build the facility and establish its 
training programs, creating at least 200 jobs.
    Congress must also prioritize and modernize the Workforce 
Investment Act. It's been well over a decade since Congress revised 
this law. Much has changed in the work place, much has changed in 
business, and much has changed as evidence by today's modern, high-tech 
economy. We are also learning much. The ability for States to innovate 
in their own, unique set of circumstances will always yield the best 
outcomes for individuals, and the best lessons for other States.

    Question 4. Are there any barriers at the Federal level that you 
have identified during your work? Could you expand on your testimony 
with specific issues identified?
    Answer 4. Among the biggest barriers for people with disabilities 
is the fear of losing public benefits when people with disabilities 
become employed. Many of the supports that benefits underwrite are 
critical to employment they need to function every day, such as 
personal care attendants. Providing States with flexibility to allow 
individuals to work and still maintain essential benefits is critical 
to ensuring that people with disabilities do not have to choose between 
the benefits they need and employment.
                               jane boone
    Question 1. Last year the Social Security Administration did not 
issue new grants for the Protection and Advocacy for Beneficiaries of 
Social Security and Work Incentives Planning Assistance programs. As 
you know, these programs provide valuable advocacy, information, and 
training for people with disabilities receiving Social Security 
benefits to help the beneficiary return to work, thus reducing 
dependence on Social Security and encourage independence. These 
programs helped thousands of people with disabilities return to work 
each year, which benefits Federal, State, and local budgets. Do you 
think the Federal Government should be funding these programs to help 
people with disabilities return to work?
    Answer 1. To provide the most up to date information, Jane Boone 
collaborated with Washington Initiative for Supported Employment and 
the King County Developmental Disabilities Division in early March 2013 
to answer these questions. A brief statewide survey on this topic was 
conducted between March 8 and March 12 and the responses are compiled 
in the attached six page document ``Washington State, March 2013 Survey 
on WIPA and PABSS Programs''. Responses affirm that unquestionably yes, 
Federal Government funding of these programs including Work Incentives 
Planning Assistance (WIPA) in particular and the Protection and 
Advocacy for Beneficiaries of Social Security (PABSS) are important 
tools in getting people jobs. Both programs helped people navigate the 
SSA system; reduce their fears, concerns, and go to work in Washington 
State.

    Question 2. Are there any examples in your State of the positive 
impact of the Protection and Advocacy for Beneficiaries of Social 
Security and Work Incentives Planning Assistance programs? Please 
provide one or two examples and describe the benefits of the grant.
    Answer 2. The attached summary includes examples of people in 
Washington State who participated in WIPA guidance, got jobs and 
reduced or eliminated their dependence on Social Security benefits. 
Respondents also commented that the loss of the Medicaid Infrastructure 
Grant negatively affected the State's ability to support people to 
work. Additional information about the value of WIPA and PABSS at the 
national level (including papers and citations) is available from David 
Hoff (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f5b7e69767b31577079795f6a727d317a7b6a">[email&#160;protected]</a>) at the Institute of Community Inclusion, 
UMASS/Boston.

    Question 3. In your work in Washington State, what was the impact 
of employment programs such as ``Jobs by 21 Employment Partnership 
Project?''
    Answer 3. The impact of the Jobs by 21 Partnership Project was 
evaluated by the Institute of Community Inclusion (ICI UMass/Boston). 
The evaluation is available in The Washington State Jobs by 21 
Partnership Project Report for 2009. To summarize, in 2007, the 
Washington State legislature allocated funding for the Jobs by 21 
Partnership Project to identify best practices that would result 
increasing employment of young adults with developmental disabilities 
prior to and after leaving school transition programs. The project 
demonstrated that partnerships between school districts and the adult 
service system including vocational rehabilitation, developmental 
disabilities and employment agency providers resulted in higher student 
employment rates. The evaluation shows that student participants were 
more likely to achieve employment following school exit and had 
stronger employment outcomes than students who did not participate in 
Partnership Projects. Data suggest that improved employment outcomes 
occur by leveraging and maximizing financial and in-kind resources and 
strengthening the collaborative relationships among project 
stakeholders. Citation: Winsor, J.E., Butterworth, J., Boone, J. (2011) 
``Jobs by 21 Partnership Project: Impact of Cross-System Collaboration 
on Employment Outcomes of Young Adults with Developmental 
Disabilities.'' Intellectual and Developmental Disabilities 49(4): 274-
84
    The evaluation provides evidence that when students with 
intellectual and developmental disabilities are expected and 
collaboratively supported to work in a good job, and start their career 
exploration, skill development and resume building at an age typical to 
their peers, they are more likely to get good jobs, go to work and stay 
working in the years following school. With access to good information, 
job developers and job coaches, assistance with benefits planning and 
assistance figuring out public transportation, students are more likely 
to go to work with community employers before they leave school at age 
21. The first intentional collaborations in transition from school to 
employment projects as described above began in Washington State in 
Thurston County in 1991. Students who got their first jobs at that time 
are now over 40 years old and well into their careers, while many 
students who did not participate remain unemployed. It has become clear 
during the last two decades that the positive impact of effective 
transition from school into employment continue across a work lifetime. 
Students with intellectual disabilities aged 18 to 21 who begin working 
in good jobs with community employers are also more likely to avoid the 
crisis of exiting school and staying home during the day or placement 
in a segregated work or habilitation center. The formal evaluation 
conducted by ICI also demonstrated that this cohort stayed employed at 
a higher rate after exiting school.
    The collaborative supports available to students require multiple 
partners (during and after school) to align expectations and leverage 
resources toward the common goal of good jobs for students with 
intellectual and developmental disabilities exiting school. In 
Washington State, the Division of Developmental Disabilities and county 
government provide the leadership role needed for the collaborative 
effort involving school districts, employment agencies, Vocational 
Rehabilitation, employers and families.

    Question 4. Are there any barriers at the Federal level that you 
have identified during your work? Could you expand on your testimony 
with specific issues identified?
    Answer 4. It would be helpful for the Federal Government to:

    (1) Invest in employment by reimbursing States a portion of the 
savings realized by the Social Security Administration and Medicaid 
when SSI and SSDI working age adult recipients go to work and report 
earnings. Earnings in integrated employment of SSI and SSDI recipients 
are readily available through State and Federal unemployment insurance 
departments.
    (2) Increase the Federal match to States providing integrated 
employment supports to Home and Community Based Services (HCBS) waiver 
recipients to the same level of Federal match available to Vocational 
Rehabilitation (VR) participants. Integrated employment options, other 
than through VR, are currently reimbursed through Medicaid. The Federal 
Medical Assistance Percentage (FMAP) available to States from Medicaid 
is the same rate for integrated employment, sheltered work, and day 
habilitation. A Federal reimbursement rate to States that does not 
differentiate the value of States providing integrated employment 
supports from States providing sheltered work or day habilitation 
programs, combined with chronically low expectations of people with 
disabilities means people who could work do not.
    (3) Allow Vocational Rehabilitation to extend the period of on-the-
job supports for the workforce with long-term support needs, including 
people with traumatic brain injury, very severe physical or 
psychiatric/behavioral disabilities and people with intellectual 
disabilities.

    Specific to the workforce of people with intellectual and 
developmental disabilities, Federal barriers exist on multiple levels. 
A significant barrier is the lack of expectation cemented in fiscal 
policy that people can and need support to work and can meet employers' 
business needs. If Federal policy and funding reinforced the 
expectation of work, it would be easier for States and businesses to 
improve employment outcomes. Currently it takes very strong leadership 
at the State and local level to deliver employment first policy and 
expectation. It would be easier if Federal policy and funding were 
aligned with employment first goals. The billions of dollars in the 
Medicaid budget alone seems to be reason enough for the Federal 
Government to be interested in making integrated employment an 
attractive option for States to develop and offer.
    The lack of expectation of employment at the Federal level began in 
well-meaning policies and budget directives that originated over half a 
century ago, based on the outdated notion that people with complex 
disabilities are ``unemployable'', similar to the 1950s thinking that 
children were ``uneducable''. Both myths are now disproven. The Federal 
Government recognized this in the early 1970s with Public Law 94-142 
(Education for All Handicapped Children Act) but there has not been a 
similar ``aha'' regarding Employment for All, and the Federal 
Government has not made the investment in States needed for States to 
create the cost-effective infrastructure required to support 
integrated, competitive employment.
    Medicaid provides FMAP for day activities for people with the most 
severe disabilities. Rules are based largely on a segregated/medical/
caretaking model and FMAP is the same regardless of the activity. The 
rules and funding policy do not support integrated, supported or 
customized employment. Support to States from the Federal Government 
does not make employment for the workforce of people with intellectual 
disabilities the most attractive support States can offer, yet it is 
the single most cost-effective support funding can provide to this 
population and a highly desirable outcome of government-funded 
supports. To attain what Senator Harkin sees as the goal of the ADA 
generation--participation in the middle class--people need to work in 
good jobs at good wages with decent benefits. To support this segment 
of the Nation's workforce to leave poverty behind and enter the middle 
class, the Federal Government needs to align policy and funding to make 
achievement of integrated, competitive employment possible for 
individuals with complex disabilities.
    To get a strong start on employment, our Nation needs to expect and 
support youth with complex disabilities, during the transition years 
prior to exiting school at age 21, to have access to collaborative 
efforts between State and local government, adult service agencies and 
school districts and to participate in career and technical education. 
During my testimony, I asked the HELP committee to insist on the cross 
agency collaboration to achieve the goal of employment for youth and 
adults. To achieve typical levels of employment at median wage or 
better, common employment definitions and accountability, common goals 
and clear measurement of progress and success needs to be in place 
across Education, Labor, Rehabilitation, and Medicaid.
    With Federal support, States can more effectively take the lead 
with employment of their workforce with disabilities. Currently, 27 
States participate in the State Employment Leadership Network (SELN), 
staffed by the Institute for Community Inclusion and the National 
Association of Directors of Developmental Disabilities Services. In 
their 2011 Accomplishment Report, the SELN identified elements critical 
to effective achievement of employment of the workforce of people with 
disabilities. Our Nation's ability to accomplish the goal of employment 
of our workforce with disabilities would benefit from these elements 
being in place at the Federal level:

    SELN 2011-2012 Accomplishments Report: The SELN supports States 
formulate and achieve employment goals that lead to systems change. The 
following approaches and expectations are the hallmarks of SELN member 
States as they strive to improve integrated employment outcomes.

    <bullet> Leadership.--Clear and unambiguous commitment to 
employment in individual community jobs, from top leadership through 
all levels in the system. Local and State-level administrators are 
champions for employment.
    <bullet> Strategic Goals and Operating Policies.--Employment is 
identified as the preferred outcome in State developmental disabilities 
policy, and is supported by program goals and operating practices that 
are clearly designed to achieve that objective.
    <bullet> Financing and Contracting Methods.--The outcome of 
employment in individual integrated community jobs is emphasized and 
supported through the State's resource allocation formulas, 
reimbursement methods, and rate-setting practices.
    <bullet> Training and Technical Assistance.--High-performing 
employment systems invest in the development and maintenance of a 
strong, competent workforce, building the skills of job coaches and 
developers, supervisors, and key employment staff.
    <bullet> Interagency Collaboration and Partnership.--Building 
relationships with key State and local agency partners, such as 
vocational rehabilitation, education, mental health, and the State 
Medicaid agency, removes barriers to employment supports as people 
transition from one funding stream to another.
    <bullet> Services and Service Innovation.--Service definitions and 
support strategies are structured and aligned to facilitate the 
delivery of employment supports to all individuals with developmental 
disabilities, regardless of the intensity of their needs.
    <bullet> Performance Measurement and Data Management.--
Comprehensive data systems are used to measure progress, benchmark 
performance, and document outcomes. Information is gathered on key 
indicators across employment and other related systems and is used to 
evaluate and track results, inform policy, and improve provider 
contracts and service agreements. Data are shared with other State 
agencies to report results and improve quality.

    For more information on the State Employment Leadership Network, 
contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0943666167274b7c7d7d6c7b7e667b7d61497c646b276c6d7c">[email&#160;protected]</a> or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0251777878636c6c672c44706767786742776f602c6766772c">[email&#160;protected]</a>
                                 ______
                                 
Attachment--Washington State Survey on Impact of Loss of WIPA and PABSS 
                        Funding Summary Findings
    Question 1. What is your position and your role (local, regional, 
statewide)? (16 total respondents to survey)

    Response:

     (1) Benefits Specialist for Division of Vocational Rehabilitation: 
Region--one third of the State
     (2) Employment Resource Coordinator, County Developmental 
Disabilities Division: Urban area
     (3) Senior Program Manager at Washington Initiative for Supported 
Employment: Statewide
     (4) Associate Director of Center for Independence: former western 
Washington WIPA contract
     (5) Executive Director, Advocate
     (6) Supported Employment Agency Director: Rural county
     (7) County Developmental Disabilities Program Administrator: 
Metropolitan and Rural county
     (8) Parent Coalition/Parent of adult child with developmental 
disabilities: Eastern WA
     (9) Benefits Planner, local government metropolitan county: 
Western Washington
    (10) Vocational Rehabilitation Counselor (unidentified location)
    (11) Partner, Pierce, Jones & Associates regional
    (12) Benefits Planner
    (13) Special Education Teacher and Transition Specialist, Urban 
school district
    (14) County Coordinator for Developmental Disabilities: 
Metropolitan county
    (15 & 16) Anonymous respondents to survey

    Question 2. Has the loss of funding for the WIPA and PABSS programs 
affected individuals' dependence on Social Security? (14 responded 
``YES'', 2 responded ``NO'')

    Response:

    <bullet> Yes--the loss of funding has increased the dependence on 
Social Security. Without guidance and support from the WIPA and PABSS 
programs, beneficiaries do not have the knowledge they need to overcome 
their fears of working and how it affects their Social Security.
    <bullet> Yes--the individuals are not able to get accurate 
information about the impact of work on their benefits (or support for 
problems with SSA through PABSS) they are less likely to seek 
employment due to fear about losing benefits and myths they hear from 
others. By not seeking employment or limiting their earnings from 
employment unnecessarily, they remain dependent on Social Security.
    <bullet> Yes--when people do not have access to benefits planning, 
they do not know what happens with their benefits when they go to work. 
This makes people fearful of trying employment due to fear of losing 
their benefits--especially medical coverage.
    <bullet> Yes--prior to WIPA, individuals routinely made the 
decision to not work for fear of losing benefits altogether. Through 
WIPA, widespread myths about working and the full loss of benefits has 
been widely dispelled. Individuals have become educated to understand 
that working, gaining independence, and relying less on Social Security 
and government systems is not only possible but encouraged by most 
systems without resulting in a total loss of fundamental supports and 
benefits. With the loss of WIPA, the myth that one can't work while 
receiving benefits has strengthened and is spreading, thereby 
encouraging greater reliance on Social Security and other government 
systems.
    <bullet> Yes--lack of information tends to result in crisis for 
some individuals (such as overpayment of benefits, unexpected loss of 
Medicaid eligibility, etc.) and those stories spread like wildfire, 
along with the message that work is not possible. For years, with WIPA-
funded benefits specialists and the Medicaid Infrastructure Grant 
funded assistance, we were making good headway toward employment and a 
reduction on reliance on SSA, and now, with a major source of benefits 
planning unfunded, we are losing some of the best-trained Benefits 
Planners. This lack of access to good information has caused people to 
be more dependent on Social Security and other public benefits.
    <bullet> Yes--the loss of this funding has significantly affected 
individuals who receive Social Security because they are unsure of how 
many hours and how much money they can earn. When these individuals are 
unsure and afraid they will lose their benefits entirely, they tend to 
reduce the amount of hours they work or stop working all together.
    <bullet> Yes--recipients no longer get the same level of assistance 
in reviewing their Social Security and other benefits prior to going to 
work. People do not understand the impact that work will have on their 
benefits and are afraid to work.
    <bullet> Yes--our agency provided expert benefit planning with WIPA 
funding to Washington State for 12 years. Daily, we continue to hear 
from dozens of people needing benefit planning assistance or help 
untangling the SSA overpayment web, but we no longer have funds to help 
them.
    <bullet> Yes--SS is a large and complex program; we have had a 
decrease in IRWE's, PASS plans, and IDA's. There has been an increase 
in individuals owing money back to SS because they do not know how, or 
are not able to fully comply without some assistance.
    <bullet> Yes--I think there are always concerns that people have 
regarding going to work and not having a good understanding on the 
potential impact to their benefits. Having agencies or organizations 
specializing in this area available to provide the needed information 
has been valuable in addressing those fears/concerns as it is a 
complicated system for the typical person to navigate and understand. 
Several people I have worked with have no understanding or mis-
understanding of how much they can work and/or how to use SS work 
incentives. As a result they either choose to work less than they are 
able to or not work at all.
    <bullet> Yes--beneficiaries tend to be hesitant about going back to 
work due to a fear of loss of benefits. Without individuals to provide 
assistance and assurance through the return to work process, many 
beneficiaries are choosing not to pursue work.
    <bullet> Yes--individuals who do not know how employment will 
impact their benefits are unlikely to return to work, or may return to 
work without reporting appropriately. This can lead to suppression of 
earnings potential, or to overpayments or other unexpected impacts. 
Often these unexpected impacts lead to individuals deciding not to 
continue working.
    <bullet> No--(no additional comment)
    <bullet> No, we have not done much with WIPA in our county, but it 
will later stretch other resources. Protection and Advocacy is very 
important in all States.

    Question 3. Has the loss of funding for the WIPA and PABSS programs 
affected the employment outcome of people with disabilities going to 
work or returning to work? (14 responded ``YES'', 2 responded ``NO'')

    Response:

    <bullet> Yes--if individuals are not able to get accurate 
information about the impact of work on their benefits (or support for 
problems with SSA through PABSS) they are less likely to seek 
employment or limit their earnings due to fear about losing benefits 
and myths they hear from others.
    <bullet> Yes--Positive Solutions and Plan to Work (Washington 
State's former WIPA contractors) worked with individuals with 
disabilities to overcome the obstacles that may discourage them from 
choosing to work or return to work. Their services included resolving 
overpayments; reducing fear about losing supports and services due to 
work; understanding how to report to Social Security and other 
government programs when working; and utilizing Social Security work 
incentives to maximize benefits and build wealth.
    <bullet> Yes--it was very helpful to be able to give people general 
information that dispelled some of the myths around benefits and 
working, and refer them to the two Washington State WIPA funded 
contractors for people to call. There were times that I could refer to 
other resources as well, but that was hit and miss, depending on the 
area of the State. The loss of the resources, coupled with the loss of 
the Medicaid Infrastructure Grant funding, has had a tremendous impact. 
In addition, for those that needed the Protection and Advocacy system, 
I could refer folks to the Protection and Advocacy System people at 
Disability Rights WA. As a State and a country, we are expecting a lot 
of people who are reliant on benefits when we expect them to work. We 
know it is well worth it for people to get a good job, but the 
recipients must have good, individualized information to overcome the 
fears of loss of benefits, and to be able to make informed choices 
about their career decisions. When good information is available, 
people overcome their fears and go to work . . . I've seen it time and 
again.
    <bullet> Yes, without Benefits Planning help, SSA and SSDI 
recipients are back to the fear mentality, thinking all their benefits 
will be lost if they go to work.
    <bullet> No--our county decided to replace the loss of Federal 
funding with local funding previously dedicated for agency training and 
instead use it to pay for the benefits planning service. (Note: this is 
an indication of how critical benefits planning services are in 
removing barriers to work for SSA recipients, but in this case, reduced 
funding available for agency training.)
    <bullet> Yes--Plan to Work and Positive Solutions (the State's 2 
WIPA contractors) provided critical information, guidance, and 
instruction to individuals who were nervous about working because of 
the potential impact of working to their Social Security benefits. 
People work hard to get their SSA benefits in place and do not want to 
compromise them by working. Without a proper benefit analysis that 
reflects their own specific situation of SSA and working, people 
sometimes choose not to work. Plan to Work and Positive Solutions 
reduced peoples' fears of working, and provided knowledge to 
individuals so they could make informed decisions about their 
employment and their employment goals.
    <bullet> Yes--we serve many individuals who without a benefits plan 
completed by a professional, choose not to work. They are afraid they 
will lose their medical benefits and there is little information out 
there to combat these urban myths.
    <bullet> Yes--I can think of two specific examples in which the 
person was working limited hours due to their misunderstanding that 
they could work more without losing all of their benefits. In both 
cases after working with a WIPA specialist, they began working more 
hours thus decreasing the amount of SS benefits they were receiving. In 
other cases, I am aware of people not wanting to work at all for fear 
of losing their benefits. After information is provided regarding of 
how going to work will impact their benefits, they were willing to 
pursue employment. Anyone who is working is paying taxes, spending 
money on goods and services so additional money is going back into the 
tax base.
    <bullet> Yes, one of the hidden benefits of the WIPA program was 
that CWICs often caught potential overpayments, provided guidance about 
Work Activity Reviews, and explained work incentives such as subsidies 
and special conditions. Without this information, many beneficiaries 
are intimidated by the communication they receive from the Social 
Security Administration, a normal mailing such as a Work Activity 
Review can instill fear in a beneficiary. Without a venue to receive 
assurance and information from, many beneficiaries opt to quit work 
instead of risk their benefits, even when there may be no substantial 
risk.
    <bullet> Yes, there are many myths surrounding working while on 
disability-based benefits that cause beneficiaries to avoid or fear 
pursuing work goals. Without access to clear, accurate information, 
some individuals are unnecessarily avoiding work altogether.
    <bullet> No (from county that did not use WIPA contractor)

    Question 4. Please give a few examples (individual stories) of the 
positive impact of PABSS or WIPA programs in Washington State.

    Response:

    <bullet> One person we worked with believed he was only allowed to 
work 15 hours a week or lose all his benefits. Through benefits 
planning with him, this individual was able to work 32 hours a week. 
After 1 year, he became a full-time employee. Another individual we 
serve worked full-time after discovering that he had not used his SSA 
allotted trial work months. After the trial months were over, he 
determined that he actually could work full-time. He is no longer 
receiving SSA benefits.
    <bullet> An SSI recipient had chosen not to work due to fear of 
losing her SSI cash benefits and Medicaid. She was referred to Positive 
Solutions (Washington State WIPA contractor) by an employment support 
agency that was actively trying to help her find employment. Positive 
Solutions not only helped Jen understand that she could make more money 
by choosing to work, all the while maintaining her Medicaid, they 
eventually helped her develop an Impairment-Related Work Expense (IRWE) 
so that she could afford some of her personal costs associated with 
working, including transportation. This story is common. With a little 
guidance and support, individuals routinely made the decision to work 
and rely less on Social Security. When SSA recipients understand Social 
Security rules, their responsibilities, and the fundamental concept 
that it is ok to work without losing all supports, they go to work.
    <bullet> Larry contacted a WIPA program when he had a pending job 
offer. He quickly became full-time and started using his Trial Work 
Period Months. At first, Larry was apprehensive about moving off of 
benefits, but after working and receiving benefits counseling, he has 
now used his Grace Period months and his cash benefit has been paused. 
He does not feel like he would have made it this far without the 
support of WIPA. Donna is a struggling single mom on SSDI. She has two 
children living with her. After speaking with a benefit counselor, 
Donna was advised to contact her Social Security claims representative 
and inquire about receiving auxiliary benefits for her children. It 
turns out she was due auxiliary benefits and the extra money she will 
be receiving will help her put food on the table and provide for her 
children. Ty contacted a WIPA program when his Representative Payee, 
his mother, informed him that he should not take an increase of hours 
at his employment. He has been working steadily for several years, and 
had decided to try for more hours, and eventually a promotion. Through 
the WIPA program's information and work incentive counseling, Ty and 
his Representative Payee were able to see how a subsidy would help Ty 
keep his SSDI for longer. He has increased his hours, and is now more 
financially stable. Also, he has been talking with his mother about 
accepting a promotion and moving out on his own, eliminating his 
reliance on benefits and increasing his self-sufficiency.
    <bullet> While federally funded, the WIPA program provided people 
with information to make informed choices about employment by better 
understanding the impact of work on their benefits. For the past 
decade, the WIPA's served anyone who needed benefits planning, both 
individual services as well as community presentations. Between 
multiple resources (WIPA, DVR, DDD), most individuals with disabilities 
had access to quality benefits planning by certified benefits 
specialists. This kind of planning provides individuals with an 
accurate understanding of the impact of work in their cash and medical 
benefits, dispels myths, facilitates use of work incentives and 
provides guidance for problems with Social Security. This allows 
individuals to work to their potential; keep needed support services, 
and increase their income using work incentives. The service of 
benefits planning has a positive impact on individuals seeking and 
maintaining employment as well as increasing their monthly income. 
PABSS provides systemic advocacy as well as providing support with some 
individual problems. Every service provided by the WIPA programs and 
PABSS has a positive impact on the lives of people with disabilities 
and their communities.
    <bullet> During the 12 years we provided Benefit Planning, we saw 
people start out working part-time, then increasing their time as they 
felt able, resulting in many going off their government-funded benefits 
entirely. Additionally, with support and planning, many were able to 
utilize and partner with other benefit opportunities to purchase homes 
or start their own business.
    <bullet> One individual worked with a WIPA to have a large 
overpayment that was Social Security fault forgiven. IRWE's or PASS 
plans are used for individuals to pay for their transportation to and 
from work so that they are able to work at businesses that are not on 
the bus line.
    <bullet> WIPAs have provided long-term services to help people move 
toward their employment goals, and to help them retain their employment 
outcomes. Sometimes, this results in something small, like an 
individual working part-time, reducing their SSI benefit, and paying 
more into the system through taxes. Other times, this can result in an 
individual understanding the system and moving entirely off benefits!

    Question 5. Please provide any other information that you think 
would be of assistance regarding WIPA and PABSS.

    Response:

    <bullet> The loss of funding for WIPA, as well as the loss of the 
Medicaid Infrastructure Grant, has been a devastating blow to 
Washington State. I receive several phone calls and e-mails from 
individuals with developmental disabilities and their families every 
day with questions about their benefits, and the impact of work on 
those benefits. They have already spoken with Social Security, and yet 
they continue to have many unanswered questions, as well as a fear to 
go or return to work. To whom do I refer them? Without basic guidance, 
education, and support, people often make the decision to not work. The 
impact is great: without work, individuals lose an opportunity to gain 
independence, build wealth, and develop meaningful skills; their 
community loses the opportunity to get to know them and shed 
preconceptions about disabilities; and family members sometimes lose 
their own independence and ability to work as they stay home to support 
their loved one.
    <bullet> DVR has internal Benefits Specialists who provide benefits 
planning services to open DVR cases. We are not considered WIPA's but 
our customers receive similar services to the WIPA's and positive 
outcomes about benefits planning are likely similar across 
organizations. The loss of WIPA services is significant because 
thousands of people with disabilities will no longer have access to 
free quality benefits planning services. Many organizations, including 
Mental Health clients, Developmental Disabilities clients, those 
serving individuals with brain injuries, etc. believe benefits planning 
is important but few have resources to pay for this service. In 
addition, Washington recently lost Medicaid Infrastructure Grant (MIG) 
funding which supported the statewide benefits planning network. The 
funding was used to provide technical assistance, ongoing training and 
maintaining connections across organizations of certified benefits 
specialists. The statewide benefits specialist network is a unique 
group who works together across agencies to help all members of the 
network gain more knowledge, problem solve, advocate all of which 
results in higher quality services for customers. A study by Cornell 
University notes that it can take up to a year for someone certified as 
a benefits specialist to become independent and that ongoing training, 
mentoring, staffing, etc., supports their professional development.
    The MIG funding provided a structure for this that no longer 
exists.
    <bullet> I am concerned about the loss of the Medicaid 
Infrastructure Grants that came to the States, as these helped, at 
least in Washington State, to provide ongoing training and technical 
assistance that benefits planners need to continue to improve their 
skills and remain connected to a professional group with the same 
goals. In addition, the funding allowed State policymakers to 
collaborate with other policymakers around the Nation and share stories 
of success, and brainstorm strategies to address issues regarding 
employment. This is very important in moving to a system that 
encourages and supports working in good jobs for adults with 
disabilities.
    <bullet> The planners were able to educate and guide people through 
the multiple State and Federal programs. They were also able to help 
alleviate some of the burden on SSA employees by either educating the 
consumers or guiding them through the incentives and reporting of wages 
to maximize their earnings, prevent overpayments, and alleviate the 
fear of working without a safety net.
    <bullet> This program was instrumental in informing individuals and 
agencies of the accurate information needed about Social Security rules 
and supports to work. With this information, agencies helping people 
get jobs can better assist and plan for SSA recipients to become self 
sufficient.
    <bullet> The loss of funding to these programs has had a direct 
impact to the work I do. I work with individuals who are part of the 
Division of Developmental Disabilities (DDD), but I receive many phone 
calls from individuals who are not part of DDD. Patt Buff of Plan to 
Work (former WIPA contractor) was a contact for me to refer to for 
assistance for folks who are not a part of DDD. I was also able to 
refer individuals from other counties who do not have a benefits 
planner to Patt. Now there is a growing need for such a service in 
smaller counties who are trying to help people on their path to 
employment, many of whom believe they will lose their benefits if they 
start working. These individuals need a benefits planner to help them 
understand how work affects their SSA benefits. Patt broke down these 
barriers.
    <bullet> We ask people on title II and title XVI to go to work, and 
I think we should: but we must also be sure that these individuals are 
given all the needed information and supports they need to ensure that 
the benefits that they need stay in place. We need folks to know that 
they can work and keep their medical benefits or buy into the program 
as their incomes rise.
    <bullet> I think another area that the Federal Government should 
consider is increasing the amount people can earn on SSDI, $1,010 prior 
to losing their whole benefit and look into making it similar to SSI 
where it is more a gradual shift. I feel this could also save money for 
the Social Security Administration in the long run.
    <bullet> People feel safer looking for work, expecting to work and 
wanting to be productive society members when they know there are 
systems in place that will help them stay safe and we all know that 
working with assistance is far more advantageous to the economy of this 
country in the long haul than mere public assistance.

    For more information on this survey, contact Jane Boone: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e9a388878cab8686878ca98a86848a889a9dc7878c9dc7">[email&#160;protected]</a>
                    michael o'brien, ed.d, crc, cve
    Question 1. Last year the Social Security Administration did not 
issue new grants for the Protection and Advocacy for Beneficiaries of 
Social Security and Work Incentives Planning Assistance programs. As 
you know, these programs provide valuable advocacy, information, and 
training for people with disabilities receiving Social Security 
benefits to help the beneficiary return to work, thus reducing 
dependence on Social Security and encourage independence. These 
programs helped thousands of people with disabilities return to work 
each year, which benefits Federal, State, and local budgets. Do you 
think the Federal Government should be funding these programs to help 
people with disabilities return to work?
    Answer 1. Yes, I am convinced that new grants should be issued for 
the Protection and Advocacy of Social Security and Work Incentives and 
Planning Assistance programs. Oklahoma citizens benefited from these 
grants. However, I think additional guidance should be provided so 
there is more focus on full-time work and less focus (by some benefit 
planners) on part-time work.

    Question 2. Are there any examples in your State of the positive 
impact of the Protection and Advocacy for Beneficiaries of Social 
Security and Work Incentives Planning Assistance programs? Please 
provide one or two examples and describe the benefits of the grant.
    Answer 2. In Oklahoma we felt that benefit planning through the 
WIPAs was so critical that we added eight of our own that we paid for 
from our budget. For a period of time the two sets of benefit planners 
overlapped across the State and were able to meet with more than twice 
as many clients. Our own benefit planners, certified by Social 
Security, helped us more than double the number of Social Security 
recipients leaving the roles. We would expect these increases to be 
even greater if the WIPA program was returned.

                            donald r. uchida
        Utah State Office of Rehabilitation (USOR),
                           Salt Lake City, Utah 84114-4200,
                                                     March 7, 2013.
Hon. Patty Murray,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Murray: I am responding to your ``Questions for the 
Record'' from the Senate Health, Education, Labor, and Pensions 
Committee hearing on ``State Leadership and Innovation in Disability 
Employment'' held Tuesday, February 26, 2013.
                                 ______
                                 
    Question. Do you think the Federal Government should be funding 
these programs [PABSS and WIPA] to help people with disabilities return 
to work?
    Answer. Emphatically, yes. We, in Utah feel this service is so 
critical that we decided to divert direct client service money to fund 
these positions when the Social Security WIPA funding went away. This 
was the 4th partnership mentioned in my written testimony. As I stated 
in my testimony, we run VR like a business and you have to invest money 
to generate money.
    Attachment 10 in the packet accompanying my written testimony 
indicates the level of beneficiaries we have involved in vocational 
rehabilitation preparing these individuals to go to and go back to 
work. Attachment 11 shows the return on our investment of keeping these 
WIPA staff intact. Our goal/benchmark is to get back at least $1 
million each year in Social Security reimbursement for the individuals 
we get and keep working at a level that they are taken off disability 
benefits.
    Accompanying this letter are some success stories gathered from our 
UWIPS/WIPA staff.
    Thank you for your interest in our program.
            Sincerely,
                                          Donald R. Uchida,
                                                Executive Director.
                                 ______
                                 
                       uwips/wipa success stories
                                   i.
    I recently assisted a client in learning about how work impacts his 
Social Security benefits. He was offered a position working as a 
carpenter renovating several Motel 8's to become accessible for people 
with disabilities. Upon completion of our Benefits Summary 
presentation, he realized he could accept and work at this full-time 
position earning $12 per hour. Although he would not be eligible for a 
SSI cash benefit during this employment venture, if he was physically 
unable to complete this project his case at Social Security would 
remain on hold for 1 year in case there was a change in his employment 
status, which gave him the confidence to work full-time.
                                  ii.
    I met with a client who was referred to me by a community partner. 
He originally went to the community partner looking for income to 
supplement his SSDI check. They were able to find him a job working at 
the local mine as a security guard. When the job became a reality, he 
was hesitant to take the job because he feared how his SSDI benefits 
would be affected. The community partner recommended he meet with me to 
go over the SSDI program guidelines.
    After meeting with me and learning about the Trial Work Period and 
Extended Period of Eligibility, he decided to take the job. He is now 
working about 30 hours per week earning approximately $10 per hour, 
which is above SGA. He will try out working and see what he is capable 
of doing. He thought he may be able to go full-time once his body 
adjusts to the number of hours he is working now. This is a great 
example of how someone's life can be changed, as they have the 
knowledge and information provided by the WIPA/UWIPS program.
                                  iii.
    I met with a client in January 2012. She is a concurrent 
beneficiary who has been receiving disability income since 2001. The 
client's disability includes bi-polar, depression and anxiety. At one 
time she was considered severely and persistently mentally ill. She 
stated she received counseling and with the right medication she began 
to stabilize and life ``calmed down''. She began a protected employment 
position as a secretary at a local mental health center in September 
2011 working about 12-13 hours per week earning approximately $400 per 
month. In April 2012 she moved to a position with more hours and 
started using her Trial Work Months.
    She continued to do well and in June decided to move to a full-time 
position earning $9 an hour plus commission, which is earning above 
SGA. The client stated that because she received WIPA/UWIPS services 
she understood her Social Security benefits better and this gave her 
confidence to move to a full-time position. She said that because she 
would continue to have the medical coverage she needs and she has the 
option through Expedited Reinstatement to get back on benefits if 
something happens, she felt comfortable moving toward full-time 
employment.
    Her Trial Work Months will end in September 2012. The client is 
excited about her progress and said it feels good to do this because 
she is a better example to her kids, she wants to be financially 
independent, and she is looking forward to the work environment and 
friendships she will develop.
                                  iv.
    A client was referred to me by his service provider. He was 
receiving SSDI and also the Community Supports Waiver from the Division 
of Services or People with Disabilities (DSPD). The services he 
received from this waiver had allowed him to maintain his independence. 
He had been working part time for the past 5 years at a local store, 
and had received a letter from Social Security informing him that his 
SSDI was being terminated as of June 2011 due to earnings over SGA, and 
he had an overpayment of $8,500. His biggest concern was the potential 
loss of his Medicaid, and his Waiver status.
    After review of his situation, I suggested that he contact PABSS to 
assist him with the overpayment issue. Based on the information he had 
provided, it appeared he may be eligible for a work incentive, a 
subsidy. PABSS could help him pursue requesting a retroactive subsidy, 
which would be appropriate in his work situation, and could impact the 
amount of his overpayment. I suggested his Representative Payee contact 
the Area Work Incentive Coordinator, Esther Medina, at Social Security 
to make sure they were reporting earnings appropriately, as well as to 
gain information on additional responsibilities they may be unaware of 
as a professional Rep Payee.
    I informed the client and his service provider that even if his 
SSDI benefit was terminated, he would maintain his Medicare for several 
years and could still qualify for his Medicaid based on his income and 
disability, thereby allowing him to maintain his Medicaid Waiver 
services. He would have to provide his disability information to the 
State Disability Board at some time in the future to be determined as 
disabled without his Social Security Benefits.
    The clients' earnings from his job were higher than his SSDI 
payment, and due to his ability to maintain the medical benefits and 
Medicaid Waiver services, it was his preference to continue his current 
work schedule and earnings, and let Social Security terminate his SSDI 
cash payment.
                                   v.
    I met with a client in 2011 for WIPA/UWIPS. The client has a mental 
health disability and is receiving SSDI. She is single and does not 
have any children. When I first met with her she was working 20 hours 
or less per week. After receiving WIPA/UWIPS services she decided that, 
because of the work incentives provided, she would set a goal to 
increase her hours to 25 per week. She accomplished this goal in 2012. 
She contacted me during this quarter to review Extended Medicare 
Coverage and Expedited Reinstatement because she would like to increase 
her hours to full-time.

    [Whereupon, at 4:31 p.m., the hearing was adjourned.]




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
